<html>
<title> - MEMBERS' DAY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








                              MEMBERS' DAY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 6, 2013

                               __________

                            Serial No. 113-2

                               __________

           Printed for the use of the Committee on the Budget






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Available on the Internet:
 www.gpo.gov/fdsys/browse/committee.action?chamber=house&committee=budget

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-207 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                       COMMITTEE ON THE BUDGET

                     PAUL RYAN, Wisconsin, Chairman
TOM PRICE, Georgia                   CHRIS VAN HOLLEN, Maryland,
SCOTT GARRETT, New Jersey              Ranking Minority Member
JOHN CAMPBELL, California            ALLYSON Y. SCHWARTZ, Pennsylvania
KEN CALVERT, California              JOHN A. YARMUTH, Kentucky
TOM COLE, Oklahoma                   BILL PASCRELL, Jr., New Jersey
TOM McCLINTOCK, California           TIM RYAN, Ohio
JAMES LANKFORD, Oklahoma             GWEN MOORE, Wisconsin
DIANE BLACK, Tennessee               KATHY CASTOR, Florida
REID J. RIBBLE, Wisconsin            JIM McDERMOTT, Washington
BILL FLORES, Texas                   BARBARA LEE, California
TODD ROKITA, Indiana                 DAVID N. CICILLINE, Rhode Island
ROB WOODALL, Georgia                 HAKEEM S. JEFFRIES, New York
MARSHA BLACKBURN, Tennessee          MARK POCAN, Wisconsin
ALAN NUNNELEE, Mississippi           MICHELLE LUJAN GRISHAM, New Mexico
E. SCOTT RIGELL, Virginia            JARED HUFFMAN, California
VICKY HARTZLER, Missouri             TONY CARDENAS, California
JACKIE WALORSKI, Indiana             EARL BLUMENAUER, Oregon
LUKE MESSER, Indiana                 KURT SCHRADER, Oregon
TOM RICE, South Carolina
ROGER WILLIAMS, Texas
SEAN P. DUFFY, Wisconsin

                           Professional Staff

                     Austin Smythe, Staff Director
                Thomas S. Kahn, Minority Staff Director













                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, March 6, 2013....................     1

    Hon. Dennis A. Ross, a Representative in Congress from the 
      State of Florida...........................................     2
        Prepared statement of....................................     3
    Hon. Earl Blumenauer, a Representative in Congress from the 
      State of Oregon............................................     5
    Hon. Gene Green, a Representative in Congress from the State 
      of Texas...................................................     7
        Prepared statement of....................................     9
    Hon. Steve Daines, a Representative in Congress from the 
      State of Montana...........................................    10
        Prepared statement of....................................    12
    Hon. Ami Bera, a Representative in Congress from the State of 
      California.................................................    13
    Hon. Scott DesJarlais, a Representative in Congress from the 
      State of Tennessee.........................................    14
    Hon. Richard Nugent, a Representative in Congress from the 
      State of Florida...........................................    16
    Hon. Ann Kirkpatrick, a Representative in Congress from the 
      State of Arizona...........................................    17
    Hon. Scott Peters, a Representative in Congress from the 
      State of California........................................    19
    Hon. Randy Neugebauer, a Representative in Congress from the 
      State of Texas.............................................    21
    Hon. Ed Whitfield, a Representative in Congress from the 
      State of Kentucky..........................................    24
    Hon. Bradley S. Schneider, a Representative in Congress from 
      the State of Illinois......................................    25
        Prepared statement of....................................    27
    Hon. Paul D. Tonko, a Representative in Congress from the 
      State of New York..........................................    28
        Prepared statement of....................................    30
    Hon. John C. Carney, Jr., a Representative in Congress from 
      the State of Delaware......................................    31
        Prepared statement of....................................    33
    Hon. Joe Wilson, a Representative in Congress from the State 
      of South Carolina..........................................    34
        Prepared statement of....................................    36
    Hon. Jim McDermott, a Representative in Congress from the 
      State of Washington........................................    37
    Hon. Keith Ellison, a Representative in Congress from the 
      State of Minnesota.........................................    38
    Hon. Donna M. Christensen, a Delegate in Congress from the 
      Virgin Islands.............................................    40
    Hon. Elizabeth H. Esty, a Representative in Congress from the 
      State of Connecticut.......................................    42
        Prepared statement of....................................    43
    Hon. Joe Courtney, a Representative in Congress from the 
      State of Connecticut.......................................    44
        Graph: ``S&P Medicare Index''............................    47
    Hon. Gerald E. Connolly, a Representative in Congress from 
      the State of Virginia......................................    47
    Hon. Dina Titus, a Representative in Congress from the State 
      of Nevada..................................................    48
        Prepared statement of....................................    49
    Hon. Ron Barber, a Representative in Congress from the State 
      of Arizona.................................................    50
        Prepared statement of....................................    52
    Hon. Matt Salmon, a Representative in Congress from the State 
      of Arizona.................................................    54
        Prepared statement of....................................    56
    Hon. Andy Barr, a Representative in Congress from the State 
      of Kentucky................................................    58
        Prepared statement of....................................    60
    Hon. Michelle Lujan Grisham, a Representative in Congress 
      from the State of New Mexico...............................    61
        Prepared statement of....................................    63
    Hon. Rick Larsen, a Representative in Congress from the State 
      of Washington..............................................    64
        Prepared statement of....................................    66
    Hon. Bill Foster, a Representative in Congress from the State 
      of Illinois................................................    68
        Prepared statement of....................................    69
    Additional statements submitted for the record:
        Hon. Julia Brownley, a Representative in Congress from 
          the State of California................................    70
        Hon. Cheri Bustos, a Representative in Congress from the 
          State of Illinois......................................    71
        Hon. Judy Chu, Chair, Congressional Asian Pacific 
          American Caucus (CAPAC)................................    72
        Hon. Danny K. Davis, a Representative in Congress from 
          the State of Illinois..................................    76
        Hon. Suzan K. DelBene, a Representative in Congress from 
          the State of Washington................................    78
        Hon. Marcia L. Fudge, a Representative in Congress from 
          the State of Ohio......................................    79
        Hon. Tulsi Gabbard, a Representative in Congress from the 
          State of Hawaii........................................    82
        Hon. William R. Keating, a Representative in Congress 
          from the State of Massachusetts........................    82
        Letter, dated Mar. 11, 2013, from Hon. Ben Ray Lujan, a 
          Representative in Congress from the State of New Mexico    84
        Hon. Gloria Negrete McLeod, a Representative in Congress 
          from the State of California...........................    86
        Hon. Markwayne Mullin, a Representative in Congress from 
          the State of Oklahoma..................................    87
        Hon. Robert Pittenger, a Representative in Congress from 
          the State of North Carolina............................    88
        Hon. Martha Roby, a Representative in Congress from the 
          State of Alabama.......................................    88
        Hon. Janice D. Schakowsky, a Representative in Congress 
          from the State of Illinois.............................    89
        Hon. Carol Shea-Porter, a Representative in Congress from 
          the State of New Hampshire.............................    90

 
                              MEMBERS' DAY

                              ----------                              


                        WEDNESDAY, MARCH 6, 2013

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:04 a.m., in room 
210, Cannon Office Building, Hon. Vicky Hartzler, presiding.
    Present: Representatives McClintock, Hartzler, Warlorski, 
Rice, Van Hollen, McDermott, Cicilline, Pocan, Lujan Grisham, 
and Blumenauer.
    Mrs. Hartzler. This hearing will come to order. Good 
morning and welcome to the Budget Committee Members Day 
hearing.
    Before we begin, as it looks like we are scheduled to have 
votes early this afternoon, so I ask unanimous consent that 
consistent with clause 4 of House rule 16, the chairman is 
authorized to declare a recess at any time. Without objection, 
the request is agreed to.
    This is a hearing we hold every year to hear from our 
colleagues about their views on the budget. This hearing is 
directed by section 301(e)(1) of the Budget Act, and its intent 
is to bring about a forum in which members can relay their 
priorities for their district, for their State, and indeed for 
our country.
    We are pleased to have a diverse group of members from both 
sides of the aisle who are scheduled to make presentations, and 
we look forward to receiving their testimony.
    Before we begin, I would like to turn to my colleague, Mr. 
Blumenauer and see if you have any comments you would like to 
make.
    Mr. Blumenauer. Thank you, Madam Chair. I look forward to 
hearing from our colleagues. It is interesting every year to 
have an opportunity for people to share with us their 
priorities. We all agree that it is vital to reduce the deficit 
over the next decade, using a steady and predictable approach. 
I am hopeful that we will be able to use this opportunity to 
look at what is in the best interests not only for our 
constituents, but for the country as a whole now and in the 
future.
    Crafting a budget resolution is an exercise in 
demonstrating priorities. Mr. Van Hollen, were he here--he is, 
unfortunately, unable to be at two places at once. I know he is 
coming back from the Capitol and the leadership meeting--will 
be talking about focusing on job creation, continuing an 
economic recovery that we have all worked hard on the last few 
years.
    I think it is clear that the sequester is exactly the wrong 
thing for the country to do right now. According to the CBO, it 
is going to cost in the neighborhood of three-quarters of a 
million jobs in this year alone and reduce the economic growth 
that we could otherwise expect by about a third.
    Mr. Van Hollen will be putting forth a budget alternative 
that my Democratic colleagues will be working with him to 
develop to replace the sequester with an equal amount of 
deficit reduction but is obtained in a more balanced way. And 
that will be a theme you will hear throughout these 
deliberations, thinking about being able to do it in a balanced 
and thoughtful way. The overwhelming majority of the American 
public, according to public opinion surveys and I think common 
sense, approach this hoping that we will be able in a balanced, 
bipartisan way to make some progress.
    I look forward to participating here with you and perhaps 
circling back later in the day to share some of my own biases.
    Mrs. Hartzler. It sounds very good. Thank you very much, 
Mr. Blumenauer.
    As a reminder, members will have 5 minutes to give their 
oral testimony, and their written statements will be submitted 
for the record. Additionally, members of the committee will be 
permitted to question the witness following their statements, 
but out of consideration of our colleagues' time and to 
expedite today's proceedings, I ask that you please keep your 
comments brief.
    I now will call our first witness, Mr. Dennis Ross from 
Florida. You are recognized.

  STATEMENT OF HON. DENNIS ROSS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Ross. Thank you, Madam Chairman, and thank you members 
of the Budget Committee for your time and opportunity today to 
engage in this dialogue regarding the budget.
    I have introduced H.R. 239, the Zero-Based Budgeting 
Ensures Responsible Oversight, or ZERO, Act which requires 
agencies and departments to draft their budgets starting at a 
zero baseline instead of current funding levels as they do 
today. To do that, my bill requires every department under the 
President's budget to Congress to provide four things.
    First, they must provide a description of each activity 
that requires an appropriation from Congress.
    Second, they must cite to Congress the legal basis under 
which they may lawfully receive an appropriation.
    Third, they must offer three alternative funding levels.
    And fourth and finally, they must provide a summary of the 
cost effectiveness to the taxpayer for each activity that 
requires an appropriation from Congress.
    This is to ensure that every expenditure is justified. 
Removing the baseline from agency and department budgets and 
implementing zero-based budgeting instead would get rid of the 
automatic spending increases that encourage increased spending.
    For these reasons, I would like to speak to you about the 
budget process reform and the need to pass the ZERO Act into 
law.
    As the Citizens Against Government Waste explained in their 
support of my bill, quote, baseline budgeting is one of the 
most sinister ways that politicians claim to cut spending when 
they are actually increasing spending. For example, if an 
agency's budget is projected to grow by $100 million but only 
grows by $75 million, according to baseline budgeting, that 
agency sustained a $25 million cut. That is equivalent to 
someone who expects to gain 100 pounds but only gains 75 pounds 
and then says, well, I have lost 25 pounds. The Federal 
Government is the only place where this absurd logic is 
employed.
    Zero-based budgeting has been widely successful with State 
and local governments. Since 2008, Idaho has taken zero-
budgeting one step forward and used it as a tool to prioritize 
programs based on statutory requirements. Under the direction 
of Governor Butch Otter, the Idaho Budget Bureau is identifying 
programs and activities outside of the central mission of the 
agency, eliminating or moving programs to other agencies that 
are not in line with the central mission of the agency and has 
been able to better prioritize agency resources and functions 
accordingly. Idaho has used zero-based budgeting for strategic 
planning and prioritizing, which has put agencies in a better 
position to make recommendations when faced with tough budget 
cuts.
    We just took a $42 billion across-the-board cut without any 
attempt to prioritize agency and department missions. 
Sequestration was bad policy and we could have avoided it had 
we addressed the cuts ahead of time. If Congress had used the 
zero-based budgeting application, as required under H.R. 239, 
and given agencies and the departments a chance to review their 
activities and streamline duplicative programs, we would not be 
in this battle of who to blame over sequestration and our 
finances would be better for it.
    Furthermore, zero-based budgeting also has support across 
the aisles. Initially introduced in the 1970's, the 
administration then implemented a zero-based budgeting to 
control expenditures within the agencies' budgets. In 1976 
under a Democrat-controlled Congress, appropriating committees 
selected independent agencies to test the applicability of 
zero-based budgeting, and the agency requests were available 
for review by the authorizing committees. Agencies were 
required to consider alternative levels of funding for 
discretionary programs, sometimes three to four alternatives, 
and the practice lasted until 1994. My bill requires very 
similar details.
    With America facing $16 trillion in debt and credit rating 
agencies demanding that we put ourselves on a path to pay off 
debt to remain creditworthy, it is time to rethink how Congress 
writes our budgets. If American families and businesses know 
how to assess their spending and programs every year, so should 
Congress. It is imperative that we do away with the baseline 
budgeting tricks and gimmicks and become better stewards of the 
taxpayer money.
    I urge the committee to pass H.R. 239, the ZERO Act, to 
smoke out waste in the Federal agencies and departments and put 
taxpayers back in check.
    I thank you for this opportunity and yield back the balance 
of my time.
    [The prepared statement of Dennis Ross follows:]

     Prepared Statement of Hon. Dennis A. Ross, a Representative in
                   Congress From the State of Florida

    Thank you members of the Budget Committee for your time and for 
this opportunity to engage in the dialogue regarding the budget.
    I have introduced H.R. 239, the Zero-based-budgeting Ensures 
Responsible Oversight, or ZERO Act, which requires agencies and 
departments to draft their budgets starting at a zero baseline, instead 
of current funding levels as they do today. To do that, my bill 
requires every department under the President's Budget to Congress to 
provide four things:
    1. Provide a description of each activity that requires an 
appropriation from Congress;
    2. Cite to Congress the legal basis under which they may lawfully 
receive an appropriation;
    3. Offer three alternative funding levels;
    4. Provide a summary of the cost effectiveness to the taxpayer for 
each activity that requires an appropriation from Congress.
    This is to ensure that every expenditure is justified. Removing the 
baseline from agency and department budgets and implementing zero-based 
budgeting instead would get rid of the automatic spending increases 
that encourage increased spending. For these reasons, I would like to 
speak to you about budget process reform and the need to pass the ZERO 
Act into law.
    As the Citizens Against Government Waste explained in their support 
of my bill, HR 239:
    ``Baseline budgeting is one of the most sinister ways that 
politicians claim to cut spending when they are actually increasing 
spending. For example, if an agency's budget is projected to grow by 
$100 million, but only grows by $75 million, according to baseline 
budgeting, that agency sustained a $25 million cut. That is equivalent 
to someone who expects to gain 100 pounds [but] only gaining 75 pounds 
[and takes] credit for losing 25 pounds. The federal government is the 
only place where this absurd logic is employed.''
    Zero-based budgeting has been widely successful with state and 
local governments.
    Since 2008, Idaho has taken zero-based budgeting one step forward 
and used it as a tool to prioritize programs based on statutory 
requirements. Under the direction of Governor Butch Otter, the Idaho 
Budget Bureau is identifying programs and activities outside of the 
central mission of the agency, eliminating or moving programs to other 
agencies that are not in line with the central mission of the agency, 
and has been able to better prioritize agency resources and functions 
accordingly. Idaho has used zero-based budgeting for strategic planning 
and prioritizing, which has put agencies in a better position to make 
recommendations when faced with tough budget cuts.
    We just took a $42 billion across-the-board cut without any attempt 
to prioritize agency and department missions and functions. 
Sequestration was bad policy and could have been avoided if we had 
addressed cuts ahead of time. If Congress had used the zero-based 
budgeting as required under H.R. 239 and given agencies and departments 
a chance to review their activities and streamline duplicative 
programs, we would not be in this battle of who to blame over 
sequestration. And our finances would be better for it.
    Furthermore, zero-based budgeting also has support across the 
aisles.
    Initially introduced the late 1970s, the Administration then 
implemented zero-based budgeting to control expenditures within 
agencies' budgets. In 1976, under a Democratic Congress, appropriating 
committees asked selected independent agencies to test the 
applicability of zero-based budgeting, and the agency requests were 
available for review by the authorizing committees. Agencies were 
required to consider alternate levels of funding for discretionary 
programs, sometimes three to four different alternatives, and the 
practice lasted until 1994. H.R. 239 requires very similar details.
    With America facing $16 trillion in debt, and credit rating 
agencies demanding that we put ourselves on a path to pay off that debt 
to remain credit-worthy, it is time to re-think how Congress writes our 
budgets. If American families and business know how to assess their 
spending and programs every year, so should Congress. It is imperative 
that we do away with the baseline budgeting tricks and gimmicks and 
become better stewards of the taxpayer's money. I urge the committee to 
pass H.R. 239, the ZERO Act, to smoke out waste in the federal agencies 
and departments and put taxpayer spending in check.
    Thank you and I yield back the balance of my time.

                                addendum
     Council for Citizens Against Government Waste,
                 1301 Pennsylvania Avenue, N.W. Suite 1075,
                                  Washington, DC, February 8, 2013.
U.S. Representative, Washington, DC 20515.

    Dear Representative: Rep. Dennis Ross (R-Fla.) has introduced H.R. 
239, the Zero-based budgeting Ensures Responsibility (ZERO) Act, which 
would require that all departments and agencies in the federal 
government switch from baseline budgeting to zero-based budgeting. On 
behalf of the more than one million members and supporters of the 
Council for Citizens Against Government Waste (CCAGW), I urge you to 
support this legislation.
    Baseline budgeting is one of the most sinister ways that 
politicians claim to cut spending when they are actually increasing 
spending. The Congressional Budget Office defines the baseline as a 
benchmark for measuring the budgetary effects of proposed changes in 
federal revenue or spending, with the assumption that current budgetary 
policies or current services are continued without change. Baseline 
budgeting, therefore, builds automatic future spending increases into 
Congress's budgetary forecasts and tilts the budget process in favor of 
increased spending and taxes. For example, if an agency's budget is 
projected to grow by $100 million, but only grows by $75 million, 
according to baseline budgeting, that agency sustained a $25 million 
cut. That is equivalent to someone who expects to gain 100 pounds only 
gaining 75 pounds taking credit for losing 25 pounds. The federal 
government is the only place where this absurd logic is employed.
    H.R. 239 would require that, effective January 1, 2015, all 
departments and agencies of the government utilize zero-based 
budgeting. The ZERO Act additionally requires that each department and 
agency provide a description of each activity that requires an 
appropriation from Congress; cite to Congress the legal basis under 
which they may lawfully receive an appropriation; offer three 
alternative funding levels; and provide a summary of the cost 
effectiveness and efficiency to the taxpayer for each activity that 
requires an appropriation from Congress.
    Eliminating the inflated budget baseline will force Congress to 
justify and account for increased spending instead of hiding behind 
automatic increases. I urge you to support the ZERO Act. All votes on
    H.R. 239 will be among those considered in CCAGW's 2013 
Congressional Ratings.
            Sincerely,
                               Thomas A. Schatz, President,
                     Council for Citizens Against Government Waste.

    Mrs. Hartzler. Thank you, Mr. Ross.
    Do we have any questions for the witness?
    All right. Thank you very much.
    Mr. Blumenauer. Madam Chair, as we are waiting for our next 
witness, I might just share some observations that I was going 
to offer later in the hearing, if that is all right.
    Mrs. Hartzler. Please proceed.

STATEMENT OF HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Blumenauer. This is one of the opportunities for us to 
enter into the record our own thoughts and observations before 
we move forward into the more formalized efforts before the 
committee.
    I have a personal desire that--maybe it is a hope that at 
some point there is a chance to go back and forth on the Budget 
Committee not so much in terms of the way that we have done it 
in the past, but opportunities to really as a committee, at 
least informally, zero in on areas where there might actually 
be some agreement.
    I am personally keenly interested in our being able to, in 
this committee, deal with some of the aspects of the defense 
budget. Here is an area where I think all of us decry the 
effects of sequestration, sort of the meat axe approach. We all 
agree that we want the United States to have unparalleled 
military might and the ability to protect and defend this 
country, but I think most of us would agree that we are 
spending too much for the wrong people to do the wrong things.
    We have a nuclear arsenal that is going to cost about 
three-quarters of a trillion dollars this next 10 years, and 
much of it is directed towards the threats of the Cold War and 
the former Soviet Union, long after that ceased to exist. We 
have probably conservatively 10 times the nuclear weapons that 
are necessary to deter anybody on the planet and render their 
country uninhabitable. We are maintaining not one, not two, but 
three redundant delivery systems, nuclear submarines, bombers, 
and land-base missiles, again far more than we need and 
candidly far more than we can afford. We have not used these 
devices in 68 years. All this redundancy piles up costs and 
does not help us for the threats that we face today, real 
threats that have resulted in having two wars. We are dealing 
with terrorism. We need to, I think, adjust that effort.
    I hope that we stop defending east Germany from western 
Russia.
    I hope at some point we talk about how we come to grips 
with the reality of an all-volunteer military and an all-
volunteer military that is as large as it is now. The costs in 
the long run are as egregious as anything that we are facing 
with other entitlements, and we really have not talked about 
how we are going to cope with that, either right-sizing it or 
providing more resources.
    In the area of health care--and our friend, the chairman, 
Mr. Ryan, has charts that talk about how the path we are on is 
unsustainable. But the question is how do we change that path. 
And there are many parts of the country where people have 
already not only implemented health care reform, they are 
accelerating it. And rather than having an ongoing debate to 
minimize to try and get in the way of health care reform, we 
should be accelerating it.
    I represent a State, Oregon, where we have made a 
commitment to the Federal Government to reduce our Medicare 
spending 2 percent a year over the next 5 years, and the 
Federal Government takes it seriously enough to have bet $1.9 
billion that we can do it. If we did this nationally--and it is 
being done in private clinics and in some areas of the 
country--that would save more than the entire sum we are 
talking about in sequestration over the next 10 years.
    It has been a pleasure to work with Chairman Ryan over the 
years on agricultural reform. I hope that we take the fact that 
we have not yet reauthorized the bill and that the Budget 
Committee might help shape some of this. I fully expect the 
chairman will do something dealing with crop insurance, but 
seeing if there are ways that we can accelerate that with 
direct payments with crop insurance and sending messages that 
we want.
    And last but not least, I have talked with the chairman. I 
have talked to the ranking member about this committee doing 
something publicly about the infrastructure deficit that we 
face where America is falling apart. The President mentioned 
50,000 structurally unsound bridges. These are things that I 
hope we are able to give attention to that will make a big 
difference in this budget and beyond.
    I appreciate the opportunity to be with you, share a few of 
my biases. I look forward to working with the chair and the 
ranking member.
    And I yield back.
    Mrs. Hartzler. Thank you, Mr. Blumenauer.
    Are there any questions for our witness?
    All right. Thank you very much for sitting in here and 
helping with the hearing today.
    Hello, Mr. Van Hollen.
    Mr. Van Hollen. How are you?
    Mrs. Hartzler. Very good. Glad you could make it. do you 
have any comments that you would like to make?
    Mr. Van Hollen. Just it is great to join with you to hear 
testimony from our colleagues on ideas they have with respect 
to the budget, how it affects our national priorities and local 
priorities. So thank you.
    Mrs. Hartzler. Sure, very good.
    Our next witness is Representative Gene Green from Texas. 
So please proceed.

STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Green. Thank you and good morning. I appreciate the 
Budget Committee allowing us to have this opportunity again.
    I am pleased to be here today to present my views on the 
fiscal year 2013 budget resolution. This committee is faced 
with many difficult choices as it crafts this year's 
congressional budget. Democrats and Republicans must work 
together to produce a budget that simultaneously helps meet our 
economic, health care, energy, and social challenges.
    My first concern is energy provisions. Madam Chairman, as 
you craft the House Budget Committee and any budget 
reconciliation directives, I want to state my strong opposition 
to any efforts to single out the oil and natural gas industry 
for tax increases. By repealing the existing tax incentives, we 
will destroy thousands of small businesses across our country. 
The average independent production company has only 12 
employees, the definition of a true small business. The oil and 
natural gas industry is also one of the largest employers in 
our country, supporting more than 9.2 million jobs.
    Madam Chairman and Ranking Member, it is important to 
highlight that the U.S. oil and natural gas industry does not 
receive tax subsidies. In fact, there is not a single targeted 
tax credit in the Internal Revenue Code available to the oil 
and natural gas industry. Yet, you would never know that given 
how our administration and several of our colleagues 
characterize the issue.
    Instead, the U.S. oil and natural gas industry is allowed 
to take deductions to cover the cost of doing business which 
has been afforded to all businesses since the beginning of our 
country's income tax system. In return, the industry delivers 
$86 million a day to the Federal Government in revenue. Any 
change to these tax incentives should be addressed in a 
comprehensive tax reform.
    That said, the United States needs to continue researching 
and developing alternative energy sources which will lead us 
away from our dependence on fossil fuels. I support bills that 
will increase the funding to research and development projects 
dealing with new and cleaner energy sources, as well as provide 
financial incentives to produce energy from wind, solar, 
biomass, geothermal and other sources.
    And I would like to ask that a copy of a report that was 
done by the Texas Alliance talking about not only oil and gas 
taxes, but also fracking and a number of issues be placed in 
the record.
    Another priority in our district is the Port of Houston. 
Our port is the largest foreign tonnage port and the largest 
petrochemical port in the country. In fact, it moves the second 
largest amount of cargo in the country. The commerce that 
occurs in our port is critical to our Nation's energy and 
chemical sectors and to our ability to trade and move goods 
throughout our country.
    The number one issue that faces support today and will face 
support in the future is maintenance dredging by the Army Corps 
of Engineers. In 1998, the Federal Government invested $700 
million in deepening and widening the Houston ship channel, an 
investment we have benefitted from tremendously. However, as 
the years have passed, the silt has settled and reduced the 
draft in the channel significantly. Today only .4 percent of 
the channel is dredged to its proper depth across the entire 
width of the channel. That is astounding and our Nation's 
investment is rapidly deteriorating.
    We have been fortunate to get funding that we received over 
the past several years--last year an extra $700,000 for 
maintenance dredging--for a total of just over $24 million was 
included, and $100,000 of new funding was provided towards 
studying the widening and deepening of the Houston ship channel 
to the turning basin. An increase of $800,000 does not sound 
like a lot and it is not, when the dredging needs alone are 
near $60 million per year. But it is good to get an increase on 
any program Government-wide when we are right for cuts.
    I am asking you today that when this committee does write 
its budget, that you include as much as possible for harbor 
maintenance. As we confront the dual challenges of adapting 
policies that create jobs and reduce the debt, funding for 
dredging projects is an item that, while costly, will have more 
than a positive impact on our economy than a negative impact on 
our deficit.
    The Texas Transportation Institute performed a study and 
determined that direct economic impact of the loss of a 1-foot 
draft costs $373 million. The majority of this impact is lost 
business opportunities due to light loading of non-
containerized vessels. If the dredging crisis at the port 
continues to worsen, this cost will quickly accelerate.
    Another issue important in our area in southeast Texas is 
NASA. It is difficult to overstate the importance of a robust 
NASA program if the United States is to continue to be the 
world leader in space exploration. I am frustrated by the 
administrations' position over the last few years--and this has 
been different administrations--to move away from NASA-led 
human space flight towards commercial contracts. The multi-
purpose crew vehicle program and the space launch system must 
be funded at current authorized levels if the multi-purpose 
crew vehicle is to stay on track for 2014 exploration flight 
test and the space launch system on track for the integrated 
multiple purpose crew vessel flight demonstration in 2017.
    Johnson Space Center is just outside our district and has a 
long history of being a premier NASA installation. I am proud 
of that legacy but concerned that NASA will disregard the law 
passed by Congress and move away from the programs that ensure 
NASA's future as the preeminent human space flight agency in 
the world. Maintaining a commitment to these vehicles means our 
country will continue to be a pioneer in science, technology, 
and space flight. These crucial programs must be funded at the 
levels authorized by Congress so that NASA has the resources 
necessary to meet its deadlines.
    I implore my colleagues and the administration to continue 
to invest in our future by supporting NASA-led human space 
flight.
    Madam Chairman, thank you for the opportunity, and I will 
be glad to yield back my time or answer questions.
    [The prepared statement of Gene Green follows:]

       Prepared Statement of Hon. Gene Green, a Representative in
                    Congress From the State of Texas

    Chairman Ryan, Ranking Member Van Hollen and Members of the 
Committee: I am pleased to be here today to provide my views on the 
Fiscal Year 2013 Budget Resolution.
    This committee is faced with many difficult choices as it crafts 
this year's congressional budget.
    Democrats and Republicans must work together to produce a budget 
that simultaneously helps meet our economic, health care, energy, and 
social challenges.
                           energy provisions
    Mr. Chairman, as you craft the House budget resolution and any 
budget reconciliation directives, I want to state my strong opposition 
to any efforts to single out the oil and natural gas industry for tax 
increases.
    By repealing the existing tax incentives, we would destroy 
thousands of small businesses across our country. The average 
independent production company has only 12 employees--the definition of 
a true small business.
    The oil and natural gas industry is also one of the largest 
employers in our country, supporting more than 9.2 million jobs.
    Mr. Chairman, it is important to highlight that the U.S. oil and 
natural gas industry does not receive tax subsidies. In fact, there is 
not a single targeted tax credit in the Internal Revenue Code available 
to the oil and natural gas industry.
    Yet, you would never know that given how the Administration and 
several of our colleagues characterize the issue.
    Instead, the U.S. oil and natural gas industry is allowed to take 
deductions to recover the costs of doing business, which has been 
afforded to all businesses since the beginning of our country's income 
tax system.
    In return, this industry delivers $86 million a day to the federal 
government in revenue. Any changes to these tax incentives should be 
addressed in the context of comprehensive tax reform.
    That said, the United States needs to continue researching and 
developing alternative energy sources which will lead us away from our 
dependence on fossil fuels.
    I support bills that would increase funding to research and 
development projects dealing with new and cleaner energy sources as 
well as provide financial incentives to produce energy from wind, 
solar, biomass, geothermal, and other sources.
                            port of houston
    Another priority in our district is the Port of Houston. Our Port 
is the largest foreign tonnage port and the largest petrochemical port 
in the country. In fact, it moves the second largest amount of cargo in 
the country.
    The commerce that occurs at our port is critical to our nation's 
energy and chemical sectors and to our ability to trade and move goods 
throughout our country.
    The number one issue that faces the Port today and will face the 
Port in the future is maintenance dredging by the Army Corps of 
Engineers.
    In 1998, the Federal Government invested $700 million in deepening 
and widening the Houston Ship Channel. An investment we have benefitted 
from tremendously.
    However, as the years have passed silt has settled and reduced the 
draft in the channel significantly. Today, only .4% of the channel is 
dredged to its proper depth across the entire width of the channel. 
That is astounding. Our nation's investment is rapidly deteriorating.
    We have been fortunate to get the funding we have received over the 
past several years.
    Last year, an extra $700,000 for maintenance dredging for a total 
of just over $24 million was included and $100,000 of new funding was 
provided toward study on the widening and deepening of the Houston Ship 
Channel to the Turning Basin.
    An increase of $800,000 does not sound like a lot, and it's not, 
when our dredging needs alone are near $60 million. But, it is good to 
get an increase at all as every program, government-wide, is eyed for 
cuts.
    I am asking you today that when this committee does write its 
budget that you include as much as possible for harbor maintenance.
    As we confront the dual challenges of adopting policies that create 
jobs and reduce the debt, funding for dredging projects is an item 
that, while costly, will have more of a positive impact on our economy 
than a negative impact on our deficit.
    The Texas Transportation Institute performed a study and determined 
that a direct economic impact of the loss of 1 foot of draft is $373 
million.
    The majority of this impact is lost business opportunities due to 
light loading of non-containerized vessels. If the dredging crisis at 
the port continues to worsen, this cost will quickly accelerate.
                                  nasa
    It is difficult to overstate the importance of a robust NASA 
program if the United States is to continue to be the world leader in 
space exploration.
    I am frustrated by the Administration's decision over the last few 
years to move away from NASA-led human space flight and towards 
commercial contracts.
    The Multi Purpose Crew Vehicle (MPCV) program and the Space Launch 
System (SLS) must be funded at current authorized levels if the MPCV is 
to stay on track for the 2014 Exploration Flight Test-1 (EFT-1) and the 
SLS on track for the integrated MPCV-SLS flight demonstration, 
Exploration Mission (EM)-1, in 2017.
    Johnson Space Center, just outside our district, has a long history 
of being a premiere NASA installation.
    I am proud of that legacy, but concerned that NASA will disregard 
the law passed by Congress and move away from programs that will ensure 
NASA's future as the preeminent human space flight agency in the world. 
Maintaining the commitment to MPCV and SLS means our country will 
continue to be a pioneer in science, technology and space flight.
    These crucial programs must be funded at the levels authorized by 
Congress, so that NASA has the resources necessary to meet its 
deadlines.
    I implore my colleagues and the Obama Administration to continue to 
invest in our future by supporting NASA-led human space flight.
    Thank you, Mr. Chairman, for the opportunity to be here and I yield 
back the balance of my time.

    Mrs. Hartzler. Thank you, Mr. Green.
    Do we have any questions for our witness?
    Okay, thank you very much for being here. I appreciate it.
    Mr. Green. Thank you.
    Mrs. Hartzler. Now we will hear from the Honorable Steve 
Daines from Montana.

 STATEMENT OF HON. STEVE DAINES, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MONTANA

    Mr. Daines. Thank you, Madam Chairman. Thank you for 
inviting me here to testify.
    As I sit before the Budget Committee this morning, I am 
reminded of the reason I decided to run for Congress. It was 
not because I was having a mid-life crisis. Rather, I realized 
the severity of our national financial crisis and the damaging 
impact it will have on my kids and my grandkids if responsible 
action is not taken today.
    Our Federal budget has been balanced just five times in the 
past 50 years. This practice has resulted in our present $16 
trillion-plus debt and it is simply unsustainable.
    I come to Washington with a little different resume. I 
spent the last 28 years in the private sector. I am not a 
lawyer. I am engineer, and I know firsthand how important it is 
not only to balance the budget which in the private sector--
that is just breaking even, but actually creating surpluses. 
That is called a profit in the private sector. Balancing is not 
enough. You actually have to generate more income than you 
spend. Debt wears down any potential for growth and a business 
will ultimately collapse under its pressure.
    Further, I was motivated by competition and the competitive 
forces of the free market. When I was in the private sector, I 
woke up every morning knowing that if I did not give 100 
percent effort and find ways to deliver value to our customers, 
to be innovators, to continuously find ways to do more with 
less, our competitors would beat us. The companies that I 
worked for were held accountable for results we produced. That 
is far different than what we have here in Washington with a 
``spend it or lose it'' mentality as it comes to managing the 
finances, and it is unfortunately very prevalent across this 
institution.
    Balancing the budget, demanding accountability, demanding 
results, promoting efficiency. These principles are at the core 
of the success in the private sector that are also championed 
and adhered to by the people of Montana, which I represent. And 
I believe it is time to bring these common sense principles 
back to Washington.
    I would also like to highlight that I believe the Federal 
Government fundamentally has a spending problem. It is not a 
revenue problem. As you know, the Congressional Budget Office 
released a study last month that found that our Federal 
revenues will exceed the 40-year average next year and will 
remain above that average throughout the next decade. This will 
occur even if Congress does not raise a single dollar in new 
taxes. I strongly support reforming our tax code to make it 
simpler, to make it fairer, and to promote economic growth, but 
I believe this should be in a revenue neutral fashion.
    Federal spending, on the other hand, will remain above 
historic averages throughout the next decade. As all of you 
know, the growth in entitlement spending is the primary driver 
of this unsustainable spending and our escalating debt crisis. 
We must enact cost-saving reforms to these programs to preserve 
them for future generations without weakening the critical 
services provided to today's beneficiaries. I have two 
grandmothers--each are 94 years old--that depend on their 
Medicare and their Social Security. This is not about touching 
what Gramma gets. This is about ensuring that my four kids will 
have something when they retire.
    Lastly, as a Congress, I believe we too need to be 
motivated. I supported the no budget/no pay legislation passed 
in January and am pleased it appears to have motivated the 
Senate to take up a budget for the first time in 4 years.
    I believe we need to take this principle even one step 
further--and this goes back to perhaps my private sector 
instincts--by tying it to a balanced budget and making the 
performance for pay standard permanent.
    I recently introduced the Balanced Budget Accountability 
Act which would terminate member pay after April 15th if our 
respective chamber does not pass a budget that maintains a 
glide path to balance by fiscal year 2023. That is the idea of 
balance the budget within 10 years. In the private sector, if 
you do not produce results, you do not get paid. I think it is 
about time that Congress should be no different than the way it 
operates out in the free markets, in the private sector.
    Thank you again for inviting me to testify. I look forward 
to working with the Budget Committee as we work to balance the 
budget and invigorate job creation and economic growth for this 
country.
    I yield back my time.
    [The prepared statement of Steve Daines follows:]

      Prepared Statement of Hon. Steve Daines, a Representative in
                   Congress From the State of Montana

    Thank you Chairman Ryan and Ranking Member Van Hollen for inviting 
me to testify. As I sit before the Budget Committee this morning I am 
reminded of the reason I decided to run for Congress. It wasn't because 
of a mid-life crisis; rather I realized the severity of our national 
financial crisis and the damaging impact it will have on my children 
and grandchildren, if responsible action is not taken today.
    Our federal budget has been balanced in only five of the past 50 
years. This practice has resulted in our present $16 trillion plus in 
debt and is simply unsustainable. I have 28 years of experience in the 
private sector, and I know firsthand how important it is not only to 
balance the budget--which in the private sector, we'd call breaking 
even--but in creating annual surpluses. Debt wears down any potential 
for growth, and a business will ultimately collapse under its pressure.
    Further, I was motivated by competition in the free market. I used 
to wake up every day knowing that if I didn't give 100% effort and find 
ways to deliver value to our customers, to innovate, and to 
continuously find ways to do more with less, our competitors would beat 
us. The companies I worked for were held accountable for the results we 
produced. This is far different than the ``spend it or lose it'' 
mentality that unfortunately is prevalent throughout our federal 
government.
    Balancing the budget, demanding accountability and results, 
promoting efficiency--these principles are at the core of success in 
the private sector, and they are championed and adhered to by the 
people of Montana. It is time to bring these commonsense principles to 
Washington.
    I would also like to highlight that the federal government has a 
spending problem, not a revenue problem. As you know, the Congressional 
Budget Office released a study last month that found that federal 
revenues will exceed the 40 year average next year, and will remain 
above the average throughout the next decade. This will occur even if 
Congress does not raise a single dollar in new taxes. I strongly 
support reforming our tax code to make it simpler and fairer and to 
promote economic growth, but this should be done in a revenue-neutral 
fashion.
    Federal spending, on the other hand, will remain above the historic 
average throughout the decade. As all of you know, the growth in 
entitlement spending is the primary driver of this unsustainable 
spending and our escalating debt crisis. We must enact cost-saving 
reforms to these programs to preserve them for future generations, 
without weakening the critical services provided to today's 
beneficiaries.
    Last, as a Congress, I believe we too need to be motivated. I 
supported the No Budget, No Pay legislation passed in January and am 
pleased that it appears to have motivated the Senate to take up a 
budget for the first time in four years. I believe we need to take this 
principle one step further by tying it to a balanced budget and making 
the performance pay standard permanent. I recently introduced the 
Balanced Budget Accountability Act, which would terminate member pay 
after April 15 if our respective chamber does not pass a budget that 
maintains a glide path to balance by fiscal year 2023. In the private 
sector, if you don't produce results, you don't get paid. Congress 
should be no different.
    Thank you again for inviting me to testify. I look forward to 
working with the Budget Committee as we work to balance the budget and 
invigorate job creation and economic growth in our country.

    Mrs. Hartzler. You actually timed your comments so that it 
came out exactly at 0.00. I have never seen that before. So for 
a new Member of Congress, you are well suited to represent your 
district. So thank you for your comments today. I appreciate 
it.
    Mr. Daines. Okay. Thanks, Madam Chairman.
    Mrs. Hartzler. Now we will take a brief recess as we wait 
for additional members to testify. This hearing is now in 
recess, subject to the call of the chair.
    [Recess.]
    Mrs. Hartzler. I call this hearing back into session.
    We are enjoying hearing from various members on their 
priorities for our budget and their thoughts about our Nation's 
financial condition. So we are glad that you are here today to 
share your thoughts. I believe on our list, the order--we had 
Mr. Ami Bera first. So if you would like to proceed, please go 
ahead.

 STATEMENT OF HON. AMI BERA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Bera. Absolutely. Thank you, Madam Chairwoman. Thank 
you, Ranking Member. Members of the committee, thank you for 
the opportunity to testify on behalf of the residents 
California's 7th Congressional District.
    As you begin discussions towards fiscal year 2014's budget 
resolution, I want to call your attention to two projects of 
critical importance to Sacramento County: the Sacramento-
American River levee system and the Folsom Dam.
    Sacramento, which sits where the Sacramento and American 
Rivers converge near the Bay Delta, has the second highest 
flood risk in the United States. A flood in the Sacramento 
region would be devastating to 1.4 million people who live in 
our metropolitan area. The flood risk could result in 
interstate closures of I-5 and I-80 which are needed as 
evacuation routes, a shutdown of Sacramento International 
Airport, destruction of homes, hospitals, and most importantly, 
a tragic loss of life. Flooding could result in billions of 
dollars in potential damage and it could take weeks to months 
to pump the water out of the area.
    To date, the Army Corps has identified 10 projects of 
national economic importance through signed chief reports. The 
Natomas levees are one of these critical projects. The levees 
date from the 1870's when farmers began building nearly 1,100 
miles of protection around the Sacramento-San Joaquin Delta to 
control flood waters and create farmland. Today these levees 
are in desperate need of critical repair to help prevent a 
catastrophic disaster.
    Robert Bea, professor of engineering at the University of 
California-Berkeley, warns in terms of damage, deaths, and 
long-term costs, a rupture of the delta levees would be far 
more destructive than what happened in Hurricane Katrina. This 
is a ticking bomb. We all witnessed the devastation caused by 
Superstorm Sandy this past November. However, unlike a slow-
moving hurricane, a breach of the levees could occur with 
little or no warning.
    In 2006, former Governor Arnold Schwarzenegger declared a 
state of emergency for California levees. He signed an 
executive order directing agencies to identify, evaluate, and 
repair critical systems. Sacramento is still waiting for these 
repairs.
    For example, the Natomas Basin is surrounded by 42 miles of 
levees. 18 miles of those levees have been repaired and updated 
by the Sacramento Flood Control Agency. However, the final 24 
miles are still slated to be completed by the U.S. Army Corps 
of Engineers. The Army Corps is responsible for upgrading and 
maintaining a vast amount of the delta levees. We need to 
ensure the proper amount of funding is granted to these and 
other projects.
    Again, the Natomas levees are just 1 of 10 Army Corps of 
Engineer chief report projects based in locations ranging from 
Iowa to Florida, Louisiana to California. These 10 projects are 
shovel-ready and will provide on-the-ground jobs immediately 
once funded.
    As you begin assembling the 2014 budget, I urge you--I urge 
this committee--to make sure the U.S. Army Corps chief report 
projects are given sufficient funding to maintain and protect 
our communities. Thank you.
    Mrs. Hartzler. Thank you, gentleman. That was very 
interesting.
    Do we have any questions for our witness?
    I will have to say this was new information to me being 
from Missouri. So I appreciate you coming today making us aware 
of this situation.
    Mr. Bera. Thank you.
    Mrs. Hartzler. Thank you very much.
    Now I will have Representative DesJarlais.

    STATEMENT OF HON. SCOTT DESJARLAIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. DesJarlais. Chairman Hartzler, Chairman Ryan, and 
Ranking Member Van Hollen, and distinguished members of the 
Budget Committee, thank you for having me here today to discuss 
the fiscal year 2014 budget. This is an issue of top concern to 
my constituents in Tennessee's 4th Congressional District.
    While my district, like many others across the country, has 
certainly experienced its fair share of economic hardship, we 
are fortunate that some of the most innovative and talented 
small business owners this country has to offer have chosen to 
call the 4th District their home. These individuals and the 
businesses they own employ tens of thousands of hard-working 
Tennesseans. In fact, last Congress, my colleagues on the House 
Oversight Committee and I held a hearing with some of these job 
creators in order to identify what they are doing right now and 
how their successes can be replicated at a national level. But 
while the businesses in my district are doing their part and 
growing and creating jobs, the Federal Government seems more 
interested in putting up roadblocks to achievement than acting 
as a partner in ensuring their success.
    Business owners from across my district certainly have no 
shortage of frustrations regarding their Government in 
Washington. Naturally these complaints will vary depending on 
the type of business. Some are very niche issues and others 
just general complaints that I am sure that each of us have 
heard from the folks back home.
    But there is one concern that I hear from nearly every 
single business owner in my district regardless of their 
industry, size of their business, or even political 
affiliation. That is our country's unsustainable debt.
    Business owners in my district know that today's deficit 
spending will have to be paid for with tomorrow's tax 
increases. They know our reckless spending growth puts America 
at risk of staggering tax increases or worse, even economic 
collapse. This economic uncertainty is causing business owners, 
both large and small, in my district to hold back on hiring and 
capital investment. If you think about it, any successful 
business faces important decisions on long-term plans and 
outlooks, and while they can control the direction of their 
business, they cannot control the fiscal uncertainty of the 
Federal Government. This uncertainty diminishes hiring and 
investment which then curtails economic expansion. Further, 
governing through a seamlessly endless stream of CR's only 
exacerbates the problem. What businesses truly want is a long-
term, comprehensive plan to control the deficit spending.
    Since arriving to Congress I have twice supported Chairman 
Ryan's budgetary proposal, commonly referred to as the Path to 
Prosperity. I along with the vast majority of my constituents 
applaud the chairman for his strong leadership on this issue. 
Chairman Ryan put forth the common sense proposal that would 
put an end to the deficits so that we can start paying down our 
$16 trillion-plus deficit and debt. One of the ways that he 
does this is through preserving and protecting Medicare so that 
it remains solvent for both current seniors and future 
generations. Not only was this plan heralded by business owners 
in my district as a prudent first step, our seniors appreciated 
that Mr. Ryan's plan kept the promises that were made to them.
    Unfortunately, while the Path to Prosperity passed the 
House two times, the Senate refused to work with us. Rather, 
they let politics trump policy. As a result, we are still 
without a plan to control long-term spending.
    Businesses in my district cannot understand why Washington 
continues to promise them everything but the one thing that 
they have asked for: certainty.
    I hope the House will work its will and pass a budget that 
will achieve balance and provide the certainty businesses in my 
district need. I hope that we will find a more receptive 
audience in the Senate and White House during the 113th 
Congress than we did in the 112th. In writing this budget, I 
hope that the chairman will pursue the same approach that 
prioritizes our spending, protects our seniors, and avoids job-
crushing taxes on business owners.
    I simply fail to understand why the idea of putting a 
budget in place is viewed by some as extreme. Rather, I would 
argue that it is extreme to operate without a budget. We have 
seen what it has gotten us: 4 years of trillion-dollar 
deficits. If we continue to ignore the Congressional Budget Act 
of 1974 and its subsequent adaptations, we should simply repeal 
the act and stop pretending that this Congress has any desire 
to operate the way our constituents expect.
    Mr. Chairman, members of this committee, enough is enough, 
and that is the message that the people of Tennessee's 4th 
Congressional District are asking me to transmit to this 
committee.
    I thank you for letting me testify.
    Mrs. Hartzler. Thank you very much, gentleman. Well stated.
    Any questions?
    All right. Thank you very much for being here today.
    I am glad to welcome Mr. Nugent from Florida, who is 
enjoying the snow outside I am sure.

STATEMENT OF HON. RICHARD NUGENT, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Nugent. Well, this is a treat I will tell you. It 
reminds me of where I grew up back in Chicago. But that is the 
reason I left that area too. [Laughter.]
    Mrs. Hartzler. We are glad you are here today.
    Mr. Nugent. Well, thank you, Chairman and Ranking Member, 
for the opportunity to share with you my budget priorities for 
Florida's 11th Congressional District.
    I understand that all districts are different in their own 
way. Their demographics, industries, and cultures make them all 
unique. Florida's 11th District is no exception. Its population 
consists of well over 200,000 senior citizens. These citizens 
rely heavily on Social Security and Medicare, benefits they 
have earned and that they have been promised. In previous 
testimony before this committee, I have pledged not to change 
Social Security and Medicare benefits for those at or near 
retirement. I am here today to reaffirm that commitment.
    I am also aware of the need to ensure solvency of these 
programs in the short, in medium, long term. If we do nothing--
if we do nothing--Social Security and Medicare, as we know it, 
will not exist for future generations. In fact, the latest 
information we have from the board of trustees of Medicare 
indicates that if nothing is done to shore up the program, 
Medicare's main trust fund will be exhausted with 11 years. 
When that happens, any senior who is relying on a program at 
that time can expect the program to change significantly. The 
changes will be abrupt. They will be serious and they will have 
a negative effect on the quality of life for just about every 
senior citizen living in America.
    To be clear, Chairman, it is the group that will include 
millions and millions of seniors who are already enrolled in 
Medicare. On the other hand, if we act now, we can keep the 
benefits just as they are for individuals who are already on 
the program, as well as for those nearing Medicare age. It is 
important to note that if we keep the program just as it is for 
those folks 55, it means the full 10 years will go by before 
any savings will be realized, and when the bankruptcy date is 
11 years out and the savings take 10 years to kick in, we do 
not have any time to waste. Next year, if nothing is done, it 
will have to go to 56, 57, and up, and the year after that, if 
nothing is done, we will only be able to keep the program the 
same for those 58 and up. And that is as the trend goes. And to 
me that is totally unacceptable.
    I have promised my constituents I would do everything in my 
power to save and preserve Medicare for as many of them as 
possible. And the longer Congress delays, the harder it will be 
to keep that promise.
    I urge you to do everything you can to find a way that we 
can come together to save Medicare and to maintain its current 
form for as many people as we can without bankrupting the 
entire system.
    I do not envy the tasks that this committee has in putting 
forth a responsible proposal that gets back to a balanced 
budget. The decisions you make will be difficult. As our $16 
trillion debt indicates, those decisions have never been more 
necessary than they are right now.
    In my own experiences budgeting as Hernando County sheriff, 
I had to make tough choices that were not always popular. It 
sometimes meant scaling back programs that I myself started. It 
was not easy. However, those actions had to be taken to ensure 
that my office could effectively serve its core principle.
    I understand the budget that you are all dealing with is a 
lot bigger in the numbers and the type that I worked as sheriff 
of Hernando County, Florida. And I know the implications are 
far larger and more widespread. But the underlying principle 
remains the same. We need to cut unsustainable spending, 
identify the core mission of the Federal Government, and 
prioritize our resources based upon that. In my opinion, 
keeping our promises to our seniors, making sure they are able 
to receive the benefits they have earned is a fundamental part 
of that mission.
    I want to thank you again for allowing me to be here today 
to give you my opinion as to where we should go forward. Thank 
you so very much.
    Mrs. Hartzler. Thank you, gentleman.
    Do we have any questions?
    All right. Thank you very much for being here today and 
speaking out on behalf of your senior citizens in your 
district.
    Mr. Nugent. Thank you.
    Mrs. Hartzler. I welcome Honorable Ann Kirkpatrick from 
Arizona. Glad you are here today and look forward to hearing 
your comments.

STATEMENT OF HON. ANN KIRKPATRICK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Ms. Kirkpatrick. Thank you very much, Madam Chairman, and 
thank you, Ranking Member Pocan.
    I really appreciate this opportunity to talk with you about 
the budget priorities for my district. I am here representing 
Arizona's District 1. It is a large, rural district that runs 
from the Utah border in the north all the way down to 
communities below Tucson in southern Arizona. My district 
includes some of Arizona's best known regions, peoples, and 
traditions: the Grand Canyon, Sedona Red Rocks, Native American 
tribes, the Copper Corridor, ranching, farming, and small 
towns.
    We embrace our western and tribal traditions, but we also 
welcome education and innovation. District 1 includes Northern 
Arizona University, which is exploring new approaches to clean 
energy and natural resources. District 1 touches southern 
Arizona where the University of Arizona has emerged as a 
national leader in cancer research and biotech.
    A district as large and diverse as ours has many 
challenges, but also many opportunities. I mentioned that we 
have one of the great natural wonders of the world, the Grand 
Canyon. We also have 11 other national parks. The Grand Canyon 
and these parks are not only environmental treasures, they are 
economic drivers. The Grand Canyon brings $700 million a year 
to the economy and employs 12,000 people. Overall, Arizona's 
national parks attract 10.5 million visitors a year. Thousands 
of jobs and small businesses are connected to the national park 
in my district.
    Today I ask this committee to properly fund the National 
Park Service because national parks create jobs and drive our 
local economies.
    Earlier I mentioned higher education in District 1, but I 
also want to raise some urgent concern about elementary schools 
in our district. District 1 is the largest recipient of Impact 
Aid in the Nation. As you know, Impact Aid compensates school 
districts for revenue they lost because of their proximity to 
federally owned, tax exempt property. Because District 1 has 12 
national parks and 12 Native American tribes, a majority of 
this land is government-owned or controlled, and that means 
Impact Aid is often the primary source for funding and 
operating our schools. About 50 of our schools receive Impact 
Aid. They rely on it to pay the most basic resources and to 
fund a qualify education for all of our children. Our schools 
need Impact Aid to help them manage everything from 
transportation to staffing, from construction to classroom 
size. I am asking this committee to properly fund Impact Aid 
because every child deserves a quality education no matter 
where he or she lives.
    Another important priority for my District 1 is Indian 
Health Services. I mentioned that we have 12 Native American 
tribes. That means that 25 percent of the district is Native 
American. These are residents of some of the most remote and 
rural communities. Median income is about $7,000. These folks 
often struggle with access to the most basic medical care and 
resources, and their primary source of health care is Indian 
Health Services.
    The Indian Health Services has this important 
responsibility as the result of government-to-government 
agreements between the United States and the tribes. In 
District 1, IHS provides Native Americans with primary care, 
inpatient care, outpatient visits, and more. Nationally it 
provides health care to 1.9 million people belonging to 565 
federally recognized tribes. IHS operates 254 health care 
centers, 16 hospitals, 74 health stations, and four school 
health centers nationally. I am asking this committee to 
properly fund IHS because the health care for Native Americans 
is not optional. It is essential.
    Thank you very much.
    Mrs. Hartzler. Thank you, lady.
    Do we have any questions for our witness?
    All right. Thank you very much for being here today.
    Ms. Kirkpatrick. Thank you.
    Mrs. Hartzler. Representative Peters from California, thank 
you for being here.

 STATEMENT OF HON. SCOTT PETERS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Peters. Thank you, Madam Chair and Representative 
Pocan, for giving me this opportunity to address these impacts. 
Thank you.
    Congress failed San Diego and America last week by not 
working together to find a sensible alternative to the 
sequester. It is a piece of legislation that was intentionally 
crafted to be so nonsensical that Congress would be forced to 
do everything in its power to avoid it.
    I am here today because we have a choice. We can choose to 
continue down this path and let the American people down or we 
can decide to make a change. And I hope we will view March 
27th, which is the end of the continuing resolution, as an 
opportunity to pass a budget and not another opportunity to 
avoid our responsibilities.
    We could turn the indiscriminate cuts in the sequester into 
targeted cuts that are part of a larger and balanced deficit 
reduction strategy, a strategy that does not cut critical 
infrastructure investments, stifle scientific innovation, or 
compromise our national defense.
    Let me give you a few examples from my district in San 
Diego, and I have spoken repeatedly about how my district is 
disproportionately affected by the sequester.
    The infrastructure investments we have made in the Port of 
San Diego have helped the port become San Diego's window to 
national and international commerce, as well as the main driver 
of our economy. The port is the fourth largest port in 
California and one of 17 commercial strategic ports in America. 
That means they are available to our military if they need to 
ship supplies out of them. It oversees two marine cargo 
terminals, two crew ship terminals, and hundreds of maritime 
leases to small businesses. Since 2001, the port has received 
almost $22 million in Federal funding for critical 
infrastructure projects. That has allowed the port to hire more 
San Diegans and boost San Diegans' economy.
    The American Society of Engineers found that with an 
additional investment in our ports of $15.8 billion between now 
and 2020--$15.8 billion--our national system of ports provide 
$270 billion in U.S. exports and $697 billion in GDP.
    The main drivers of the San Diego economy, though, are the 
scientific research community and our military. In fiscal year 
2012, San Diego firms received more than $130 million from the 
National Science Foundation and $850 million from the National 
Institutes of Health. It is these types of investments that 
have created hundreds of thousands of jobs, boosted our 
economy, and allowed San Diego to become the second largest 
life science cluster in the United States. The sequester could 
undo this progress. The immediate cuts to NIH from 
sequestration are 8.2 percent or equivalent to a cut of $2.5 
billion. This could result in the loss of 33,000 research-
related jobs in 2013 and a $4.5 billion decrease in economic 
activity. We all see innovation as one of our ways to move 
forward as a country, and the uncertainty caused by not having 
a budget reduces our national competitiveness.
    The sequester threatens our border. It would cut customs 
and border protection work hours by 5,000 agents, increasing 
the time it takes to screen people and shipments. Those 
inefficiencies will drive up costs and also harm businesses 
because trade cannot move across the border, the legal trade 
that we need.
    And almost one in four jobs in San Diego are defense-
related. Nearly 25 percent of defense contractors are small 
businesses. Already shipbuilding and maintenance contracts have 
been canceled, including 10 ship repairs in San Diego. 
Manufacturing companies that rely on defense funding could lose 
223,000 jobs, 30,000 in our county, about. Neglecting ship 
repairs will not only hurt morale but lead to job loss and 
threaten our readiness.
    The Navy will be forced to put a freeze on hiring 
civilians. Many of them are veterans. With 11.5 percent of our 
communities of veterans unemployed and a shocking 25 percent of 
veterans between 18 and 24 still struggling to find employment, 
any further reduction in job opportunities for our Nation's 
heroes is unacceptable. We can do better.
    I know that protecting these areas of investment are ideas 
that both Democrats and Republicans can agree on. Now is the 
time to ignore those party pressures and do what is right for 
the American people. Our fiscal problems are real, and I know 
you are aware of that. You have heard that, all. We need to 
address those in the smartest strategic way. The budget process 
will allow us to put aside the indiscriminate nature of the 
sequester and to give us an opportunity to protect our 
infrastructure, science and technology communities, and the 
military that not only are driving forces of our economy but 
are obviously at the root of our security as a country. We can 
increase revenues by closing tax loopholes, stop spending in 
the tax code on things we cannot afford, and we can decrease 
our spending on wasteful programs and cutting redundant and 
outdated programs and waste, fraud, and abuse.
    Finding common ground does not mean we have failed. It does 
not mean we have abandoned our principles. Let's show San Diego 
and America that Congress can do its job. Let's pass the 
balanced budget without the sequester and address the revenue 
and spending challenges that we face.
    I thank you both for your work and for the opportunity to 
appear today.
    Mrs. Hartzler. Thank you very much, gentleman.
    Do we have a question? Sure.
    Mr. Pocan. Great, thank you. Thank you, Representative 
Peters.
    I understand you talked about how the budgeting process 
hurts San Diego specifically, but you mentioned in your 
testimony that it hurts American competitiveness. Can you 
elaborate a little bit on that, please?
    Mr. Peters. Sure. And I will just tell you the story I 
heard at the Salk Institute, which is one of the research 
institutes we are very proud of. They depend heavily on funding 
from the National Institutes of Health. And they explained to 
me that kids who are educated and want to go into science and 
do really high-end science--you know, you have to be almost 40 
years old before you get one of those labs where you can start 
to compete for those grants. And then you are competing in the 
smartest classroom you can imagine. Everyone is extremely 
smart. It is peer-reviewed. And typically only 25 percent of 
those grants have been funded. So you can imagine, even in good 
times, a 75 failure rate.
    Well, now we are funding about 7 percent of those grants. 
And what they told me is that young people who are deciding 
where to do their science are looking at Congress, looking at 
the American Government and really asking themselves are we 
committed to consistent and adequate funding for scientific 
research.
    And the problem is there are now opportunities to do those 
research projects in other countries that are making those 
investments. So we face the prospect that the next cure for a 
great disease or the next Qualcomm, which is in my district, or 
the next Google or Microsoft is invented by someone who is 
educated here, maybe someone who is educated at the University 
of California-San Diego, but who moved to China or Europe or 
Israel or Brazil where they are making the investments in 
science that they need to do the research.
    It is not just a matter of the funding level now, but it is 
also the uncertainty caused by really the way we have not 
addressed our budget issue. So I think if we could get through 
the budget process and provide some assurance that we are going 
to be consistent, we are going to fund science in a consistent 
and adequate way, we could continue to lead the world. But we 
should not take that for granted. We should do our job.
    Mrs. Hartzler. Thank you very much.
    Mr. Peters. Thank you so much.
    Mrs. Hartzler. Our next witness will be Randy Neugebauer 
from Texas. Thank you for being here, gentleman.

    STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Neugebauer. Thank you, Madam Chairman, Ranking Member, 
for allowing me to be here this morning.
    I ask unanimous consent that my written statement would be 
made a part of the record.
    Mrs. Hartzler. So ordered.
    Mr. Neugebauer. Thank you. And I would just like to make 
some general reflections here because I know that your time is 
short.
    One of the things that I think is most concerning is the 
direction that we are headed, and that is the reason this 
budget process is going to be so important not only this year 
but in the years to come. The example that I use when I am back 
in the district--because when you start talking about trillions 
of dollars to the American people, they do not have the concept 
of what a trillion dollars is. I am not sure that I do. A lot 
of people use a lot of analogies that you could take a trillion 
dollars and go around the moon twice and back to earth if you 
were doing them end to end and all of those kind of things.
    But really, let's talk about what is important, and what is 
important is the analogy that I use is we have got a little 
family making $27,000 a year. Unfortunately, this little family 
is going to be spending around $37,000 or $38,000 a year. So 
they are going to be spending $10,000 to $11,000 more a year 
than they are making. And they just got their credit statement 
the other day, and they found out they owe $166,000 on their 
credit card. And when I ask the people in my district how many 
people in the room think that family has any kind of future, 
nobody raises their hand. And I ask the question where do you 
think that family is headed, and the most prevalent answer is 
they are headed to bankruptcy.
    And then when I tell them, well, that little family I just 
described to you is the United States of America, they are a 
little bit shocked. And what they understand is in their own 
budgets that a family living beyond their means is on an 
unsustainable path.
    We have to stop that and we have to stop it now because, 
quite honestly, we are reaching, I think, a tipping point in 
this country with $16.6 trillion in debt, whether we will ever 
be able to pay that back. Two things are the consequences of 
that.
    One, we are mortgaging the future of our children and our 
grandchildren.
    The other is that the growing share that Government is of 
the economy--every time the Government takes money out of the 
economy, that is capital that could be used to create jobs and 
opportunity in this country for today's generation. And so 
these huge deficits not only are punishing the people today, 
but they are certainly going to be the consequences for future 
generations.
    One of the things that I think we have to understand is we 
have got to stop measuring our commitment to certain aspects of 
our Government by how much money we spend. We seem to make 
ourselves feel good when we say, well, we increased spending 
for that or we increased spending for this. And that is the way 
we say, well, we must be doing a good job because we are 
spending more money. But when you look--and this Budget 
Committee I know has done that--across the board in a number of 
areas of our Government, well, we have spent more money, but 
actually the results have been declining. We have to go back 
more to a results-oriented budgeting process and not a 
spending-oriented process.
    Now, I want to make this point, and we use these analogies 
but I think it helps put it in perspective of how important it 
is that we move to a balanced budget. And I know this committee 
has set a goal to do that in 10 years. I think 10 years is the 
maximum we can wait. We may need to do it shorter. But let me 
let you know where we are today to put this in perspective.
    Everybody understands a mortgage. Many of us have had a 
mortgage on our home, and the standard term on a mortgage today 
is you can still get a 30-year mortgage. Now, Mr. Bernanke has 
been buying down the yield for the Treasury. I call him a 
``deficit enabler'' because he is keeping interest rates very 
low. He is making it very cheap to borrow money right now for 
the Government to run these deficits, but at some point in 
time, these rates will not be at this level.
    Well, let's say the Budget Committee could wave your wand 
and balance the budget tomorrow. Now we have got this $16.6 
trillion that we owe. Right? So how are we going to pay that 
back? Well, let's do what some people could do and let's take 
out a 30-year mortgage and pay this back over the next 30 
years. And let's go to a more traditional 30-year mortgage rate 
or a 30-year bond rate, which would be around 4.25. Then the 
question is what would the payments be on $16.6 trillion over 
the next 30 years. You are not going to like this answer. It is 
about $960 billion a year, just shy of $1 trillion. And so even 
if we balance the budget, for example, in the next 10 years, 
our total debt will be over $20 trillion by the time we hit 
that. And so just alone today, if we do not do something very 
quickly here, it is going to take $1 trillion out of the 
economy every year just to pay the debt service on what we have 
done.
    Like this little family that is living beyond their means, 
we are going to have to get America back living within our 
means.
    And one of the last points I would make here is our budget 
process is unfortunately broken. This baseline budgeting is not 
working. Here is another analogy I use with my folks in the 
19th Congressional District and they get that. And I talk to 
them about what is a revenue neutral transaction in Washington, 
D.C. And what I say to them is I would like for you to give me 
a $100 bill. In exchange for that, to make sure that this is a 
revenue neutral transaction, I am going to give you 10 $10 
postdated checks that you can cash over the next 10 years. And 
that is a revenue neutral transaction and there should not be 
anybody that would be unwilling to do that.
    You know, I have not gotten one taker of that because they 
understand that, one, they do not know whether my check is 
going to be good next year or the year after that. And that is 
$100 we are spending today with the promise that you are going 
to get $10 a year savings over the next 10 years. And that is 
how we got to $16.6 trillion.
    Here is a little postscript of how important this is. You 
know, when I came to Congress in 2003, America was a super 
power. Our capital markets were the envy of the world. But just 
recently we had some students from Abilene Christian University 
in Abilene, Texas, and they came. They were college students 
and they came here during the inauguration as a part of their 
government class. And so we were on the steps of the Capitol 
and we were taking pictures. I then gave those students an 
opportunity to see if any of them had a question. The most 
interesting question that I received that day was a young woman 
from China, and her question was, Congressman, will you all be 
able to pay us back?
    And it made me stop and reflect that the nation that was 
once considered the gold standard of the world--our currency 
still enjoys preference by many countries. But I am going to 
tell you that that is waning because what they realize is what 
people realize about that little family that is spending 
$11,000 more a year than they are making and owes $164,000 on 
their credit card, that that cannot remain for a long period of 
time.
    I thank you for your time and I hope that we will begin to 
look at some radical ways to change the direction of our 
country. And we are depending on the Budget Committee to help 
us with that process.
    With that, I yield back.
    Mrs. Hartzler. Thank you very much, gentleman. Well stated. 
I appreciate that.
    Now we have the Honorable Ed Whitfield from Kentucky.

 STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF KENTUCKY

    Mr. Whitfield. Chairman Hartzler, thank you and Ranking 
Member Pocan. And thank you very much for giving us an 
opportunity to visit briefly with you this morning.
    I would like to start off by saying, first of all, how much 
we appreciate the time and effort that all of you spend on the 
budget process.
    I will have to say that I agree with my friend from Texas 
that I believe also that the budget process is broken, and I 
genuinely believe that one of the reasons that Congress has 
such a low approval rating is that many people across America 
perceive that if Congress cannot do its most basic task of 
adopting a budget, then that contributes to the impression that 
this is an ineffective body.
    And I went back and I looked at the history of the budget 
process in the U.S. Congress. Of course, back in 1921, it was 
the first year that the President started submitting a budget 
to Congress. And we went through that process from 1921 to 
1974, and the Congress would work with the President's budget. 
And then, of course, in 1974 we passed the Congressional Budget 
and Impoundment Control Act. And since that time, Congress has 
only met the deadline for passing the budget resolution six 
times since 1974. Congress did not adopt any budget resolution 
for six fiscal years, 1999, 2003, 2005, 2007, 2011, and 2012.
    Now, the process that I think contributes to the feeling of 
the American people that Congress is so ineffective is that 
more and more the budget debate and the budget process has 
become so partisan because we use the budget to highlight 
philosophical differences on primarily these big mandatory 
spending areas, which obviously is where we have our problem. 
But many people, when a budget does pass, assume that all of 
the cuts or reductions or changes are automatically taking 
effect even though everyone recognizes that the authorizing 
committees have to come back and make those changes.
    When I go to civic club meetings, people frequently--and I 
am sure many of you have experienced this too. They ask you why 
is it that Congress cannot even pass a budget. Well, probably 
they do not really understand it.
    But I think to get to the bottom line here is the current 
process in my view is not working very well, and I think it is 
factually correct when you say that Congress has only met the 
deadline six times since 1974. The Congress has not even passed 
a budget at all for 6 years. And I think you would agree with 
me that the entire Congress becomes so consumed with this 
process each year that it interferes with our ability to 
authorize, do oversight, and everything else.
    So my point is that even back in 1995 the GAO did a study 
of the history and future direction of the budget process and 
even at that time was pointing out the great difficulties that 
we face. That is why many of us way back in 1999 suggested that 
maybe one way that could improve the process is go to a 2-year 
budget cycle. And I had been told that every President since 
Ronald Reagan--I cannot speak emphatically that President Obama 
supports this, but I have heard that he is not opposed to it--
would support a 2-year budget process so that one year Congress 
could be totally consumed by the budget. The next year they 
could do the authorizing, the oversight, and so forth.
    But back in 1999, we brought a budget resolution to the 
floor to go to a 2-year budget cycle. It was defeated on the 
House floor by 8 or 9 votes. Even the chairman of the 
Appropriations Committee voted for it. And of course, Senator 
Pete Domenici of New Mexico was one of the leaders.
    But I would just say as one member speaking for my little 
group of constituents in Kentucky, 700,000 of them, it has been 
my experience that the budget process, the confusion, the chaos 
of the budget process, the lack of accomplishment of the budget 
process has contributed greatly to the impression of the 
American people that the U.S. Congress as an institution is not 
very effective. And it is not your all individual faults. I 
think it is all of our faults.
    And I simply wanted to make that comment just out of a 
sense of frustration that I have had but, once again, want to 
thank you all personally for your efforts and what you continue 
to do. Thank you.
    Ms. Warlorski [presiding]. Thank you, Mr. Whitfield, and 
your comments are duly noted.
    Mr. Schneider from the great State of Illinois?

STATEMENT OF HON. BRAD SCHNEIDER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Schneider. Thank you, Madam Chairman, Congressman 
Pocan. It is good to see you. Thank you for this opportunity to 
testify today on the fiscal year 2014 budget resolution.
    Let me state emphatically we have an urgent need to address 
our Nation's budget deficit and secure our long-term fiscal 
stability. This effort requires thinking beyond across-the-
board, wholesale cuts or budget freezes. It necessitates that 
we reevaluate how every single dollar is spent.
    Mr. Chairman, I join you in support of this goal but urge 
caution against making misguided cuts that may jeopardize our 
national security and global competitiveness or that 
disproportionately impact our most vulnerable populations: our 
seniors, students, and middle class families. That is exactly 
why we need a smart approach to deficit reduction that reduces 
spending and increases revenue responsibly.
    We need to be smarter about how we spend taxpayer dollars. 
Just one example. The Federal Government spends $18 billion on 
47 separate employment and job training programs with 
inconsistent results. We need to refocus our Federal funding of 
programs that produce real substantial results, which is why I, 
with my colleague, Lou Barletta, introduced the America Works 
Act. This legislation seeks to close the skills gap between 
employers with job openings and job seekers inadequately 
prepared for the 21st century economy. And it does so at no new 
cost to Government. It is a smarter, more efficient use of 
dollars we already spend on three of our Federal worker 
training programs: Perkins, TAA, and WIA.
    Beyond technical education, if we are to maintain our 
preeminent role in the world, it is essential that we provide 
all of our children with the opportunity for a quality 
education to help ensure that they have the skills and capacity 
to be ready for success in college and career. Research shows 
that future success starts with a strong, early learning 
foundation, with crucial intellectual development occurring in 
the first 3 years of life. Provided with positive educational 
experiences during these first years, children demonstrate 
improved academic achievement. They are more likely to read and 
do math at grade level, to make constructive life choices, and 
to graduate from high school.
    I echo the call President Obama made in his State of the 
Union Address for this Congress to expand access to high 
quality preschool to every child. Pre-K provides the foundation 
for a child's future success in school and helps reduce 
achievement gaps.
    As Congress looks to reauthorize the Elementary and 
Secondary Education Act, we must establish a continuum of early 
learning so that our children, parents, and teachers are 
provided with the resources they need to ensure a bright future 
for the next generation. By investing in our children now, we 
are preparing a future workforce that will be able to compete 
in the 21st century global economy so that future medical 
breakthroughs, new green technologies, and other innovations 
are developed here in the United States rather than abroad.
    If we want to promote innovation, to stimulate economic 
growth and put people back to work, we must also tend to our 
Nation's infrastructure. It is imperative for this Congress to 
place renewed focus on our infrastructure and that we enact a 
long-term, fully financed transportation authorization. Too 
many of our roads, bridges, and ports are in desperate need of 
repair. We must promote a robust, polymodal transportation 
system, including modernized mass transit systems. In order for 
our economy to operate at its optimal level, our infrastructure 
must as well.
    In my home district, Waukegan Harbor is presently closed to 
commercial navigation, putting a strain on other ports and 
draining our local economy. Waukegan Harbor's closing hurts 
shipping, but so too do historically low lake and river levels 
that reduce and restrict cargo capacity. We must be responsible 
stewards of our natural resources and environment, and we must 
provide the Environmental Protection Agency with the resources 
it needs to keep our air and drinking water in our communities 
clean and safe and our waterways open and clear. Irresponsible 
cuts to this agency are short-sighted and will put our recovery 
at risk. We must continue to lead the world as guardians of our 
natural resources and environment, ensuring sustainability, and 
thereby ensuring our long-term prosperity and security.
    Many U.S. manufacturers across the country are global 
leaders in sustainable technology development. These industries 
create high-paying, quality jobs and promise sustainable 
economic growth for our country. We should foster this type of 
innovation, not slash away at its potential.
    Another area of our budget where we cannot afford to be 
short-sighted is foreign engagement and its associated economic 
assistance. As we work to address our deficit, the foreign 
assistance budget may seem like an easy target, but cutting it 
would seriously undermine our diplomatic efforts in the world. 
We live in an increasingly complex and dangerous world that 
demands U.S. leadership. The foreign assistance budget provides 
funding for our embassies, including security for our diplomats 
who promote U.S. national interests around the world and 
demonstrate the values and principles that define us as a 
Nation. A strong diplomatic presence is essential to preserving 
the United States' positive influence and leadership in 
bilateral and multilateral relations with our allies and 
addressing the challenges with our adversaries. Understanding 
the fiscal challenges we face, we must also recognize that we 
are not going to balance the budget by slashing foreign 
assistance.
    We are nearly a week into the sequester that went into 
effect on March 1st, the impact of which will begin to be felt 
by our constituents through, among other areas, fewer police 
officers on patrol in our communities, canceled Head Start 
services, eliminated meal services for low-income seniors. 
Coupled with recent reductions in spending, sequestration will 
slow economic growth, even risking a contraction throughout our 
economy. Rather than these imprudent, across-the-board cuts 
that in the aggregate will do harm to our constituents and our 
economy, both parties must come to the table to craft a 
comprehensive, balanced, measured approach to deficit 
reduction.
    Mr. Chairman and members of the committee, thank you again 
for the opportunity to address you today to outline my 
priorities for the fiscal year 2014 budget.
    [The prepared statement of Brad Schneider follows:]

 Prepared Statement of Hon. Bradley S. Schneider, a Representative in 
                  Congress From the State of Illinois

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify today on the fiscal year 2014 budget resolution.
    Let me state emphatically, we have an urgent need to address our 
nation's budget deficit and secure our long-term fiscal stability. This 
effort requires thinking beyond across-the-board wholesale cuts or 
budget freezes. It necessitates that we reevaluate how every federal 
dollar is spent.
    Mr. Chairman, I join you in support of this goal, but urge caution 
against making misguided cuts that may jeopardize our national security 
and global competitiveness, or that disproportionally impact our most 
vulnerable populations--our seniors, students and middle class 
families. That is exactly why we need a smart approach to deficit 
reduction that reduces spending thoughtfully and increases revenue 
responsibly.
    We need to be smarter about how we spend taxpayer dollars. Just one 
example: the federal government spends $18 billion on 47 separate 
employment and job training programs, with inconsistent results. We 
need to refocus our federal funding on programs that produce real, 
substantial results, which is why I, with my colleague Lou Barletta, 
introduced the AMERICA Works Act. This legislation seeks to close the 
skills gap between employers with job openings and job seekers 
inadequately prepared for the 21st Century economy and it does so at no 
new cost to the government. It is a smarter, more efficient use of the 
dollars we already spend on three of our federal worker training 
programs--Perkins, TAA and WIA.
    Beyond technical education, if we are to maintain our preeminent 
role in the world, it is essential that we provide all our children 
with the opportunity for a quality education to help ensure that they 
have the skills and capacity to be ready for success in college and 
career.
    Research shows that future success starts with a strong early-
learning foundation, with crucial intellectual development occurring in 
the first three years of life. Provided with positive educational 
experiences during these first years, children demonstrate improved 
academic achievement, are more likely to read and do math at grade 
level, to make constructive life choices, and graduate from high 
school.
    I echo the call President Obama made in his State of the Union 
Address for this Congress to expand access to high-quality preschool to 
every child. Pre-K provides the foundation for a child's future success 
in school, and helps reduce achievement gaps. As Congress looks to 
reauthorize the Elementary and Secondary Education Act, we must 
establish a continuum of early learning so that our children, parents 
and teachers are provided with the resources they need to ensure a 
bright future for the next generation.
    By investing in our children now, we are preparing a future 
workforce that will be able to compete in the 21st Century global 
economy, so that future medical breakthroughs, new green technologies, 
and other innovations are developed here in the U.S. instead of abroad.
    If we want to promote innovation, to stimulate economic growth and 
put people back to work, we also must tend to our nation's 
infrastructure. It is imperative for this Congress to place renewed 
focus on our infrastructure and that we enact a long-term, fully 
financed transportation authorization. Too many of our roads, bridges 
and ports are in desperate need of repair. We must promote a robust, 
polymodal transportation system, including modernized mass transit 
systems.
    In order for our economy to operate at its optimal level, our 
infrastructure must as well. In my home district, Waukegan Harbor is 
presently closed to commercial navigation, putting a strain on other 
ports and draining our local economy.
    Waukegan Harbor's closing hurts shipping, but so too do 
historically-low lake and river levels that reduce or restrict cargo 
capacity. We must be responsible stewards of our natural resources and 
environment, and we must provide the Environmental Protection Agency 
with the resources it needs to keep the air and drinking water in our 
communities clean and safe, and our waterways open and clear.
    Irresponsible cuts to the Agency are shortsighted and will put our 
recovery at risk. We must continue to lead the world as guardians of 
our natural resources and environment, ensuring sustainability, and 
thereby ensuring our long-term prosperity and security.
    Many U.S. manufacturers across the country are global leaders in 
sustainable technology development. These industries create high-
paying, quality jobs and promise sustainable economic growth for our 
country. We should foster this type of innovation, not slash away at 
its potential.
    Another area of our federal budget where we cannot afford to be 
shortsighted is foreign engagement, and its associated economic 
assistance. As we work to address our deficit, the foreign assistance 
budget may seem like an easy target, but cutting it would seriously 
undermine our diplomatic efforts in the world.
    We live in an increasingly complex and dangerous world that demands 
U.S. leadership. The foreign assistance budget provides funding for our 
embassies, including security for our diplomats who promote U.S. 
national interests around the world and demonstrate the values and 
principles that define us as a nation. A strong diplomatic presence is 
essential to preserving the United States' positive influence and 
leadership in bilateral and multilateral relations with our allies and 
addressing challenges with our adversaries. Understanding the fiscal 
challenges we face, we must also recognize that we are not going to 
balance the budget by slashing foreign assistance.
    We are nearly a week into the sequester that went into effect on 
March 1st, the impact of which will begin to be felt by our 
constituents through, among other areas, fewer police officers on 
patrol in our communities, canceled Head Start services, eliminated 
meal services for low-income seniors. Coupled with recent reductions in 
spending, sequestration will slow economic growth, even risking a 
contraction throughout our economy. Rather than these imprudent, 
across-the-board cuts that, in the aggregate, will do harm to our 
constituents and our economy, both parties must come to the table to 
craft a comprehensive, balanced, measured approach to deficit 
reduction.
    Mr. Chairman and members of the Committee, thank you again for the 
opportunity to address you today to outline my priorities for the 
fiscal year 2014 budget.

    Ms. Warlorski. Thank you, Mr. Schneider.
    Mr. Tonko?

STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Tonko. Thank you. Acting Chair Warlorski, Acting 
Ranking Member McDermott, and distinguished members of the 
Budget Committee. Thank you for allowing me the opportunity to 
testify before you today on the blueprint for our Nation's 
priorities and statement of our values: the budget.
    As a former member of this committee, I know the difficult 
choices we all must make in putting together this document each 
year, but I also know that it is our duty and, indeed, our 
constitutional responsibility to build this framework together. 
Indeed, blaming the President for failure to stop 
indiscriminate, across-the-board cuts known as sequestration 
when the authority lies entirely at our feet is little more 
than an excuse. The power to levy taxes and to invest those 
funds is exclusively our duty as the legislative branch, and we 
have plenty of work to do.
    After 36 consecutive months of private sector job growth 
and over 6 million jobs added since the great recession, our 
economy is on its way to recovery. It would seem that our 
progress remains steady and consistent.
    Just yesterday the financial markets closed at an all-time 
high. The recovery of the financial sector has been the most 
robust because taxpayers shored up the industry when it was on 
the ropes.
    We all hoped that saving Wall Street would translate into 
recovery for Main Street, but despite Wall Street's recovery 
and record profits for businesses, our families and small 
businesses continue to struggle to make ends meet. Those who 
are unemployed are working more hours and taking home less pay. 
Too many are still unemployed or under-employed. We cannot 
solve the Federal Government's budget problems without first 
helping families' household budget problems. There are programs 
that we can and must prioritize in our Nation's budget that 
will give our hard-working families the opportunity to earn a 
decent living for the work that they do, programs that will 
grow the economic powerhouse that is the American middle class 
and that will lift people out of poverty and into the 
mainstream economy.
    To that end, let me share a few words from President John 
F. Kennedy. These are remarks that were prepared but never 
delivered at the Trade Mart in Dallas, Texas, November 22nd, 
1963. Our late President wrote: we cannot expect everyone, to 
use the phrase of a decade ago will, quote, talk sense to the 
American people. End quote.
    Kennedy's remarks continued--and I quote--but we can hope 
that fewer people will listen to nonsense, and the notion that 
this Nation is headed for defeat through deficit or that 
strength is but a matter of slogans is nothing just plain 
nonsense. End quote.
    Those words are as true as we sit here today as they were 
in the 1960's. By putting people back to work, we will defeat 
the deficit. It will not defeat us. And we know that our 
Nation's strength is not in slogans. It is in her people. And 
it is our people, their dreams, ideas, aspirations, their work, 
their grit, effort, education, health, liberty, and strength 
that we must as a Nation support and bolster through 
investments, investments in education that train and retrain 
our workers to compete in the global economy with cutting-edge 
skills from the trades all the way through to Ph.D.'s. We must 
ensure that any student that works hard and seeks a higher 
education is able to obtain one, no matter their financial 
background.
    That is why I encourage increased funding for teachers, 
student aid, and training programs, investments in innovation 
that realize we are competing in a global race on clean energy 
and ideas. We must bolster our research and development 
accounts and empower programs like APRA-E that foster new 
businesses and entrepreneurs.
    We must invest in our infrastructure. We cannot expect to 
compete in the 21st century global economy with 19th or 20th 
century infrastructure. We must fix our structurally deficient 
roads and bridges and upgrade our water treatment and 
distribution systems which we have ignored for far too long.
    But this is not enough. We must also increase accounts that 
support energy transmission upgrades, high-speed rail, ports, 
mass transit, and much more. We require the best infrastructure 
in the world to move our goods, our services, our information, 
and people if we are to remain competitive in a global 
marketplace.
    Finally, I have long been supportive of investments we make 
as a nation in our natural and cultural resources. The 
foresight of previous generations in establishing our national 
parks, wilderness areas, and cultural and historical lands was 
a great gift to us that has paid many dividends over the years. 
Every generation has drawn on the environmental accounts of 
this Nation, and none more so than ours.
    Climate change is the bill that is coming due. We must act 
now by making investments that will reduce the vulnerability of 
communities and businesses across our Nation to this threat. We 
cannot afford to delay any longer.
    We are a great Nation. We rose to the world leadership 
position we hold by working together, not by pulling apart. A 
budget that rewards the wealthiest amongst us and asks the most 
from those who have least is not only unwise but unfair. It is 
un-American. I hope we can move past the campaign slogans and 
failed economic theories to address the challenges we face and 
do what is right and just for all our citizens.
    Again, I thank you as members of this committee for the 
opportunity that you have allowed me today.
    With that, I yield back, Madam Chair.
    [The prepared statement of Paul Tonko follows:]

     Prepared Statement of Hon. Paul D. Tonko, a Representative in
                  Congress From the State of New York

    Chairman Ryan, Ranking Member Van Hollen, distinguished members of 
the Budget Committee: Thank you for allowing me the opportunity to 
testify before you today on the blueprint for our nation's priorities 
and statement of our values--the budget. As a former member of this 
committee, I know the difficult choices we all must make in putting 
together this document each year. But I also know that it is our duty, 
and indeed, our Constitutional responsibility to build this framework 
together.
    Indeed, blaming the President for failure to stop indiscriminate, 
across-the-board cuts known as ``sequestration'' when that authority 
lays entirely at our feet is little more than an excuse. The power to 
levy taxes and to invest those funds is exclusively our duty as the 
legislative branch--and we have plenty of work to do.
    After thirty-six consecutive months of private sector job growth 
and over six million jobs added since the Great Recession, our economy 
is on its way to recovery. It would seem that our progress remains 
steady and consistent.
    Just yesterday, the financial markets closed at an all time high. 
The recovery of the financial sector has been the most robust because 
taxpayers shored up the industry when it was on the ropes. We all hoped 
that saving Wall Street would translate into recovery for Main Street. 
But despite Wall Street's recovery and record profits for businesses, 
our families and small businesses continue to struggle to make ends 
meet.
    Those who are employed are working more and taking home less pay. 
Too many are still unemployed or under employed. We cannot solve the 
federal government's budget problems without first helping families' 
household budget problems.
    There are programs that we can and must prioritize in our nation's 
budget that will give our hard-working families the opportunity to earn 
a decent living for the work they do--programs that will grow the 
economic powerhouse that is the American middle class and that will 
lift people out of poverty and into the mainstream economy.
    To that end, let me share a few words from President John F. 
Kennedy. These are remarks that were prepared, but never delivered, at 
the Trade Mart in Dallas, Texas November 22, 1963. He said, ``We cannot 
expect that everyone, to use the phrase of a decade ago, will [quote] 
talk sense to the American people [end quote].'' Kennedy's remarks 
continued, ``But we can hope that fewer people will listen to nonsense. 
And the notion that this Nation is headed for defeat through deficit, 
or that strength is but a matter of slogans is nothing but just plain 
nonsense.''
    Those words are as true as we sit here today as they were in the 
1960's. By putting people back to work, we will defeat the deficit, it 
will not defeat us. And we know that our nation's strength is not in 
slogans; it is in her people. And it is our people--their dreams, 
ideas, aspirations, work, grit, effort, education, health, liberty, and 
strength--that we must, as a nation, support and bolster through 
investments.
    Investments in education--that train and retrain our workers to 
compete in a global economy with cutting edge skills--from the trades 
all the way through to Ph.D.'s. We must ensure that any student that 
works hard and seeks a higher education is able to obtain one, no 
matter their financial background. That is why I encourage increased 
funding for teachers, student aid and training programs.
    Investments in innovation--that realize we are competing in a 
global race on clean energy and ideas. We must bolster our research and 
development accounts, and empower programs like ARPA-E that foster new 
businesses and entrepreneurs.
    We must invest in our infrastructure. We cannot expect to compete 
in the 21st century global economy with 19th or 20th century 
infrastructure. We must fix our structurally deficient roads and 
bridges, and upgrade our water treatment and distribution systems which 
we have ignored for far too long. But this is not enough. We must also 
increase accounts that support energy transmission upgrades, high speed 
rail, ports, mass transit and much more. We require the best 
infrastructure in the world to move goods, services, information, and 
people if we are to remain competitive in a global marketplace.
    Finally, I have long been supportive of investments we make as a 
nation in our natural and cultural resources. The foresight of previous 
generations in establishing our national parks, wilderness areas, and 
cultural and historical lands was a great gift to us that has paid many 
dividends over the years. Every generation has drawn on the 
environmental accounts of this nation, and none more so than ours. 
Climate change is the bill that is coming due. We must act now by 
making investments that will reduce the vulnerability of communities 
and businesses across the nation to this threat. We cannot afford to 
delay any longer.
    We are a great nation. We rose to the world leadership position we 
hold by working together, not by pulling apart. A budget that rewards 
the wealthiest among us and asks the most from those who have least is 
not only unwise and unfair, it is un-American. I hope we can move past 
campaign slogans and failed economic theories to address the challenges 
we face and do what is right and just for all our citizens.
    Again, thank you Chairman Ryan and Ranking Member Van Hollen and 
the rest of the committee for allowing me this opportunity today. I 
yield back.

    Ms. Warlorski. Thank you, Mr. Tonko.
    Mr. Carney? We are going to try to get through Mr. Carney's 
testimony and then possibly Mr. Wilson. It depends on when we 
are going to break for votes here. But, Mr. Carney, you are now 
recognized.

  STATEMENT OF HON. JOHN CARNEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF DELAWARE

    Mr. Carney. Thank you, Acting Chairwoman Warlorski and 
Acting Ranking Member McDermott and members of the committee. 
Good morning. Thank you for allowing me to testify about what 
Congress should focus on as we work to put the Nation on a 
sustainable fiscal path in the coming decades.
    The last 2 years have been consumed by fights over deficit 
reduction and spending priorities. Instead of agreeing on a 
comprehensive plan, we have hurtled from crisis to crisis. 
Right now, we are on a course, frankly, that nobody wants. As 
people in Delaware tell me, that does not make much sense.
    While it is true that we have been able achieve $3.9 
trillion in deficit reduction through this long and frustrating 
process, economic experts say that our current approach is not 
the right one. Our piecemeal efforts have yielded more than $3 
in spending cuts for every $1 in revenue. Some of the cuts we 
have made, particularly through sequestration, will hurt a 
broad array of important programs that help grow our economy in 
the long term. All of the nonpartisan experts agree that more 
revenue needs to be part of the plan. Both sides have 
acknowledged that tax reform is important and necessary, and we 
should use it as a mechanism to avoid the sequester in a 
balanced way by generating revenue and implementing more 
responsible spending cuts.
    Instead of indiscriminate cuts to important investments in 
education, training, infrastructure, and research in the short 
term, we ought to make cuts more gradually, and we ought to 
focus our efforts on the fundamental problem that is going to 
drive our deficits in the long term: rapidly rising health care 
costs. Between 2000 and 2030, the number of seniors will more 
than double, and senior receive more benefits than they pay in 
through Medicare by a 3-to-1 ratio today. Since 2008, Medicare 
Part A outlays have exceeded payroll tax revenue, and that 
problem will continue to worsen. So we face a serious challenge 
here.
    But addressing this problem does not just mean dealing with 
the effects of an aging population. Unnecessary procedures, 
duplicative tests, and widely varying costs depending on the 
hospital or region are also real problems that must be 
addressed. We need systemic change, and the Affordable Care Act 
takes steps in this direction.
    The combined effects of an aging population and rising 
health care costs will cause Medicare costs to nearly double 
over the next 10 years. That is just not sustainable. As I see 
it, we really have two choices as we move forward.
    One is the idea that the Federal Government would provide 
premium support to Medicare recipients. I do not support that 
approach for two reasons. First, we cannot force our seniors to 
pay thousands of dollars each year out of pocket for premiums 
that they cannot afford. And second, this approach does not 
address the real drivers of our ballooning health care costs. 
It simply shifts the costs to seniors.
    The right approach is to make systemic changes to our 
health care system that incentivizes doctors to provide quality 
over quantity, bringing down costs across the board. Along the 
way, we need to make sure that whatever we do does not harm the 
quality of care seniors currently receive or their ability to 
afford that care.
    I recently joined several of my colleagues for lunch with 
Dr. Zeke Emanuel, former health care advisor at the Office of 
Management and Budget, who talked to us about several promising 
ideas that are worth considering as we move forward.
    One is to accelerate the shift away from the fee-for-
service health care system. Pilot programs within the 
Affordable Care Act that focus on bundled payments and 
accountable care organizations are showing promise. We could 
expand these programs and implement a countrywide change from 
paying for each procedure to paying for the overall delivery of 
care.
    Second, we should ensure that Medicare is getting the best 
possible price for expensive medical equipment like wheelchairs 
and oxygen tanks. This approach is working well in some parts 
of the country for certain types of equipment. So we should 
look at enhancing its scope.
    Third, we should reduce over-utilization in our health care 
system by promoting price transparency that allows patients to 
know how much their health care actually costs them, and we 
should tell patients which providers are delivering quality 
care at an efficient price.
    No matter what we do, these health care challenges are 
going to require buy-in from all sides: hospitals, doctors, 
insurance companies, and providers, Democrats and Republicans, 
and of course, the American people. The longer we wait, the 
harder it will be to fix the problem. If we fail to address our 
health care crisis, we can cut all we want from important 
investments like infrastructure and education, but we will not 
be any closer to putting the Nation on a sustainable fiscal 
path.
    Thank you very much for the opportunity to share these 
thoughts, and thank you for the great work that you do for our 
country as part of this committee.
    [The prepared statement of John Carney follows:]

  Prepared Statement of Hon. John C. Carney, Jr., a Representative in
                  Congress From the State of Delaware

    Good morning. Thank you for allowing me to testify about what 
Congress should focus on as we work to put the nation on a sustainable 
fiscal path in the coming decades.
    The last two years have been consumed by fights over deficit 
reduction and spending priorities. Instead of agreeing on a 
comprehensive plan, we've hurtled from crisis to crisis. Right now, 
we're on a course that nobody wants. As people in Delaware tell me: 
that's stupid.
    While it's true that we've been able to achieve $3.9 trillion in 
deficit reduction throughout this long and frustrating process, 
economic experts say that our current approach is not the right one. 
Our piecemeal efforts have yielded more than $3 in spending cuts for 
every $1 in revenue. Some of the cuts we've made--particularly through 
sequestration--will hurt a broad array of important discretionary 
programs that help grow our economy in the long-term.
    All the nonpartisan experts agree that more revenue needs to be 
part of the plan. Both sides have acknowledged that tax reform is 
important, and we should use it as a mechanism to avoid the sequester 
in a balanced way--by generating revenue and implementing more 
responsible cuts.
    And instead of indiscriminate cuts to important investments in 
education, training, infrastructure and research in the short-term, we 
ought to make cuts more gradually. Let's focus our efforts on the 
fundamental problem that is going to drive our deficit in the long-
term: rapidly rising health care costs.
    Between 2000 and 2030, the number of seniors will have more than 
doubled. And seniors receive more benefits than they pay in--by a 3 to 
1 ratio. Since 2008, Medicare Part A outlays have exceeded payroll tax 
revenue, and that problem will continue to worsen. So we face a serious 
challenge.
    But addressing this problem doesn't just mean dealing with the 
effects of an aging population. Unnecessary procedures, duplicative 
tests, and wildly varying costs depending on the hospital or region are 
also real problems that must be addressed. We need systemic change, and 
the Affordable Care Act takes steps in this direction.
    The combined effects of an aging population and healthcare cost 
inflation will cause Medicare costs to nearly double over the next 10 
years. That's not sustainable.
    As I see it, we really have two choices as we move forward. One 
idea is that the federal government would provide premium support to 
Medicare recipients. I don't support that approach for two reasons. 
First, we can't force our seniors to pay thousands of dollars each year 
out-of-pocket for premiums that they can't afford. Second, this 
approach doesn't address the real drivers of our ballooning healthcare 
costs. It simply shifts the costs to seniors.
    The right approach is to make systemic changes to our health care 
system that incentivize doctors to provide quality over quantity--
bringing down costs across the board. Along the way, we need to make 
sure that whatever we do doesn't harm the quality of care seniors 
currently receive, or their ability to afford that care. I recently 
joined several of my colleagues for lunch with Dr. Zeke Emanuel, former 
health care advisor at the Office of Management and Budget, who talked 
about several promising ideas that are worth considering as we move 
forward.
    One is to accelerate the shift away from a fee-for-service 
healthcare system. Pilot programs within the Affordable Care Act that 
focus on bundled payments and accountable care organizations are 
showing promise. We could expand these programs and implement a 
country-wide change from paying for each procedure to paying for the 
overall delivery of care.
    Second, we should ensure that Medicare is getting the best possible 
price for expensive medical equipment like wheelchairs and oxygen 
tanks. This approach is working well in some parts of the country for 
certain types of equipment, so we should look at enhancing its scope.
    Third, we should reduce overutilization in our health care system 
by promoting price transparency that allows patients to know how much 
their healthcare actually costs. And we should tell patients which 
providers are delivering quality care at an efficient rate.
    No matter what we do, these health care challenges are going to 
require buy-in from all sides: hospitals and doctors, insurance 
companies and providers, Democrats and Republicans, and the American 
people. The longer we wait, the harder it is going to be to fix the 
problem. If we fail to address our healthcare crisis, we can cut all we 
want from important investments like infrastructure and education, but 
we won't be any closer to putting the nation on a sustainable fiscal 
path.
    Thank you very much.

    Ms. Warlorski. Thank you, Mr. Carney.
    Mr. Wilson, we are going to go, and then we will vote.

STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE IN CONGRESS FROM 
                  THE STATE OF SOUTH CAROLINA

    Mr. Wilson. Madam Chair and colleagues, thank you for the 
opportunity to be here today. I sincerely appreciate the 
opportunity to speak before you. I would like to first thank 
Chairman Paul Ryan for his leadership on this committee. These 
are difficult economic times, and I appreciate the dedicated 
efforts of the chairman and all of the members on their 
efforts.
    I represent the 2nd Congressional District of South 
Carolina, which includes the Army's base at Fort Jackson in 
Columbia, as well as the Department of Energy's Savannah River 
site in Aiken and Barnwell Counties. Both of these 
installations are vital to our national security as they 
provide unique, one-of-a-kind resources to our country. I 
appreciate working together with my colleague, Congressman Jim 
Clyburn, as Fort Jackson is adjacent to his district, and also 
part of the Savannah River site is located in the district.
    Fort Jackson serves as the Army's largest initial entry 
training facility. Between the fiscal years of 2007 and 2012, 
the number of soldiers who were trained at Fort Jackson ranged 
from 35,000 recruits to a maximum of 46,000. Due to the 
sequester, the Army has informed us that $75 million of funding 
will be cut from Fort Jackson. This facility provides training 
for our men and women who selflessly serve our Nation and 
defend our freedoms while promoting democracy around the world. 
These dedicated brave men and women in uniform should not be 
subjected to budgeting confusion. As you work to draft the 
fiscal year 2014 budget, please do all that you can to secure 
the funds necessary for the training of our men and women at 
Fort Jackson.
    About an hour southwest of Columbia lies the Department of 
Energy's Savannah River site. This site is a national security 
asset which disposes of weapons-grade nuclear materials, 
conducts cutting-edge research, and supports our country's 
nuclear weapons missions. This site played a key role in 
nuclear weapons production starting in the early 1950's which 
led to Cold War victory. Sequestration has had a tremendous 
impact on the site, causing over $100 million in cuts and over 
2,000 possible furloughs.
    That being said, there are concerns also about cutting 
funding for the mixed oxide fuel fabrication facility which 
currently is under construction at SRS. This facility also 
called MOX for the mixed oxide fuel it will create is in line 
for our country's means to honor our nuclear nonproliferation 
agreement with Russia. In the agreement made in the year 2000, 
each of our countries agreed to dispose of 34 metric tons of 
excess military-grade plutonium. This equates to over 17,000 
nuclear bombs being removed from the world. Even more, this 
facility will convert the military-grade plutonium into 
commercial nuclear power rods which will power homes and 
businesses across the United States. The project is over 60 
percent completed and currently employs 2,300 workers with 
another 2,000 ancillary jobs with the project.
    In addition to the hard-working and dedicated employees at 
the facility, finishing MOX is imperative for a multitude of 
national security reasons. Slade Gordon, a member of the 9/11 
Commission stated, quote, every dollar diverted from the MOX 
facility delays the effort to get rid of plutonium and delay 
provides more time for the material to be stolen. If we default 
on our end of the agreement, Russia will have no incentive to 
dispose of their own excess weapons-grade plutonium. I share 
Mr. Gordon's concerns. It is in our mutual interest for America 
and Russia to continue working together.
    Apart from the future funding of the MOX project, 
sequestration has ravaged funding across the board at SRS. The 
environmental management side of the site will lose over $100 
million in funds, and contractors expect to furlough 2,000 
employees beginning April 1st. Please keep in mind that these 
are completely separate from the aforementioned MOX workers. 
From H Canyon to the tank farms, environmental cleanup funds 
have been slashed. Moreover, the Savannah River National 
Laboratory, SRNL, cannot benefit monetarily from its inventions 
and does not possess a line from within the budget, making it 
heavily reliant upon trickle-down funding from other facilities 
within the DOE nuclear complex.
    A significant decrease in funding for SRNL poses a direct 
threat to our national security as the laboratory is tasked 
with training all FBI forensic agents, is key to developing new 
military technologies implemented in the war on terror, and 
directly supports the environmental cleanup mission of legacy 
defense waste across the country.
    Your committee has extremely tough choices ahead. I fully 
understand. I simply ask as you go through the budgetary 
process, you fully consider the critical national security 
missions of both Fort Jackson and the Savannah River site. The 
individuals at both installations are dedicated to serving our 
country and putting our national interests of the United States 
before themselves.
    Thank you for your attention today under the stressed time 
that we have. But I have a full statement that I will provide.
    [The prepared statement of Joe Wilson follows:]

       Prepared Statement of Hon. Joe Wilson, a Representative in
               Congress From the State of South Carolina

    I sincerely appreciate the opportunity to speak here before you 
today. I would like to first thank Chairman Ryan for his leadership of 
this Committee. These are difficult economic times and appreciate the 
dedicated efforts of the Chairman and Members of the Committee.
    I represent the Second Congressional District of South Carolina 
which includes the Army's Base at Fort Jackson in Columbia, as well as 
the Department of Energy's Savannah River Site in Aiken and Barnwell. 
Both of these installations are national assets which provide unique 
one-of-a-kind--to our country.
    Fort Jackson serves as the Army's largest initial entry training 
facility. Between fiscal years 07 to 12 the number of Soldiers who were 
trained at Fort Jackson ranged from 35,000 recruits to a max of 46,000. 
Due to the sequester, the Army has informed me that $75 million of 
funding will be cut from Fort Jackson. This facility provides basic 
training to our men and women who selflessly give of themselves to 
defend freedom and spread democracy across the world. These dedicated 
individuals should not be subjected to political games. As you work to 
draft the Fiscal Year 2014 budget, please do everything you can to 
secure funds to train our men and women at Fort Jackson.
    About an hour southwest of Columbia lies the Department of Energy's 
Savannah River Site. This site is a national asset which disposes of 
Weapons Grade nuclear materials, conducts cutting edge research, and 
supports our country's nuclear weapons missions.
    Sequestration has had a tremendous effect at the Site, causing over 
$100 million in funds to be cut and over 2000 possible furloughs. That 
being said, what further concerns me are widespread rumors that the 
President is considering severely cutting funding for the Mixed Oxide 
Fuel Fabrication Facility (MFFF) currently under construction at SRS. 
This facility, also called MOX for the Mixed Oxide Fuel it will create, 
is in line to be our country's only means to honor a 2000 Agreement 
with Russia which called on each of our countries to dispose of 34 
metric tons of excess military grade plutonium. That equates to over 
17,000 nuclear bombs being taken out of the world. Even more, the 
Facility will convert the military grade plutonium into commercial 
nuclear power rods which will power homes and businesses across the 
United States. The Project is over 60% completed and currently employs 
2300 hundred workers with another 2000 ancillary jobs associated with 
the Project.
    In addition to the hardworking and dedicated workers at the 
Facility, finishing MOX is imperative for a multitude of national 
security reasons. Slade Gordon, a member of the 9/11 Commission, stated 
that ``Every dollar diverted (from the MOX Facility) delays the effort 
to get rid of plutonium, and every delay provides more time for the 
material to be stolen.'' If we renege on our end of the Agreement, 
Russia will have no incentive to dispose of their own excess weapons 
grade plutonium. Do you feel comfortable allowing Russia to possess 
such material? I do not.
    Notwithstanding the future funding of the MOX Project, 
sequestration has ravaged funding across the board at SRS. The 
Environmental Management side of the Site alone will lose over $100 
million in funds and contractors expect to furlough over 2000 employees 
starting April 1. Please keep in mind, these are completely separate of 
the aforementioned MOX workers. From H-Canyon to the Tank Farms, funds 
have been slashed. Moreover, the Savannah River National Laboratory 
(SRNL) cannot benefit monetarily from its inventions and does not 
possess a line item within the Budget, making it heavily reliant upon 
trickle down funding from other facilities within the DOE Nuclear 
Complex. This doesn't bode well for the SRNL when all other 
installations are also getting cut.
    Your Committee has extremely difficult choices to make. I fully 
understand. I simply ask that as you go through the budgetary process, 
you fully consider the critical national security missions being 
carried out at both Fort Jackson as well as the Savannah River Site. 
The individuals at both installations are dedicated to serving their 
country and putting the national interest of the United States before 
themselves. Please give them the tools they need to get the job done 
and to keep us safe here at home.

    Ms. Warlorski. Thank you, Mr. Wilson. Duly noted.
    And we will take a brief recess so members can go to the 
floor to vote. This hearing is now in recess subject to the 
call of the chair.
    [Recess.]
    Mr. Rice [presiding]. The hearing of the Budget Committee 
will come back to order.
    Mr. McDermott, you are recognized for 5 minutes. I want you 
to keep in mind, though, that we have votes starting at roughly 
12:45. So if the witnesses will be kind enough to keep their 
verbal comments to 5 minutes, then we can move on through this.
    With that, I will start by recognizing Mr. McDermott.

 STATEMENT OF HON. JIM McDERMOTT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. McDermott. Thank you, Mr. Chairman.
    As we often hear, budgets are moral documents. They are a 
statement by a country about what they want their future to be 
and where they are going to spend their resources.
    And one of the things that is lost, I think, in some of 
this sequester business that is going on right now--because 
people are looking at short-term things, who will be laid off 
tomorrow, who will be laid off next week, who will have a 
month-long furlough in the month of May. But the real damage of 
the sequester is that it affects the long-term investments in 
research that this country does.
    Now, the President has said he wants to innovate our way to 
continue to lead the world. Our ability now to produce 
manufactured goods and that sort of thing is--we are in real 
competition around the world. But in terms of innovation, this 
country has led the world. It is why our universities are 
filled with students from outside because they want to come and 
learn what it is the Americans are doing or what it is in the 
water or whatever it is that is making us so creative and so 
competitive.
    A huge amount of what happens in our innovation and our 
research and development, R&D as it is called, is from the 
Federal Government. Right now, we are spending $142 billion a 
year. Now, it is spread out through Defense and Health and 
Human Services and Energy and NASA and the National Science 
Foundation, Agriculture, Commerce, Transportation, Interior. 
The National Institutes of Health is the one that I know best 
because of the development in Seattle of a global health 
industry. And we have things going on in AIDS and tuberculosis 
and malaria. And all these programs are funded by the Federal 
Government.
    Now, the way it works is that the Federal Government has X 
number of dollars. They give it to the National Institutes of 
Health. Each one of the institutes, whether it is Infectious 
Diseases or Pulmonary Disease or whatever, gets a certain 
amount of money, and then they receive grants--they receive 
grant requests. And in the past, we were doing--about 20 
percent of the grant proposals were funded. That is what we 
did. And in fact, we increased funding in the National 
Institutes of Health in 2003, and then it dropped significantly 
from 2004 to 2009. And this has brought us to the point where 
about 6 percent of grant proposals made to the National 
Institutes of Health are funded. So we have dropped from 20 to 
6 percent.
    Now, what does that mean? Well, it is just a number. Right? 
No, it is not. What it means is that you have young people who 
spend 6-7 years. I have got a nephew who is at Harvard in 
virology, and he is spending 7 years to get his Ph.D. When he 
comes out, the expectation is that there will be grant money 
for which he can apply to continue the research that he has 
been doing while he is a graduate student at Harvard. The fact 
is that he is going to have a 6 percent chance out of 100 of 
getting his research funded.
    Now, you say, well, you know, that is the luck of the draw. 
Right? Well, the problem with that is we have trained these 
people. We have trained hundreds of people in this regard, and 
when they come out, they got debts and they are marketable in 
other areas and we lose them.
    Singapore is recruiting wildly. The guy who created Dolly 
was taken from England from one of the universities and given 
full--whatever he wanted in Singapore. And that is very common 
across the world. There are countries who are making tremendous 
investments in health and human services.
    And the United States, in deciding in this document, is 
making a decision about things that are going to go on 3 and 4, 
5, 7, 8 years from now. And I am already hearing from my 
friends on the faculty at the university that they received 
phone calls from NIH saying do not hire anybody. Hold off. Your 
grant has been approved, but we are not sure we are going to be 
able to give you the money. And in my view, that is like the 
Indian tribes in the West where we always knew when a tribe was 
going to end when they began to eat the seed corn. The seed 
corn is what you save for next year's crop. And we are, in this 
country, beginning to eat our seed corn when we do not fund 
research.
    Thank you.
    Mr. Rice. Thank you, Mr. McDermott.
    At this time, I would like to recognize the gentleman from 
Minnesota, Mr. Keith Ellison, for 5 minutes, sir.

 STATEMENT OF HON. KEITH ELLISON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Ellison. Thank you, Mr. Chairman. I would also like to 
thank the ranking member.
    The Congressional Progressive Caucus is a caucus, a 
collection of members, which I am here representing today to 
discuss our budget. The name of our budget will be The Back to 
Work Budget. And our budget focuses on America's number one 
priority which is job creation. We bring unemployment in our 
budget down to 5.3 percent within 3 years by including robust 
investments in construction workers, teachers, cops, fire 
fighters, and youth.
    We are also fiscally responsible, reducing the deficit over 
the long term by nearly $2 trillion relative to current law.
    On the issue of jobs, we focus our attention not on deficit 
reduction, but on getting Americans back to work, which is the 
best deficit reduction you can have. While the U.S. economy is 
growing, ordinary Americans continue to struggle and 
unemployment remains unacceptably high. The Back to Work Budget 
creates nearly 7 million jobs in this year alone, putting 
Americans back to work rebuilding and repairing our country and 
laying the groundwork for future economic growth.
    We substantially increase infrastructure investment to a 
level the American Society of Civil Engineers says is necessary 
to close our infrastructure gap. We fund modernization of at 
least 35,000 public schools. We help States rehire nearly 
300,000 teachers who have been laid off since 2008, as well as 
laid-off cops, fire fighters, and other public employees. We 
also boost consumer demand by reinstating the Make Work Pay tax 
credit for 2 years and protect the struggling long-term 
unemployment by extending emergency unemployment compensation.
    Investment. Investment, not austerity, is what our economy 
needs to get working again. Working families have been working 
harder and harder for less and less. Our budget rebuilds our 
economy so that it works for everyone not just a privileged 
few.
    Also, we have been cutting core programs that Americans 
rely on to the bone, slashing everything from student loans to 
medical research to nutrition assistance. In 2011, the budget 
alone included $500 million in cuts to the Women, Infants, and 
Children Nutrition Program; $1.6 billion in cuts to 
environmental protection; $400 million in cuts to home energy 
assistance; $300 million in cuts to the Community-Oriented 
Policing Services program. If this year's Republican budget is 
like the last two, it will continue to decimate programs that 
protect the middle class, gutting Medicaid, and giving low-
income people a ladder into the middle class.
    We need to take a look at spending reductions, and we 
propose that we take a look at Pentagon spending. We need a 
sustainable Pentagon budget that reflects a sound national 
security strategy. Defense spending doubled over the last 
decade. With two wars drawing to a close, we need a leaner, 
more agile Pentagon to combat 21st century threats. Our budget 
focuses on the needs of modern warfare and national defense, 
simply reducing Pentagon spending to 2006 levels.
    Finally, we talk about a fair tax system. We also need to 
replace a broken tax system that favors corporate special 
interests and the wealthy with one that works for all 
Americans. Income inequality is getting worse. Over the last 3 
decades, the income of the wealthiest 1 percent of Americans 
rose 155 percent while the bottom 80 percent saw incomes rise 
just by 41 percent. And our income tax system exacerbates this 
inequality. Workers who earn money from wages often pay a 
higher effective tax rate than individuals like Mitt Romney or 
Warren Buffet who earn money from stocks and dividends.
    Our budget gets rid of the tax preference for investment 
income, an approach President Reagan signed into law. It also 
creates fair tax rates for millionaires and billionaires, 
enacts a financial speculation tax, and eliminates corporate 
tax subsidies for oil, gas, and coal companies.
    This approach is supported by the American people. In a 
recent polling comparing the Republican budget plan to replace 
the sequester with the Progressive Caucus plan, nearly twice as 
many people supported the Progressive Caucus plan. In fact, 47 
percent of Republicans who participated in this survey 
preferred the Progressive Caucus plan to the sequester.
    Americans want Congress to ask the wealthiest and 
corporations to pay a fair share in order to protect the 
security of millions of Americans to get health care and other 
assistance in the social safety net when people face tough 
times. Americans want Congress to focus on getting them back to 
work now rather than gutting the very investments we need to 
grow our economy.
    Thank you.
    Mr. Rice. Thank you, Mr. Ellison.
    The chair now recognizes Mrs. Donna Christensen from the 
Virgin Islands.

   STATEMENT OF HON. DONNA CHRISTENSEN, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Chairman Rice, members. Good 
afternoon. Thank you for the opportunity to testify on this 
important budget which will set the stage, I think, for whether 
this country continues to lead or becomes a secondary player. 
The latter I know we all agree is unacceptable.
    First of all, I would recommend the Congressional Black 
Caucus budget to the committee. In brief, the CBC budget would 
cancel the sequester, offer several options for raising a 
significant amount of revenue. We invest in education, 
infrastructure, housing, job training, and modernize our 
military. It includes Assistant Leader Clyburn's 10-20-30 
program that ensures a portion of funds in all programs will be 
targeted to distressed communities. In it, we strengthen Social 
Security, Medicare, Medicaid, and all of the safety net 
programs, and we still reduce the deficit. Once it is 
finalized, I hope that the committee would accept it as part of 
my testimony.
    I also want to address a few specific areas.
    First is the Affordable Care Act. Regardless of what 
position any one of us may have taken on the bill, it is now 
the law of the land, and it must be fully funded. It is not 
only a moral imperative, but it is an economic imperative that 
the access to health care that this bill promised be fulfilled 
for the over 30 million Americans who are now uninsured. There 
are many scientifically sound reports that demonstrate the 
savings that would be realized by the preventive care and the 
expanded access to treatment, whether it is diabetes care, 
prevention of end-stage renal disease, or early heart disease 
care or others. The new approaches to care tied to payment 
reform, such as the Accountable Care Organization or medical 
homes and others, will likewise realize savings in lives and in 
costs. And the health equity provisions that were included 
through the work of the Tri-Caucus which will reduce health 
disparities are more savings. As a frame of reference, a recent 
report by the Urban League found the excess health care costs 
annually due just to disparities is about $82 billion per year.
    The work of the Patient-Centered Outcome Research Institute 
that the ACA created also promises to improve health care and 
outcomes which will further result in improved health and 
health care savings.
    This is not an all-inclusive list. There are other 
provisions that will also improve the health of our residents 
and the health of our economy. Not only should both be our 
goal, but we should also be determined to change our poor 
standing in health internationally. Although we spend more on 
health care than any other industrialized country, we are 37th 
in health status and 40th and 41st in infant and maternal 
mortality. We can change this shameful standing by just 
eliminating health disparities.
    For the health and well-being of our fellow Americans and 
to reduce the escalation of health care spending, we cannot 
afford to not fully fund and implement the Affordable Care Act.
    Secondly, I want to refer you to H.R. 6482 introduced in 
the last Congress by Congressman Burgess and myself and which 
will be reintroduced this year. It would amend the 
Congressional Budget Act of 1974 respecting the scoring of 
preventive health savings. If we scored savings, including 
outside of the customary 10-year window, I do not believe we 
would be having the budget battles with the gridlock over 
deficit reduction that is currently paralyzing the Congress and 
holding back our recovery.
    Third, I want to speak to the concerns of the offshore 
territories. We are often left out of important programs or 
underfunded at levels that do not allow us the benefits that 
the States realize. Our allotment for LIHEAP is a good example 
where the .1 to .5 percent allotment for all of the territories 
does not make a dent in the Virgin Islands where the cost of 
our electricity is over 50 cents per kilowatt. And some seniors 
and low-income families are already going without electricity. 
An excerpt from a CRS memo is included in my written testimony 
which illustrates this point.
    Our residents do not benefit from SSI. Medicaid is capped 
and underfunded with an unfair match. We are left out of 
important education, health care, labor, and other programs 
that inhibit our ability to provide the services our residents 
need and deserve. I remind the committee that we are Americans 
who serve our country in the armed forces alongside of our 
fellow citizens from the 50 States and in greater numbers per 
capita than many States.
    Lastly, I want to alert the committee to legislation we 
have recently reintroduced for the fourth time. It is H.R. 374, 
the Derek Hodge Virgin Islands Improvement Act of 2013. This 
legislation which creates a new IRA based in the Virgin Islands 
has the potential to raise revenue for the Virgin Islands but 
also an even more significant amount of revenue for the Federal 
Treasury. In this time of extreme economic distress in the U.S. 
Virgin Islands, I hope we can get it passed this year to 
provide needed relief at home, as well as to help this Congress 
provide a needed offset where it may be needed or help our 
efforts to reduce the deficit.
    I thank you again for the opportunity to testify.
    Mr. Rice. Thank you, Mrs. Christensen.
    The chair recognizes the gentlewoman from Connecticut, Mrs. 
Elizabeth Esty.

STATEMENT OF HON. ELIZABETH ESTY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Ms. Esty. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to testify today on the 
fiscal year 2014 budget resolution.
    As the committee prepares this year's budget resolution, I 
want to emphasize the need for smart cuts to reduce the deficit 
while maintaining important investments in priorities that 
reflect our values as a country. That means supporting the hard 
work and innovation of American businesses that are creating 
jobs and helping to bring back our economy.
    Throughout a tough economy, manufacturers and small 
businesses in Connecticut and across the country have been 
innovating and making major strides. In my district, I have 
heard from manufacturers, small business owners, and labor 
leaders alike a shared sense that we are finally on the verge 
of better days. Mr. Chairman, their struggles and hard work to 
make it through the recession are about to pay off.
    But now they are concerned that this Congress may 
inexplicably ruin their gains by making dangerous, across-the-
board cuts. My friend, John Herrity, President of the 
Connecticut State Council of Machinists, put it perfectly when 
he said that after all the progress our manufacturers have 
made, quote, to lose all that momentum just defies common 
sense. Now more than ever, we must preserve investments in 
American products and the highly skilled employees who make 
them.
    And now more than ever, we need to make smart investments 
in our infrastructure. These investments will create immediate 
jobs in construction and engineering industries, and 
investments in our transportation infrastructure will allow our 
businesses to move their products and services to market more 
efficiently and lay the foundation for future economic growth. 
A major complaint I have heard from businesses in Connecticut 
is the time and money they lose from delays caused by 
congestion and gridlock. Washington budget politics should not 
add to that gridlock.
    Additionally, now is the time to make strategic investments 
in research and development so that we continue to lead in 
cutting-edge technologies and new products people around the 
world want and need.
    Our budget should also reflect our commitments to our 
seniors. More than 125,000 people in my district receive Social 
Security. More than half a million people in Connecticut rely 
on Medicare. Many seniors in my district are concerned about 
the future of these critical programs and they have every 
reason to be, having seen proposals out of Congress in recent 
years to privatize Social Security and voucherize Medicare. I 
urge you to reject proposals that would end Medicare as we know 
it. It would be a mistake to endanger these programs and break 
long-held commitments to our seniors instead of adopting common 
sense reforms to preserve and strengthen Social Security and 
Medicare for current and future generations.
    With increases in severe weather affecting Connecticut and 
many other parts of the country, we also need to ensure that 
families have the support they need to survive and get by. This 
winter and for several past winters, Connecticut has endured 
historic winter storms. We must fund home energy assistance 
programs like LIHEAP for families across the country who are 
struggling to stay warm. LIHEAP serves around 120,000 
households in Connecticut, and this critical program has 
already received drastic cuts in recent years. Before 
sequestration, Federal funding for LIHEAP in Connecticut stood 
at $72 million, down from $98 million in 2011. We face 
additional cuts if sequester goes through. During harsh 
winters, it is not right to leave families struggling to heat 
their homes and to keep their children safe from the weather. 
We need to make LIHEAP funding a priority in 2014.
    Finally, I would like to emphasize the need for funding to 
help prevent gun violence. As a Representative for Newtown, 
Connecticut and as a mother, I feel a special responsibility to 
help meet the needs of that community and to the parents who 
have suffered such unimaginable horror. Gun violence is costing 
lives in cities and towns across the country and it is a 
national crisis. Again, budgets reflect our priorities and I 
think we can all agree that fewer priorities are greater than 
protecting the lives of our children. I urge the committee to 
restore funding for public safety and law enforcement 
initiatives to reduce gun violence. We need funding for 
research on the causes of gun violence, for mental health, and 
for States to upload their information to the national data 
system.
    We can and should start with easy, smart cuts and revenue 
increases. There are already several proposals on the table 
that I support to repeal subsidies for big oil and big gas, 
eliminate outdated subsidies for agriculture, and to enact a 
Buffett rule so that the wealthiest are paying their fair 
share. It is certainly not an exhaustive list and we have a lot 
of work to do, but the American people are frustrated, and 
rightly so, with our punting responsibility to make these tough 
choices. We need to get acting doing our jobs so the American 
people can get back to doing theirs.
    Thank you for your time and attention and thank you for 
your hard work.
    [The prepared statement of Elizabeth Esty follows:]

   Prepared Statement of Hon. Elizabeth H. Esty, a Representative in
                 Congress From the State of Connecticut

    Thank you, Mr. Chairman, Ranking Member Van Hollen, and members of 
the Committee. I appreciate the opportunity to testify today on the 
fiscal year 2014 budget resolution.
    As this committee prepares this year's budget resolution, I want to 
emphasize the need for smart cuts to reduce the deficit while 
maintaining important investments in priorities that reflect our values 
as a country. That means supporting the hard work and innovation of 
American businesses that are creating jobs and helping to bring back 
our economy.
    Throughout a tough economy, manufacturers and small businesses in 
Connecticut and across the country have been innovating and making 
major strides. In my district, I've heard from manufacturers, small 
business owners, and labor leaders alike, a shared sense that we're 
finally on the verge of better days.
    Mr. Chairman, their struggles and hard work to make it through the 
recession is about to pay off, but they're now concerned that this 
Congress may inexplicably ruin their gains by making dangerous, across-
the-board cuts.
    My friend John Harrity, President of the Connecticut State Council 
of Machinists, put if perfectly when he said that after all the 
progress our manufacturers have made, ``to lose all that momentum just 
defies common sense.'' Now more than ever, we must preserve investments 
in American products and the highly skilled employees who make them.
    Continuing to construct two Virginia-class submarines a year, a 
recent gain championed by my friend Congressman Joe Courtney, has both 
helped boost our nation's defense and helped manufacturers save and 
create jobs in Connecticut. This effort has included the work of around 
120 suppliers in my own district--high tech manufacturers like Ward 
Leonard Electric Company in Thomaston and Jonal Laboratories in Meriden 
who are making top-quality, cutting edge products. We should do right 
by our national security and our manufacturers and maintain funding for 
the construction of two Virginia-Class subs a year.
    Our budget should also reflect our commitments to our seniors. More 
than 125,000 people in my district receive Social Security. More than 
half a million people in Connecticut are on Medicare. Many seniors in 
my district are concerned about the future of these critical programs, 
and they have every reason to be--having seen proposals out of Congress 
in recent years to privatize Social Security and voucherize Medicare. I 
urge you to reject proposals that would end Medicare as we know it. It 
would be a mistake to endanger these programs and break long-held 
commitments to our seniors instead of adopting commonsense reforms to 
preserve and strengthen Social Security and Medicare for current and 
future generations.
    With increases in severe weather affecting Connecticut and many 
other parts of the country, we also need to ensure that families have 
the support they need to survive and get by. This winter and for 
several past winters, Connecticut has endured historic winter storms. 
We must fund home energy assistance programs like LIHEAP for families 
across the country who are struggling to stay warm.
    LIHEAP serves around 120,000 households in Connecticut, and this 
critical program has already received drastic cuts in recent years. 
Before sequestration, federal funding for LIHEAP in Connecticut stood 
at about $72 million, down from $79.5 million in 2012 and down from 
around $98 million in 2011. Connecticut will now face additional cuts 
as sequestration cut LIHEAP nationally by $185 million. During harsh 
winters, it's not right to leave families struggling to heat their 
homes and keep their kids safe from the weather. We need to make LIHEAP 
funding a priority in 2014.
    Finally, I want to emphasize the need for funding to help prevent 
gun violence. As the Representative for Newtown, Connecticut and as a 
mother, I feel a special responsibility to help meet the needs of that 
community and to the parents who have suffered such unimaginable 
horror. But gun violence is costing lives in cities and towns across 
the country. It's a national crisis.
    Again, budgets reflect our priorities, and I think we can all agree 
that few priorities are greater than protecting the lives of our 
children. The Budget Committee should restore funding for public safety 
and law enforcement initiatives to help reduce gun violence. In 
addition, funding for research into the causes of gun violence, for 
mental health, and for the states to improve the upload of criminal 
records into the National Instant Criminal Background Check System to 
keep guns out of the hands of criminals.
    We can and should start with easy, smart cuts and revenue 
increases--there are already proposals on the table that I support to 
repeal subsidies for big oil and big gas, eliminate outdated subsidies 
for agriculture, and to enact a ``Buffet Rule'' so that the wealthiest 
are paying their fair share.
    That's certainly not an exhaustive list of the cuts we can make, 
nor are the programs I've discussed an exhaustive list of what I 
believe we can and should fund. But I respectfully urge all to keep in 
mind, as you write this budget resolution, that we were elected to make 
decisions that are in the best interest of the American people. We 
can't keep punting the responsibility of making tough choices when it 
comes to our budget, as this Congress did by allowing mandatory across-
the-board cuts to go through on March 1.
    Our constituents are looking for us to do our job, so that they can 
do theirs. Let's pass a budget that reflects our values as Americans.

    Mr. Rice. Thank you, Mrs. Esty.
    The chair recognizes the gentleman from Connecticut, Mr. 
Joe Courtney.

 STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Courtney. Thank you, Mr. Chairman. And first of all, I 
want to compliment my colleague from Connecticut. This is her 
maiden presentation before the House Budget Committee, and I 
compliment on her great testimony and associate myself with 
her, again, broader range of issues that definitely affect our 
great State.
    My focus here this morning really is to talk about one 
issue which is Medicare. This is a committee which last year 
and apparently this year again seems to be the place where the 
strongest effort is being made, in my opinion, to butcher a 
program which has done so much in terms of raising life 
expectancy for seniors since it was enacted in 1965, signed 
into law by Lyndon Johnson out in Independence, Missouri, the 
first cards issued to Harry Truman and Bess Truman, and has 
also in my opinion helped create a health care system that 
again has done great things in terms of pediatric--excuse me. 
Not pediatric care but care for seniors and people on 
disability.
    In essence, what the committee proposed last year was to 
take this program, basically convert it into a private health 
insurance program for people aged 55 or less, and raise the age 
of eligibility to people aged 67. Again, if we go back to 1965, 
we had a private health insurance market for seniors in this 
country. The problem is only half of seniors either had the 
means or could satisfy the risk analysis that insurance 
companies imposed on any book of business that they have. And 
obviously, people over the age of 65 are a high-risk population 
in this country.
    The genius of Medicare was to create a universal pool of 
tens of millions of seniors, spread risk out, create a standard 
premium, provide a payroll tax system of revenue. And again, 
the results are clear. Life expectancy has been added by a 
factor of 8 years for Americans since the passage of the 
Medicare law.
    Despite the fact that we have had ups and downs in terms of 
its financial strength measured by the trustees for Medicare, 
we are now at a place where this committee last year and 
apparently this year is using budget reasons as an excuse to, 
again, fundamentally restructure this program despite the fact 
that even in the last year, we have seen tangible progress in 
terms of the financial solvency of this program. Doug Elmendorf 
testified through CBO just a few weeks ago that the projected 
baseline for the next 10 years for Medicare was actually going 
to be $230 billion less than the year before.
    And I brought with me, Mr. Chairman, a chart prepared by 
Standard & Poor's which shows why this is happening. The per 
capita expenditure on Medicare which, again, going back just to 
2008, was running probably three times higher than the 
inflation rate, has dropped dramatically. And actually this 
number has even gone down since this chart was prepared just in 
the last few months or so. We are seeing a historic drop in 
terms of per capita spending for Medicare. Why is that 
happening? Mr. Elmendorf has told us it is for structural 
reasons created by the Affordable Care Act. Whether it is 
hospital readmission penalties, that again is changing 
dramatically hospital practices just in the last 3 years, 
equalization of payments for Medicare Advantage which is saving 
the taxpayer billions of dollars without endangering access to 
Medicare Advantage, and prevention and wellness programs 
covering cancer screenings, closing the donut hole, smoking 
cessation, annual checkups. These are all working. And Standard 
& Poor's chart, which I just showed you, demonstrated that. And 
it is working without, again, damaging people's eligibility or 
access to this program or the scope of their benefits.
    We can do more. There is no question we can do more. And 
again, thoughtful people on the right and the left are already 
having serious conversations and discussions about the fact 
that it is time to phase out fee-for-service over the next 8 or 
9 years. Hospitals are ready for it. Providers are ready for 
it. This is what will work. Raising the eligibility age, 
kicking 65- and 66-year-olds off of Medicare, according to CBO, 
would save about $113 billion. But the damage it would do to 
employer programs--- and I was with a shipyard in my district, 
EB, Electric Boat, which has some older workers who actually 
would like to maybe move on in terms of retirement, but they 
are frozen by the fact that their retirement benefits--their 
health benefits are something that they do not want to concede 
and let up. If we push that retirement eligibility age for 
Medicare to age 67, you are going to create job block in the 
older sectors of our population and not allow our workforce to 
refresh itself and creating new opportunities for younger 
people.
    We can do better. We can save more money than any of these 
proposals that have been put forth in terms of privatizing 
Medicare or raising the age of eligibility. Coming from the 
insurance capital of America, we know a little bit about 
insurance in this country, and there are better ways that we 
can, again, save money, which is a clear challenge in terms of 
demographics in this country, without, again, damaging the 
basic structure of a program which has transformed the lives of 
seniors over the last 47 years.
    And with that, I yield back.
    Mr. Rice. Yes, sir.
    Mr. Cicilline. Thank you, Mr. Courtney.
    Mr. Chairman, I would ask unanimous consent that a copy of 
the graph shown by Mr. Courtney be included in the record.
    Mr. Rice. No objection?
    [The graph provided by Joe Courtney follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rice. Thank you very much, Mr. Courtney.
    The chair now recognizes for 5 minutes the Honorable Mr. 
Connolly from Virginia.

   STATEMENT OF HON. GERALD E. CONNOLLY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Connolly. Thank you, Mr. Chairman, Mr. Cicilline, 
members of the committee. It is great to be back at the Budget 
Committee. I served in my first term here on the Budget 
Committee, and I have sat through this session as a members of 
the committee in terms of members' comments. And so in light of 
that experience, I will not read my prepared statement, and 
with permission, I will enter it into the record.
    I will only make two points, echoing everything my 
colleagues have said, but I want to make two points. And I 
understand, given the partisan division here and in the 
Congress, these two points will fall on deaf ears, but I still 
think they are worth making.
    One is that sequestration and the pending Ryan budget, like 
the previous two Ryan budgets, only this one is going to be 
worse, constitute a disinvestment in America. We are 
disinvesting in R&D. We are disinvesting in education. We are 
disinvesting in infrastructure, and we are disinvesting in 
human capital. No great country stays great when it does that. 
China is not doing that. And we will pay a price a generation 
hence for these disinvestments.
    And so it seems to me every budget represents our values, 
and the budget that is about to come before the floor I fear 
does not represent these values and will do harm to our country 
in the long run.
    The second point I want to make is on behalf Federal 
employees. Just today, you know, we considered a rule and later 
today we are going to vote on a continuing resolution that will 
freeze salaries for Federal employees for the third year in a 
row. Now, we have already changed the compensation package, the 
retirement benefit package, for prospective Federal employees. 
We have frozen their salaries for 2 years, and they have 
already contributed over $100 billion to debt reduction. The 
only employee group, working group, in America that was asked 
to do that.
    We face a crisis. 47 percent of Federal employees are 
eligible for retirement in the next decade. How will we recruit 
and retain the talent we need, the skilled workforce we need 
for the future? It, after all, serves our constituents. Every 
one of us will feel that pinch over time in our respective 
districts.
    Public service is a noble calling. Most Federal employees 
do a superlative job. They work hard. They work long hours. 
They provide quality skills on behalf of our constituents. They 
deserve our respect, and I urge that, whatever we do in the 
next budget, we try to reflect that respect, that dignity, and 
not ask them to continue to be the only group in America to 
make a sacrifice in the name of the national debt.
    And with that, Mr. Chairman, I thank you for your hard work 
and Mr. Cicilline. And thank you so much for giving us this 
opportunity today.
    Mr. Rice. Thank you, Mr. Connolly, for putting up with me.
    The chair now recognizes the gentlewoman from Nevada, Mrs. 
Titus.

STATEMENT OF HON. DANA TITUS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF NEVADA

    Ms. Titus. Thank you, Mr. Chairman and ranking member. I 
also want to thank Chairman Ryan and Ranking Member Van Hollen 
for holding this hearing and for their hard work to resolve our 
Nation's fiscal challenges.
    It is important that we remember the Federal budget is more 
than a theoretical document that is only debated in Washington 
with no impact on families throughout the United States. 
Instead, the Federal budget is a blueprint for our Nation's 
future. It is a statement of our national priorities. Our 
budget should be a path forward for a strong middle class and 
jobs for every person who is looking for a chance at the 
American dream.
    The choices we make here determine if a family in Las Vegas 
is living paycheck to paycheck or is saving money for their 
children's education. Our budget determines if States like 
Nevada will become the Saudi Arabia of solar power and home to 
thousands of clean energy jobs that cannot be outsourced or if 
we will continue to rely on fossil fuels that harm our 
environment and create jobs overseas instead of here at home.
    Accordingly, I would like to take the few minutes I have 
today to highlight what I believe should be the pillars of our 
budget. First, we must make it very clear that we will preserve 
and protect Medicare and Social Security. We cannot change 
these programs in any way that will break the safety net that 
has sustained the most vulnerable in our society. I do not 
support raising the retirement age for Social Security 
recipients because I do not feel it is fair to ask the 
construction worker building the next great resort on the Las 
Vegas Strip to work 2 more hours in the blazing sun so we can 
protect tax breaks for billionaires. And I will not support 
turning Medicare into a voucher program because I do not think 
it is fair to ask a senior in District 1 to choose between 
medicine and food so we can continue to provide tax breaks for 
big oil.
    Second, our budget should be a serious investment in our 
Nation's ability to compete well into the 21st century. The 
Silver State is also the solar State with more than 300 sunny 
days a year. The development of this renewable energy source is 
smart policy in a number of ways. Congress should continue 
supporting funding for our State energy programs which leverage 
funds in support of renewable energy projects and energy 
efficiency programs. Our budget should preserve the solar 
Investment Tax Credit, which is particularly important to 
developing large solar projects. The extension of the ITC will 
give the solar energy industry the long-term certainty that is 
so vital to any business sector.
    We should make investments in infrastructure and energy 
efficiency by continuing incentives for utilizing green 
building practices. We should also prioritize reducing energy 
usage in older construction with retrofit programs for office 
buildings, retail stores, schools, and homes.
    And when it comes to building an economy geared toward 
middle class growth, it is essential that we also invest in our 
critical infrastructure and transportation systems. Our roads, 
railroads, and airports are central to America's economic 
success, and we must make them a priority.
    Congress must continue to support the FAA's NextGen 
implementation that is at the heart of modernizing our air 
traffic control system. It will lead to increased safety for 
the flying public while also reducing fuel costs and increasing 
efficiency for our airlines.
    Our railroad infrastructure also remains critical to our 
economy. I believe that development of a high-speed rail is a 
challenge that we must take on. Congress must work with private 
industry and the States to advance high-speed rail projects 
that hold so much promise for the job creation and economic 
success we need.
    In the end, the most crucial investment we can make for the 
future of our Nation is in the next generation of Americans. We 
must make education a top priority and give our children the 
skills and training they need to be the innovators of the 
future. In short, we cannot afford to be penny wise and pound 
foolish when it comes to supporting education and research and 
development.
    Again, I thank you for your attention, and I look forward 
to working with you and our colleagues on both sides of the 
aisle to produce a budget that takes a balanced approach to 
improving our economy and investing in our Nation's future. 
Thank you.
    [The prepared statement of Dana Titus follows:]

       Prepared Statement of Hon. Dina Titus, a Representative in
                   Congress From the State of Nevada

    Thank you, Mr. Chairman and Ranking Member. I want to also thank 
Chairman Ryan and Ranking Member Van Hollen for holding this hearing 
and for their hard work to resolve our nation's fiscal challenges.
    It is important we remember that the federal budget is more than a 
theoretical document that is only debated in Washington, with no impact 
on families throughout the United States.
    Instead the federal budget is a blueprint for our nation's future; 
it is a statement of our national priorities. Our budget should be a 
path forward for a strong middle class and jobs for every person who is 
looking for a chance at the American Dream.
    The choices we make determine if a family in Las Vegas is living 
paycheck to paycheck, or saving money for their children's education.
    Our budget determines if states like Nevada will become the Saudi 
Arabia of solar power, and home to thousands of clean energy jobs that 
cannot be outsourced. Or, if we will continue to rely on fossil fuels 
that harm our environment and create jobs overseas instead of here at 
home.
    Accordingly, I want to take the few minutes I have today to 
highlight what I believe should be the pillars of our budget.
    First, we must be clear that we will preserve and protect Medicare 
and Social Security. We cannot change these programs in any way that 
will break the safety net that has sustained the most vulnerable in our 
society.
    I do not support raising the retirement age for Social Security 
recipients because I do not feel it is fair to ask a construction 
worker building the next great resort on the Las Vegas Strip to work 
two more years in the blazing sun so we can protect tax breaks for 
billionaires.
    And, I will not support turning Medicare into a voucher program 
because I do not think it is fair to ask a senior in District One to 
choose between medicines and food so we can continue to provide tax 
breaks for Big Oil.
    Second, our budget should be a serious investment in our nation's 
ability to compete well into the 21st Century.
    The Silver State is also the Solar State, with more than 300 sunny 
days a year. The development of this renewable energy source is smart 
policy in a number of ways.
    Congress should continue supporting funding for our State Energy 
Programs which leverage funds in support of renewable energy projects 
and energy efficiency programs.
    Our budget should preserve the Solar Investment Tax Credit which is 
particularly important to developing large solar projects. The 
extension of the ITC will give the solar industry the long-term 
certainty that is so vital to any business sector.
    We should make investments in infrastructure and energy efficiency 
by continuing incentives for utilizing green building practices. We 
should also prioritize reducing energy usage in older construction with 
retrofit programs for office buildings, retail stores, schools, and 
homes.
    When it comes to building an economy geared toward middle class 
growth, it is essential that we invest in our critical infrastructure 
and transportation systems. Our roads, railroads, and airports are 
central to America's economic success, and we must make them a 
priority.
    Congress must continue to support the FAA's NextGen implementation 
that is at the heart of modernizing our air traffic control system. It 
will lead to increased safety for the flying public while also reducing 
fuel costs and increasing efficiency for our airlines.
    Our railroad infrastructure also remains critical to our economy. I 
believe that development of high speed rail is a challenge we must take 
on. Congress must work with private industry and the states to advance 
high speed rail projects that hold so much promise for job creation and 
economic success.
    In the end, the most crucial investment we can make for the future 
of our nation is in the next generation of Americans. We must make 
education a top priority, and give our children the skills and training 
they need to be the innovators of the future.
    In short, we cannot afford to be penny wise and pound foolish when 
it comes to supporting education, and research and development.
    Again, thank you for your attention. I look forward to working with 
you and our colleagues on both sides of the aisle to produce a budget 
that takes a balanced approach to improving our economy and investing 
in our nation's future.

    Mr. Rice. Thank you, Mrs. Titus.
    The chair recognizes for 5 minutes the gentleman from 
Arizona, Mr. Barber.

STATEMENT OF HON. RON BARBER, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Barber. Thank you, Mr. Chairman and ranking member. I 
am pleased to be here today to bring to your attention some 
funding needs that are critical in my district in southern 
Arizona and to the Nation.
    I agree that spending must be reduced to address our budget 
deficit and national debt. I have five grandchildren and I do 
not want their future weighed down by the debt that we have 
created. I am sure I join with millions of parents and 
grandparents across the Nation who feel this way.
    There is no doubt that spending must be reduced to address 
our national debt, but spending across the board, spending 
mandated by sequestration, is not the way to make the kind of 
responsible and fact-based spending cuts that this Nation 
needs.
    Let me talk about the impact on our State, my district, and 
on the Nation. Sequestration is already taking its toll. 
Because Arizona is on the U.S.-Mexico border, sequestration 
cuts are especially serious, and those consequences, if allowed 
to continue for long, will degrade the security of our entire 
Nation. In a letter this week to Arizona Governor Jan Brewer, 
the Department of Homeland Security Secretary, Janet 
Napolitano, wrote: reductions mandated by sequestration will 
necessitate furloughs, hiring freezes, and the elimination of 
overtime pay for a significant portion of our front-line law 
enforcement personnel which will impact negatively on staffing 
levels in Arizona.
    This is not the right way to go. Reduced overtime and 
furloughs on CBP border patrol agents will result in diminished 
capability and capacity to detect and interdict illicit 
activities along southern Arizona's border with Mexico, one of 
the most porous areas of the border in the whole Nation. It 
will also reduce the income of these agents by 20 percent. That 
is the wrong way to treat these brave men and women who put on 
the uniform every day to protect the homeland.
    So first and foremost, Mr. Chairman, before we make any 
decisions about spending for the future, we must give the 
American people certainty and reverse the sequester before the 
full impacts are felt by the American families, businesses, and 
our economy. We must work immediately to adopt a bipartisan and 
balanced budget package.
    Moving forward, Mr. Chairman, we must clearly show our 
commitment to a more secure border with Mexico. We have made 
improvements but there are many yet to be made. As only one of 
nine members with a border district on the southwest border, I 
know firsthand that many of the people I represent still feel 
unsafe in their own homes. That is not right. No American 
should feel unsafe in their homes because of incursions from 
across the border. We need robust funding for agents, 
technology, and communications on the border.
    We must also make new investments in our ports of entry to 
improve infrastructure and to increase staffing levels to 
ensure that the ports are secure and that legal commerce flows 
expeditiously.
    Mr. Chairman, let me now speak about defense. Among the 50 
States, Arizona ranks fifth nationally in the number of 
employees in defense-related jobs. More than 42,000 Arizonans 
work in the aerospace or defense industry jobs, and the 
industry is responsible for more than 153,000 indirect jobs in 
our State. Raytheon Missile Systems in Tucson, for example, 
manufactures Tomahawk, Maverick Sidewinder, and many of the 
other missiles that we need in our current conflicts. Raytheon 
also partners with Israel on the Iron Dome protection system 
that is essential to Israel's safety and security.
    Also in my district, we have two military installations 
that are essential to our national security: Davis-Monthan Air 
Force Base and Fort Huachuca. I am very proud to represent 
these patriotic service members and their families and our 
civilian workforce that works in Department of Defense-related 
jobs.
    We must protect these assets that are so critical to our 
national defense and security. Morale in the armed forces has 
been seriously affected by the uncertainty in the cuts imposed 
by sequestration. By making robust investments in our national 
defense, we will ensure our readiness and security while 
dispelling economic uncertainty and creating new economic 
growth.
    Southern Arizona is also home to over 85,000 veterans. 
America's veterans have made every sacrifice we have asked of 
them to protect our Nation and protect our freedoms. As we set 
our budget priorities for this fiscal year and each one after 
that, we must honor the promises that we have made to our 
veterans.
    And finally, many Americans come to my district from other 
parts of the country to retire. As a result, we have over 
128,000 seniors living in my district. They have invested all 
of their working lives in a retirement income and medical care 
assurances in Social Security and Medicare. They are concerned 
and I am concerned about the long-term solvency of these 
programs. But we know for a fact that Medicare is solvent till 
2024, Social Security till 2033. We have time to do the right 
thing to continue their solvency without making drastic cuts or 
privatizing these critical systems and services.
    Mr. Chairman, I want to thank you for the opportunity to 
discuss the fiscal challenges facing our Nation. They cannot be 
overstated. But neither can we afford to shrink from our 
responsibilities----
    Mr. Rice. Mr. Barber----
    Mr. Barber [continuing]. To stop investing in this Nation's 
future.
    Thank you, Mr. Chairman.
    [The prepared statement of Ron Barber follows:]

       Prepared Statement of Hon. Ron Barber, a Representative in
                   Congress From the State of Arizona

    Mr. Chairman and members of the Committee on the Budget: Thank you 
for inviting me to be with you this morning to address some funding 
needs that are critical to my district in Southern Arizona.
    First of all, Mr. Chairman, I would like to discuss the impacts 
that the sequestration has had on my state and on my district. And I 
mean the very real impacts that already have occurred.
    Because Arizona is on the U.S. Mexico border, sequestration 
consequences are especially serious. And those consequences--if allowed 
to continue for long--will degrade the security of our entire nation.
    In a letter this week to Arizona Governor Jan Brewer, Department of 
Homeland Security Secretary Janet Napolitano wrote that, ``Reductions 
mandated by sequestration will necessitate furloughs, hiring freezes 
and elimination of overtime pay for a significant portion of our 
frontline law enforcement personnel, which will impact staffing levels 
in Arizona.''
    Reduced overtime and furloughs of CBP Border Patrol agents will 
result in a ``diminished capability and capacity to detect and 
interdict illicit activity along Arizona's border with Mexico.''
    So first and foremost, Mr. Chairman, before we make any decisions 
about spending for the future we must give the American people 
certainty and reverse the sequester before the full impacts are felt by 
American families, businesses and our economy. We must work immediately 
to adopt a bipartisan and balanced budget package.
    Spending must be reduced to address our national debt. But the 
across-the-board cuts mandated by sequestration are not the way to make 
the kind of intelligent, fact-based spending cuts that this nation 
needs.
    Mr. Chairman, moving forward, our budget must clearly show our 
commitment to a more secure border with Mexico.
    We have made improvements in securing our border--but the job 
remains unfinished.
    As one of only eight members in the House representing the 
Southwest border and as a member of the Homeland Security Committee, I 
know that we still have more to do so the people who live and work 
along our southern border feel safe in their homes and on their land.
    That is not the case today in some areas of my district--and in 
other areas of the border.
    We need robust funding for agents, technology and communications at 
the border.
    We also must make new investments in our ports of entry to improve 
infrastructure and increase staffing to ensure that the ports are 
secure and commerce flows.
    Mr. Chairman, I would like to turn now to defense.
    Among the 50 states, Arizona ranks fifth nationally in the number 
of employees in defense-related jobs.
    More than 42,000 Arizonans work in aerospace or defense industry 
jobs and the industry is responsible for more than 153,000 direct, 
indirect and induced jobs.
    Our aerospace industry, from the workers at the plant, to the 
pioneering scientists and engineers at the drafts board, work 
tirelessly to provide this country the ability to meet any threat, 
around the world, and here at home.
    Raytheon Missile Systems in Tucson manufactures Tomahawk, Maverick 
Sidewinder and many other missiles. Raytheon also partners with Israel 
on the integral Iron Dome protection system that is imperative to 
Israel's safety and security.
    In addition to our state's thriving defense industries, southern 
Arizona is home to two major military installations and an Air National 
Guard Wing:
    <bullet> Davis-Monthan Air Force Base in Tucson
    <bullet> the Army's Fort Huachuca in Sierra Vista
    <bullet> And the 162nd Fighter Wing of the Arizona Air National 
Guard just across my district line
    I am proud to represent these brave service men and women, their 
families, and our civilian workforce in Southern Arizona.
    Pilots at Davis-Monthan train every day in A-10s so that they can 
provide close air support for our soldiers when deployed overseas, 
flying low and slow and picking off insurgents.
    Soldiers at Fort Huachuca learn human intelligence tactics to 
provide us with critical insights in the field on our enemy's 
capabilities, to help find the vulnerabilities that will turn the tide 
of war.
    Pilots at the 162nd fighter wing of the AZ Air National Guard train 
foreign allies and build future relationships that strengthen our 
global security and international partners.
    By making robust investments in our national defense we will ensure 
our readiness and security while dispelling economic uncertainty and 
creating new economic growth.
    Southern Arizona is also home to over 85,000 veterans. America's 
veterans have made every sacrifice to defend our nation and protect our 
freedoms. As we set our budget priorities this fiscal year and each one 
after it, we must honor the promises we have made to our veterans and 
ensure that they receive the compensation, health care, educational 
opportunities, and employment assistance that they deserve.
    Our budget must also honor and reflect our commitments to seniors 
who have put in a lifetime of hard work, helping to make our economy 
grow and make our nation strong. They deserve a safe, healthy and 
secure retirement. I represent nearly 130,000 seniors and am committed 
to protecting and preserving Social Security and Medicare for the 
seniors in my district and for generations to come. I oppose any 
efforts to phase out Social Security and Medicare or proposals to 
replace these programs with privatized systems that jeopardize the 
livelihood of the millions of seniors who depend on them.
    Mr. Chairman, thank you again for this opportunity. The fiscal 
challenges facing our nation cannot be overstated. But we can neither 
afford to shirk from our responsibilities nor can we stop investing in 
this nation's future.
    I look forward to working with all of my colleagues--from both 
sides of the aisle--to reach a fair, balanced and bipartisan approach 
to sequestration.
    And I look forward to working with all of my colleagues in putting 
our nation on a solid financial footing so we can face our challenges 
with the strength that can come only from lowering our debt.
    Thank you.

    Mr. Rice. Thank you very much, sir.
    The chair recognizes the Honorable Mr. Salmon from Arizona.

  STATEMENT OF HON. MATT SALMON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Salmon. Thanks a lot, Mr. Chairman and members of the 
committee.
    I would ask for unanimous consent to have my written 
testimony entered into the record.
    Mr. Rice. Without objection.
    Mr. Salmon. Thank you, Mr. Chairman.
    This is my second opportunity to serve in Congress. I 
served back in--I started in 1994 to the year 2000. We had some 
fiscal issues then. In fact, when I first came to Congress, I 
think we had about $135,000,000 deficit, and I was apoplectic 
about that because I was concerned that we were mortgaging our 
children's future away then.
    But, boy, how times have changed. In the last decade since 
I have been gone, we went from a $1.789 trillion budget in the 
year 2000 to a $3.796 trillion budget this year, 53 percent 
higher than it was when I was here.
    Mr. Chairman, I do not think that is responsible. I believe 
that we have got to pay as we go just like every American 
family has to do, just like every American business, every 
hospital, every church. Nobody spends the way that we spend 
like drunken sailors on shore leave. And I think that we owe 
the American public a little bit more.
    In fact, last year in our budget, 43 cents out of every 
dollar that we spent was borrowed and we continue to borrow 
like there is no tomorrow. In fact, I have heard jokes about 
some families saying that they tried to use their MasterCard to 
pay off their Visa bill. It seems like that is what we are 
doing time and time again.
    But there will be a comeuppance. There was a commercial 
that used to run when I was a kid. It was the FRAM man, and he 
used to say you pay me now or you will pay me a lot more later. 
Well, that is where we are at. We see the calamities that are 
happening across the water in Greece and we think that could 
never happen to us. But, Mr. Chairman, it can. If we do not get 
our fiscal house in order, there are going to be a lot more 
people hurt a lot worse than--people are talking about the 
sequester that is hurting people's lives. Well, the fact is if 
we do not do something now, people will be hurt a lot worse, 
and the longer we punt this thing, the more difficult it is 
going to be to dig our way out.
    So, Mr. Chairman, I came back to Congress--actually I left 
voluntarily. I did a term limit pledge and I left after three 
terms. I came back to Congress not just because I like 
Washington, D.C. I came back because I really do believe that 
we have got to fundamentally change the way we do things. We 
just had our fifth grandchild last year, and as I look into 
that precious baby's eyes and I think what kind of future is 
that baby going to have if we do not get our financial house in 
order right now.
    And so, Mr. Chairman, my biggest goal is to balance this 
budget as quickly as we possibly can and to start paying down 
the debt. And I think that in order to do that, we ought to 
look at everything. No sacred cows. And we ought to cut out 
things that are not big priorities. I think that we ought to 
look at something that we tried back when I was in Congress 
before with the Contract with America. We identified three 
cabinet-level agencies that we were willing to get rid of. The 
Federal Department of Commerce has not had a Secretary of 
Commerce in over a year. Well, if it is so easy to do without a 
Secretary of Commerce for a year, maybe it is easy to do 
without the whole Department of Commerce. What value are they 
really adding?
    I also believe that we ought to take a look at our taxation 
policies. We are driving companies overseas. If we really want 
to fix things, then let's stop having the most oppressive, high 
corporate tax rate in the entire world. Right now, we are at 35 
percent. It is the highest corporate tax rate in the world. 
President Obama has said that that policy is actually hurting 
American businesses and driving them overseas. Well, let's take 
him up on it. Let's lower the corporate tax rate to about 25 
percent or lower and let companies repatriate into this country 
without penalizing them. Let them come back to this country and 
bring their assets.
    Marco Rubio said something I think that is very 
appropriate. He said we do not need more taxes. We need more 
taxpayers.
    Now, the goal is to run the Government. I understand that. 
We want to run the Government. We want to take care of this 
country. But let's stop confusing what our goals are. It seems 
like sometimes our goals are to punish people for being 
successful. How about we reward people for being ingenious? And 
that means in Government too. If we find better ways of doing 
things, cheaper ways of doing things, we ought to reward agency 
heads for doing that and the people that work in those agencies 
for finding better ways, more cost effective ways to do things.
    I also would like to change the way we do our budgeting in 
general. This baseline budgeting to me is for the birds. No 
company, successful company, looks at what they got last year 
and says, well, you will get that plus some next year 
regardless of how effective you were at spending that money and 
how effective you were at achieving your goals. Let's try to 
move toward a baseline budget and reward people for getting the 
job done. I understand that with our food stamp program, we 
actually have a bonus program where we bonus people, we bonus 
States for the amount of people that they pay out welfare to or 
give out food stamps to. How about we reward people for getting 
folks off of food stamps and getting them into jobs instead of 
rewarding people for growing Government?
    Mr. Chairman, I can see that my time is just about expired, 
but I would just like to inject a little bit of common sense 
back into the equation and do things like the rest of America 
has to do it: pay as we go and not borrow our way into 
oblivion.
    Thank you very much.
    [The prepared statement of Matt Salmon follows:]

      Prepared Statement of Hon. Matt Salmon, a Representative in
                   Congress From the State of Arizona

    Chairman Paul Ryan, Ranking Member Chris Van Hollen, Members of the 
House Budget Committee, good morning and thank you for calling this 
hearing for Members to come and share their concerns with the current 
fiscal health of the United States and express our hopes for the future 
direction of our Federal budget. I appreciate the opportunity to 
participate in this year's Members' Day and I look forward to working 
with the members of this committee to bring common sense spending 
reforms to the 113th Congress.
                  reviewing current fiscal conditions
    As many of you know, from 1995 through 2001, I was honored to 
represent the people of Arizona in this esteemed body. When I left, 
adhering to my three term limit pledge, a Republican Congress had 
worked with a Democrat President, Bill Clinton, to change our budget 
trajectory from endless deficits to a budget surplus of $236 billion in 
2000. We also accomplished many government reforms that not only made 
government more efficient and less expensive, but also lifted the heavy 
and costly burden of government regulations, mandates and taxes. We 
released America's greatest asset: our entrepreneurs who created jobs 
and wealth that benefited the whole country and enabled us to balance 
our budget. It is important to note that those reforms and spending 
reductions did not come easily. In fact, as many of you remember, we 
actually shut the government down for 28 days while we haggled, argued 
and ultimately found a compromise. As painful as it was, the budget 
show down of 1995, set the stage for the prosperity that followed.
    Now, let me be clear, I am not advocating a budget shut down. I'm 
illustrating that the choices we faced back then were tough, but we did 
it. Now, we as a Congress face an even more enormous challenge; but in 
the end we must be responsible, lead, and make tough choices in order 
to confront those challenges and emerge a better nation. Just as in the 
90's, this will be hard. Because of the enormity of our current fiscal 
situation it will require that we work together and make those 
difficult choices that will allow our country and our economy to emerge 
better than before.
    The economy's performance, both short term and long term, depends 
heavily on how we conduct our fiscal policy. The fiscal challenges 
facing this Congress are not new. It is important that we put the 
federal budget on a sustainable, long-term path that promotes economic 
growth. We've proven before that a divided government can act in a 
fiscally responsible way, and, the need is far greater than ever now. 
To put it in perspective, total government spending in outlays in 2000 
was $1.789 trillion--today, that number is 53% higher ($3.796 
trillion). Even more concerning, in just four years (2008 to 2012), 
government spending increased by over 21%. That is simply 
unsustainable.
    Some have tried to say that we need a ``balanced'' approach that 
increases taxes again on the American people. I reject that premise. 
This year, according to CBO, the government is expected to have the 
highest revenues in the history of this country; yet, we will still 
have a budget deficit of about $850 billion. This is proof: we have a 
spending problem. As Senator Marco Rubio has said before, ``We don't 
need more taxes. We need more taxpayers.''
        combatting government duplication, redundancy, and waste
    First and foremost, this Congress must start reducing the actual 
size of the government. In order to do that, we must begin to identify 
and consolidate redundant programs. According to a recent report, if 
the government would even just follow the recommendations given to them 
by the duly appointed Inspectors General, we could save an additional 
$67 billion. That is just scratching the surface.
    Also, important to solving short-term budget deficits is the 
elimination of purely wasteful government spending. Some of the more 
ludicrous examples include: (1) $27 million on Moroccan pottery 
classes; (2) $4.5 billion on improper food stamp payments; and (3) $25 
billion each year to maintain vacant federal properties. In a time 
where average American families are tightening their belts and looking 
for ways to stretch their stagnant or diminishing paychecks, it seems 
insulting that the Federal government dumps billions of dollars each 
year into inefficient (and often times pointless--i.e.: $947,000 for 
food on Mars, the planet) government pork.
    To prove that we are serious about cuts, we should have a top down 
review of our government. We need to seriously look into reducing the 
number of agencies and departments. As the annual GAO study shows, 
there's duplication and ineffective programs throughout the government. 
One easy example is the duplication that exists between the Department 
of Education and the Department of Labor.
    It is critical that the U.S. government treat its budget like any 
normal family or business would. Congress should be allocating our 
resources based on needs and benefits, rather than history.
    addressing future fiscal concerns (mandatory spending/medicare)
    While finding and eliminating government waste is critical, that 
alone will not address the looming long-run budgetary crisis. We must 
tackle our mushrooming entitlement programs. One necessary step to 
reduce our long-run spending is to begin tackling our mushrooming 
entitlement programs--most importantly, Medicare. The dramatic growth 
in Medicare spending and the accumulation of total future obligations 
are weighing down the program. One solution I have advocated for would 
be, over time gradually increasing the retirement age for both Social 
Security and Medicare to 72. With Americans living longer, healthier 
lives it makes sense to raise the retirement age in order to preserve 
these programs' solvency. Just by raising the retirement age to 70, the 
Business Roundtable estimated a savings of $300 billion in Medicare 
spending and an extension of Social Security's solvency for 75 years. 
Failing to act to reform and therefore save these entitlement programs 
is irresponsible. In fact, if we don't act now, there may not be enough 
resources in the systems to provide promised services to the couple 
retiring today.
                          zero-based budgeting
    Finally, to help Congress reduce wasteful spending, I advocate we 
adopt a zero-based budgeting process. Through this approach, every line 
item of the budget must be approved versus just the year to year 
changes. With zero-based budgeting, we can begin to properly identify 
and eliminate wasteful and obsolete programs while bringing a new level 
of transparency to our constituents. By justifying each line item in 
the Federal budget, we can begin to truly identify where the Federal 
government has overstepped its constitutional authority, created 
duplicative or ineffective programs and thereby reduce spending while 
transferring power back to the States where it belongs. Zero-based 
budgeting would enable us to start lowering our deficit, bringing us 
towards a balanced budget within ten years (FY2024).
                       balanced budget amendment
    Balancing the budget should be the number one priority of every 
Congress, especially the 113th. This is why I hope the House Budget 
committee will support a balanced budget amendment. With a balanced 
budget amendment, Congress would finally be held accountable for 
reckless spending using our grandchildren as collateral. It is our 
responsibility as Members of Congress to ensure a brighter future for 
our future generations.
                    pay-for-performance legislation
    This responsibility to our constituents is why I suggest adopting 
legislation requiring a pay cut should Congress fail to pass a budget 
that balances within 10 years. When I go back to the district to meet 
with constituents, the number one complaint is the lack of progress 
Congress has made in the past two years in balancing the budget. Pay-
for-Performance legislation would add the extra incentive some may need 
to find common-sense, effective budget reductions.
                            taxation policy
    When trying to balance the budget, some of my colleagues in 
Congress have suggested higher taxes on corporations and individuals. I 
cannot stress how opposed I am to this proposition. As it stands now, 
the United States has the highest corporate tax rate of 39.2 percent 
(Japan is now at 36.8 percent after their recent cut). Having a 
corporate income tax rate well above the 25 percent average of other 
developed nations in the Organization for Economic Cooperation and 
Development (OECD) puts us at a large disadvantage when competing for 
new investment. To bring more jobs back to American shores and restore 
a friendly economic environment for businesses to prosper, we must act 
to reduce our corporate tax rate. Reducing the corporate income tax 
rate is a bipartisan effort, supported openly by President Obama on his 
website and in recent press conferences. We must lead our nation back 
towards the path of prosperity by incentivizing companies to move back 
to the U.S. and bring much needed jobs, research and development, and 
growth with them.
                               conclusion
    Again, I thank the Committee for their time, and for the warm 
invitation from Chairman Ryan and Ranking-Member Van Hollen. I hope the 
House Budget Committee takes into consideration my thoughts on how to 
address government waste, long-run mandatory spending, the benefits of 
a zero-based budgeting process, the need for a balanced budget 
amendment, and my ideas on Pay-for-Performance legislation to help 
incentivize a balanced budget. In addition, I urge my colleagues on the 
Budget Committee to take to heart my suggestions to lower corporate 
income tax rates in order to help further stimulate our sluggish 
economy. I look forward to working alongside this great committee as 
the House brings the FY 2014 budget to the House floor for a vote.

    Mr. Rice. Thank you, Mr. Salmon, very much.
    The chair recognizes the gentleman from Kentucky, Mr. Barr.

STATEMENT OF HON. ANDY BARR, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF KENTUCKY

    Mr. Barr. Thank you, Mr. Chairman. Mr. Chairman, I want to 
thank the committee for the opportunity to share with you some 
of the budget priorities I hold for the coming year and which I 
am here to emphasize on behalf of the people of the 6th 
Congressional District of Kentucky.
    As a new Member of the House, I strongly support the call 
of the American people to reduce Government spending and bring 
the national debt under control. As I have traveled around my 
district, people have consistently told me that restoring 
fiscal responsibility is their number one priority and that 
they sent me to Washington to force the Government to live 
within its means. Accordingly, I am committed to cutting 
spending, reducing the size of Government, promoting economic 
growth, and putting our budget on a path to balance.
    Today I would like to talk about a number of things, namely 
entitlement reform so that these programs can be sustainable 
for the future, a permanent fix to the sustainable growth rate 
for physicians, properly budgeting for natural disaster relief, 
keeping taxes low to encourage economic growth, and the 
importance of ensuring a strong national defense in a tough 
budget environment.
    Our debt is currently $16.7 trillion. It was $16.4 trillion 
when I took office only 8 weeks ago, and we all know that the 
debt, even with the $620 billion tax increase the President got 
at the start of the year, will continue to skyrocket in the 
coming years if nothing is done to reform our Government.
    Mandatory spending has consumed a growing share of our 
Nation's budget over the years, and the trend, if left 
unreformed, will only make our budget crisis worse. In 1972, 
mandatory spending accounted for 37 percent of the budget. 30 
years later in 2012, nearly 58 percent of our spending is 
devoted to mandatory programs. If the status quo spending is 
left unreformed, the reality is that the growth in mandatory 
spending programs will continue to consume an increasing share 
of our budget and squeeze out our ability to devote resources 
to other important priorities. In fact, the anticipated growth 
in health care spending, other entitlement spending, and the 
interest on the national debt is projected to consume 100 
percent of Federal revenues in the next 15 years. This means 
that every single dollar of spending that Washington puts 
towards discretionary programs in the future would be adding to 
the debt. This puts our children and grandchildren in an 
unacceptable and untenable position. So we need to reform 
Medicare and our other entitlements if we want to maintain the 
ability and flexibility to invest in other important priorities 
without adding to an unsustainable debt.
    As part of comprehensive Medicare reform, we have to reform 
our payment policies without diminishing seniors' access to 
physicians. I hope the committee can encourage efforts to 
repeal the current sustainable growth rate formula. This, of 
course, was originally developed to control the amount that 
Medicare will pay for health care services. However, it has 
proven to be an ineffective drain on our budget that gets worse 
each year that it is left unresolved. Further, the uncertainty 
each year of whether Congress will come up with a fix causes 
tremendous anxiety for physicians. It harms their ability to 
budget properly for their practices and jeopardizes their 
ability to take in and treat more seniors. Rather than 
reimburse per service provided, we need to replace the SGR with 
a program that incentives quality, efficiency, and access. This 
will provide certainty for health care providers that is 
permanent and durable and allow them to get back on focusing on 
patients, helping patients heal while reining in out-of-control 
overall costs in health care.
    Another reform that I would like to encourage the committee 
to focus on is the need to properly budget for natural disaster 
relief. Anytime a natural disaster strikes, I share the 
sympathy of all Americans and support a prompt and 
compassionate Federal response where needed. But rather than 
add to the debt every time we face a difficult decision, I 
believe we should work to find ways to budget for and pay for 
natural disaster aid packages. This means adequately prefunding 
disaster relief accounts bringing disaster spending under 
spending caps and additional reforms to ensure that disaster 
relief designation is being appropriately applied. I am willing 
to work with the committee on a number of potential reform 
proposals to improve how we pay for disaster relief.
    I would also like to emphasize the importance of focusing 
on economic growth when it comes to discussing taxes. While 
many in Washington are short-sightedly calling for another 
round of tax increases on top of the $620 billion that the 
President pushed for in January, I strongly believe that this 
is the wrong approach. Raising taxes will only further weigh 
down the economy and slow job creation efforts in the private 
sector. And we know that additional revenue is never actually 
dedicated to deficit reduction. Instead, it is always used to 
finance more Government. It is always used as an excuse to not 
reform Government.
    The bottom line is that tax increases are a lousy deficit 
reduction strategy. If we want to maintain the most vibrant, 
dynamic economy in the world, I believe we must reform the tax 
code in ways that broadens the base, gets serious about 
simplification and closing tax loopholes, and lowers and 
consolidates marginal rates. This approach will enable American 
businesses to better compete and provide much needed tax relief 
to American families.
    Finally, I would like to talk about defense and national 
security. Defense spending represents approximately 18 percent 
of the Federal budget yet has been forced to absorb nearly half 
of the spending reductions occurring in the past 2 years. Given 
our military's already disproportionate contribution to deficit 
reduction, I encourage the committee to use its tools to ensure 
that our military has the resources it needs to properly defend 
the American people. We must always ensure that our military's 
readiness is not compromised by an inability in Washington to 
reform our mandatory spending objectives.
    Thank you very much. I would like to thank the committee 
for the opportunity to present my priorities in the coming 
year. I look forward to working with the committee. Thank you 
very much.
    [The prepared statement of Andy Barr follows:]

       Prepared Statement of Hon. Andy Barr, a Representative in
                  Congress From the State of Kentucky

    Mr. Chairman, I want to thank this Committee for the opportunity to 
share with you some of the budget priorities I hold for the upcoming 
year, and which I am here to emphasize on behalf of the Sixth District 
of Kentucky.
    As a new Member of the House, I strongly support the call of the 
American people to reduce government spending and bring our national 
debt under control. As I have traveled around my district, people have 
consistently told me that restoring fiscal responsibility is their 
number one priority, and that they sent me to Washington to force the 
government to live within its means. Accordingly, I am committed to 
cutting spending, reducing the size of government, promoting economic 
growth, and putting our budget on a path to balance.
    Today, I'd like to talk about a number of things--namely, 
entitlement reform so that these programs can be sustainable for the 
future; a permanent fix to the sustainable growth rate physician fee 
schedule; properly budgeting for natural disaster relief; keeping taxes 
low to encourage economic growth; and the importance of ensuring a 
strong national defense in a tough budget environment.
                    spending and entitlement reform
    Our debt is currently $16.7 trillion. It was $16.4 trillion when I 
took office only 8 weeks ago, and we all know that the debt--even with 
the $620 billion tax increase the President got at the start of the 
year--will continue to skyrocket in the coming years if nothing is done 
to reform our government.
    Mandatory spending has consumed a growing share of our nation's 
budget over the years, and the trend, if left unreformed, will only 
make our budget crisis worse. In 1972, mandatory spending accounted for 
37 percent of the budget; thirty years later, in 2012, nearly 58 
percent of our spending was devoted to mandatory programs.
    If the status quo spending is left unreformed, the reality is that 
the growth in mandatory spending programs will continue to consume an 
increasing share of our budget and squeeze out our ability to devote 
resources to other priorities. In fact, the anticipated growth in 
health care spending, other entitlement spending, and interest on the 
debt is projected to consume 100% of federal revenues in the next 15 
years.
    This means that every single dollar of spending that Washington 
puts towards discretionary programs in the future would be adding to 
the debt--this puts our children and grandchildren in an unacceptable 
and untenable position. So, we need to reform Medicare and our other 
entitlements if we want to maintain the ability and flexibility to 
invest in our other programs, without adding to an unsustainable debt.
                        sustainable growth rate
    As part of comprehensive Medicare reform, we have to reform our 
payment policies without diminishing seniors' access to physicians. I 
hope the committee can encourage efforts to repeal the current 
Sustainable Growth Rate method, also known as the SGR physician payment 
schedule. The SGR was originally developed to control the amount that 
Medicare will pay for healthcare services; however, it has proven to be 
ineffective and a drain on our budget that gets worse each year it is 
left unresolved. Further, the uncertainty each year of whether Congress 
will come up with a fix causes tremendous anxiety for physicians--it 
harms their ability to budget properly for their practices, and 
therefore jeopardizes their ability to take in and treat more seniors.
    Rather than reimburse per service provided, we need to replace the 
SGR with a program that incentivizes quality, efficiency, and access. 
This will provide certainty for healthcare providers that is permanent 
and durable, and allow them to get back to focusing on helping their 
patients heal, while reining-in out of control overall costs in 
healthcare.
             properly budgeting for natural disaster relief
    Another reform that I'd like to encourage the committee to focus on 
is the need to properly budget for natural disaster relief. Any time a 
natural disaster strikes, I share the sympathy of all Americans and 
support a prompt and compassionate federal response where needed. But 
rather than add to the debt every time we face a difficult decision, I 
believe that we should work to find a way to budget and pay for 
disaster aid packages. This means adequately pre-funding the disaster 
relief accounts, bringing disaster spending under the spending caps, 
and additional reforms to ensure that the disaster relief designation 
is being appropriately applied. I am willing to work with the committee 
on a number of potential reform proposals to improve how we pay for 
disaster relief.
             keeping taxes low to encourage economic growth
    I'd also like to emphasize the importance of focusing on economic 
growth, when it comes to discussing taxes. While many in Washington are 
shortsightedly calling for another round of tax increases--on top of 
the $620 billion that the President pushed for on January 1--I strongly 
believe this is the wrong approach. Raising taxes will only further 
weigh down the economy and slow down job creation efforts in the 
private sector. And we know that the additional revenue is never 
actually dedicated to deficit reduction--instead, it is always used to 
finance more government; it is always used as an excuse not to reform 
government. The bottom line is that tax increases are a lousy deficit 
reduction strategy.
    If we want to maintain the most vibrant, dynamic economy in the 
world, I believe that we must reform the tax code in a way that 
broadens the base, gets serious about simplification and closing tax 
loopholes, and lowers and consolidates marginal rates. This approach 
will enable American businesses to better compete and provide much-
needed tax relief to American families.
                        strong national defense
    Finally, I'd like to talk about defense and national security. 
Defense spending represents approximately 18 percent of the federal 
budget, yet has been forced to absorb nearly half of the spending 
reductions occurring in the past two years. Given our military's 
already disproportionate contribution to deficit reduction, I encourage 
the committee to use its tools to ensure that our military has the 
resources it needs to properly defend the United States and keep its 
citizens safe in the future. We must always ensure that our military's 
readiness is not compromised by an inability in Washington to properly 
set spending priorities.
    Protecting the military from disproportionate and discriminatory 
cuts is important in Kentucky's Sixth District, where the Blue Grass 
Army depot provides essential munitions to the Defense Department and 
the U.S. warfighter overseas.
    I'd like to thank the committee for the opportunity to speak here 
today. I am eager to support your efforts to reduce the size of 
government, promote economic growth, and put our nation's budget on a 
path to balance in the near future.

    Mr. Rice. I thank the gentleman for his testimony. Are 
there any questions?
    Seeing none, thank you.
    The chair now recognizes the gentlelady from New Mexico, 
Ms. Grisham, for 5 minutes.

 STATEMENT OF HON. MICHELLE LUJAN GRISHAM, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Ms. Lujan Grisham. Mr. Chairman, Ranking Member, thank you 
for having me here today and to have the opportunity to talk 
about some issues that are important to my constituents. I 
would like to talk about the nexus between job creation and the 
health care system and how the choices made by this committee 
on both areas can secure a strong future that produces long-
term economic growth.
    Although the economy continues to recover, it has been far 
too slow in creating jobs. In fact, if the economy continues to 
grow at the same pace as the last 18 months, it will take 
another 10 years for the labor market to fully recover. We 
cannot afford to wait that long. And the millions of 
individuals and families in need of a job cannot wait either.
    I believe we need to strengthen and invest in critical 
infrastructure like the health care system as a key way to 
create jobs here at home and to protect our most vulnerable 
citizens. According to a 2012 Bureau of Labor Statistics study, 
the health sector is going to be the leader in job growth 
throughout the rest of this decade. The BLS projected the 
health sector to create 4.3 million jobs by 2020, a 30 percent, 
while the rest of the economy creates jobs at a 13 percent 
rate. It is no surprise that the health care providers are 
major employers in my district, including Presbyterian Health 
Care, Lovelace Health System, Molina Health Care, and the 
University of New Mexico Hospital. Simply put, health care 
services and delivery is where the jobs are.
    Unfortunately, the budget path chosen by this committee in 
the recent past has put this job growth in jeopardy. Medicare 
is going to suffer $11 billion in cuts due to sequestration. In 
addition, it plans to turn Medicare into a voucher program and 
block grants Medicaid to States. This is exactly the wrong 
approach.
    The continuing resolution does not include a requested $949 
million to implement health insurance exchanges under the 
Affordable Care Act which are scheduled to begin enrolling 
participants in October of this year. Funding is needed for IT 
infrastructure to process eligibility verifications, call 
centers, and other assistance to help individuals and small 
businesses select and enroll in health plans. These cuts and 
proposed changes will have a devastating effect in my district 
and on each of those providers I mentioned who will lose 
critical funding in fiscal year 2013 and 2014, translating into 
further loss of jobs and lifesaving medical care to New 
Mexicans.
    For example, Presbyterian is expected to lose $10 million. 
UNM Hospital could lose between $10 million and $20 million in 
funding. Lovelace will lose upwards of $5 million. They also 
have a low occupancy rate, around 65 percent, and are losing a 
Medicaid contract.
    At the same time, New Mexico is experiencing a 12-month job 
growth rate of negative .9 percent, including a rate of 
negative .4 percent in December, equaling a loss of 3,200 jobs.
    While the Veterans Administration programs are exempted 
from sequestration budget cuts, veterans themselves are not 
protected. VA facilities are not easily accessible, 
particularly in rural and frontier States such as New Mexico, 
and veterans often must rely on Medicare or Medicaid for health 
and long-term services. To the extent that access to care is 
impacted by cuts to Medicare or Medicaid, veterans are also 
impacted.
    I want to also highlight the unprecedented cut to Indian 
Health Services, which is permanently authorized by the 
Affordable Care Act. IHS is reliant on Medicare and HHS for 
their funding and is persistently underfunded. And now this 
year IHS will get twice the cuts. The sequester will cut $198 
million from IHS services, $22 million from IHS facilities, and 
$3 million from the special diabetes programs for Native 
Americans. But we must keep in mind that IHS also receives 
funding from Medicare and will experience a 2 percent decrease 
in these payments. This will make it much harder for IHS to 
deliver the services and care to their populations. The cuts 
will also make it harder for people in rural areas to access 
the care they need.
    Let me close with this. In between serving my constituents 
here in Congress and at home, there is one special constituent, 
my mother, for whom I also serve as her primary caregiver. And 
like many other adult children that serve as caregivers for 
their parents and their adult disabled children, we navigate 
the health care system together to get them the care and 
support they need. But caregiving requires time and many have 
to spend personal resources in order to make sure their loved 
ones get the services that they need. Cutting Medicare and 
Medicaid will put additional financial pressure on millions of 
family caregivers and threatens their short-term and long-term 
financial security.
    Mr. Chairman and Ranking Member, we can undo the damage 
done to job creation and make a concerted effort to strengthen 
our investments in health care with the 2014 budget. I look 
forward to working with you on a balanced approach to find 
solutions that will solve these problems. Thank you.
    [The prepared statement of Michelle Grisham follows:]

Prepared Statement of Hon. Michelle Lujan Grisham, a Representative in 
                 Congress From the State of New Mexico

    Mr. Chairman, Ranking Member Van Hollen, thank you for having me 
here today and to have the opportunity to talk about some issues that 
are important to my constituents.
    I would like to talk about the nexus between job creation and the 
health care system, and how the choices made by this committee on both 
areas can secure a strong future that produces long term growth.
    Although the economy continues to recover, it has been far too slow 
in creating jobs. In fact, if the economy continues to grow at the same 
pace as the last 18 months, it would take another ten years for the 
labor market to fully recover. We cannot afford to wait that long, and 
the millions of individuals and families in need of a job can't wait 
either.
    I believe we need to strengthen and invest in critical 
infrastructure like the health care system as a key way to create jobs 
here at home and protect our most vulnerable citizens.
    According to a 2012 Bureau of Labor Statistics study, the Health 
sector is going to be the leader in job growth throughout the rest of 
this decade. The BLS projected the Health sector to create 4.3 million 
jobs by 2020--a 30% increase--while the rest of the economy creates 
jobs at a 13% rate.
    It is no surprise that health care providers are major employers in 
my district, including Presbyterian Healthcare, Lovelace Health System, 
Molina Healthcare, and the University of New Mexico Hospital. Simply 
put, health care services and delivery is where the jobs are.
    Unfortunately, the budgetary path chosen by this committee in the 
recent past has put this job growth in jeopardy. Medicare is going to 
suffer $11 billion in cuts due to sequestration, in addition to plans 
that turn Medicare into a voucher program and block grants Medicaid to 
states this is exactly the wrong approaches.
    The Continuing Resolution does not include a requested $949 million 
to implement health insurance exchanges under the Affordable Care Act, 
which are scheduled to begin enrolling participants in October of this 
year. Funding is needed for IT infrastructure to process enrollments 
and payments, eligibility verification, call centers, and other 
assistance to help individuals and small businesses select and enroll 
in health plans.
    These cuts and proposed changes will have a devastating effect in 
my district and on each of those providers I mentioned who will lose 
critical funding in FY13 and FY14, translating into further loss of 
jobs and lifesaving medical cuts for New Mexicans services--for 
example:
    <bullet> Presbyterian is expecting to lose $10 million because of 
sequestration.
    <bullet> UNMH could lose between $10-20 million in funding. They 
recently announced that they finished the previous quarter with a $5 
million dollar loss. While they think they can make up that loss 
throughout the year, the additional cuts they will experience because 
of sequestration will make it hard without cuts to services and jobs.
    <bullet> Lovelace will lose upwards of $5 million. They also have a 
low occupancy rate around 65% and are losing their Medicaid contract, 
which represents a third of their revenue, putting jobs and services to 
the whole community at risk.
    At the same time, New Mexico is experiencing a twelve month job 
growth rate of negative 0.9%, including a rate of negative 0.4% in 
December equaling a loss of 3200 jobs.
    Veterans will suffer because they are not protected by the proposed 
cuts to healthcare. VA facilities are not easily accessible, 
particularly in rural and frontier states such as New Mexico. It is 
difficult for a disabled veteran to travel hundreds of miles to the 
closest VA facility. Veterans often rely on Medicare or Medicaid for 
health and long-term care services. Cuts to Medicare or Medicaid will 
hurt veterans.
    I also want to highlight the unprecedented cut to Indian Health 
Services, which was permanently authorized by the Affordable Care Act. 
IHS is reliant on Medicare and HHS for their funding and is 
persistently underfunded. And now this year, IHS will get hit twice by 
the cuts. The sequester will cut $195 million from IHS Services, $22 
million from IHS Facilities and $3 million from SDPI.
    But we must keep in mind that IHS also receives funding from 
Medicare, and will experience a 2% decrease in those payments. This 
will make it much harder for IHS to deliver the services and care to 
their populations. These cuts will also make it harder for people in 
rural areas to access the care they need.
    Let me close with this. In between serving my constituents here in 
Congress and at home, there is one special constituent, my mother, for 
whom I also serve as her caregiver. Like many other adult children that 
serve as primary caregivers for their parents and disabled adult 
children, we navigate the health care system together, to get them the 
care and support they need.
    But caregiving requires time and many have to spend personal 
resources in order to make sure their loved ones get the care they 
need. Cutting Medicare and Medicaid will put additional financial 
pressure on millions of caregivers and threatens their short term and 
long term financial security.
    Mr. Chairman, Ranking Member Van Hollen, we can undo the damage to 
job creation and make a concerted effort to strengthen our investments 
in health care with the FY2014 budget. I look forward to working with 
you to find a balanced approach. If we close corporate tax loopholes, 
cut subsidies to big oil and reduce Medicare and Medicaid prescription 
drug costs, we can invest in our healthcare infrastructure, prevent 
cuts in services and cut the budget deficit. We need to get it right 
today, or it will be a missed opportunity for years to come.

    Mr. Rice. Thank you for your testimony.
    Are there any questions?
    If not, thank you very much.
    The chair now recognizes the gentleman from Washington, Mr. 
Larsen, for 5 minutes.

  STATEMENT OF HON. RICK LARSEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Larsen. Thank you, Mr. Chairman, Mr. Ranking Member, 
and thanks for the opportunity to testify on the need to invest 
in our economic future to create jobs and opportunity in this 
country and in northwest Washington State.
    At the beginning of each Congress, I write a set of goals 
that guide my and my office's actions. These goals create a 
focal point for my office and they are a daily reminder of what 
is important for my district and for our State. My number one 
goal is to invest in the foundation of long-term economic 
growth that creates jobs and opportunity in the Pacific 
Northwest. It is with this goal in mind that I come here to 
advocate for essential programs that promote growth and 
opportunity.
    40 percent of all jobs in Washington State are linked to 
foreign trade. More than 8,500 Washington State companies 
exported their products in 2010. 91 percent of those were 
small- and medium-sized businesses with fewer than 500 
employees. So when we export our products around the world, we 
create jobs at home.
    As a result, I urge this committee to fully fund the State 
Trade and Export Promotion program, or STEP, which helps States 
work with small- and medium-sized businesses to find new 
markets and overcome hurdles to exports. Although STEP is a 
pilot program, it has a proven track record that helps 
businesses grow and create jobs in our State. Washington State 
received less than $1.5 million in Federal funds for STEP in 
fiscal year 2012. But that small pot of money went a long way. 
Our STEP activities have helped over 400 businesses and helped 
generate more than $200 million in export sales. Unfortunately, 
Congress did not appropriate funds in fiscal year 2013, but I 
urge this committee to restore funding to STEP this year.
    The U.S. Commercial Service is another effort that is 
essential in helping our businesses export. Inexperienced firms 
look to the Commercial Service for advice and guidance when 
they want to export their products. The Commercial Service 
facilitated $54 billion in U.S. exports in 2011, helping 18,500 
companies, including 317 companies in Washington State. I urge 
the committee to fully support the U.S. Commercial Service.
    Growing our exports will only work if manufacturers are 
strong. So I urge this committee to adequately fund the 
Manufacturing Extension Partnership, or MEP, which helps small- 
and medium-sized U.S. manufacturers become more profitable and 
productive and is known in my State as Impact Washington. MEP 
helped create or keep more than 60,000 high-wage jobs in the 
U.S. last year. For every $1 of Federal investment, MEP 
generates nearly $20 in new sales growth and $20 in new client 
investment, translating to $2.5 billion in new sales annually. 
In Washington State last year, MEP created or saved more than 
1,500 jobs.
    Mr. Chairman, we need a next generation of highly skilled 
workers to maintain our strength in manufacturing and trade, 
and that is why I ask you to fully fund post-secondary 
education programs that invest in our students. The Pell Grants 
program and the Carl Perkins Career and Technical Education Act 
help today's students to gain the skills they need to become 
tomorrow's workers. As the price of higher education continues 
to increase, we need to make sure that students and their 
families keep their access to college and training programs 
that allow them to get the best jobs. Pell Grants help 8,500 
students and families that I represent in the 2nd District of 
Washington State. Many of these students and the 5.5 million 
students who receive Pell Grants nationwide could not afford 
college without Pell Grants. Higher education, whether at a 4-
year university, a 2-year community college, a 2-year technical 
college, is a young person's best path to a higher salary and 
great opportunities. Loans and grants through the Carl Perkins 
Education Act help students get critical job skills that they 
can use to get jobs. In northwest Washington, 949 students use 
Perkins Grants and Perkins Loans to gain skills in advanced 
manufacturing, engineering, and nursing.
    With that, Mr. Chairman and Ranking Member, I appreciate 
the opportunity to testify before you today, and I encourage 
this committee to invest in what I see as the foundation of 
long-term economic growth that creates jobs and opportunity in 
this country. Thank you.
    [The prepared statement of Rick Larsen follows:]

      Prepared Statement of Hon. Rick Larsen, a Representative in
                 Congress From the State of Washington

    Chairman Ryan/Ranking Member Van Hollen, and members of the 
Committee: Thank you for the opportunity to testify on the need to 
invest in our economic future to create jobs and opportunity in 
Northwest Washington state.
    At the beginning of each Congress I write a set of goals to guide 
my and my office's actions. These goals create a focal point for my 
office and are a daily reminder what is important for my district and 
Northwest Washington. My number one goal is to invest in the foundation 
of long-term economic growth that creates jobs and opportunity in the 
Pacific Northwest. It is with this goal in mind that I come here to 
advocate for essential programs that promote growth and opportunity.
    Forty percent of all jobs in Washington state are linked to foreign 
trade. More than 8,500 Washington state companies exported their 
products in 2010. Ninety-one percent of those were small and medium-
sized enterprises with fewer than 500 employees. When we export our 
products around the world, we create jobs here at home.
    I urge this committee to fully fund the State Trade and Export 
Promotion (STEP) program, which helps states work with small- and 
medium-sized businesses to find new markets and overcome the hurdles to 
exports. Although STEP is a pilot program, it has a proven track-record 
of helping businesses grow and create jobs in Washington state. 
Washington state received less than $1.5 million in federal funds for 
the STEP program in Fiscal Year 2012. This small pot of money went a 
long way. Washington state's STEP activities have helped over 400 
businesses and helped generate more than $200 million in export sales, 
bringing a huge benefit to our overall economy. Unfortunately, Congress 
did not appropriate funds in Fiscal Year 2013 for this program. I urge 
this committee to restore funding to STEP this year.
    The U.S. Commercial Service (USCS) is another effort that is 
essential in helping our businesses export. Inexperienced firms look to 
the Commercial Service for advice and guidance when they want to export 
their products. The Commercial Service facilitated $54 billion in U.S. 
exports in 2011, helping 18,500 companies nationwide, including 317 
companies Washington state. I urge the committee to fully support the 
U.S. Commercial Service.
    Growing our exports will only work if our manufacturers are strong. 
I urge this committee to adequately fund the Manufacturing Extension 
Partnership (MEP), which helps small- and medium-sized U.S. 
manufactures become more profitable and productive, and is known in my 
state as Impact Washington. MEP helped create or keep more than 60,000 
high wage jobs in the United States last year. For every one dollar of 
federal investment, MEP generates nearly $20 in new sales growth and 
$20 in new client investment, translating to $2.5 billion in new sales 
annually. In Washington state last year, MEP created or saved more than 
1,500 jobs.
    We need a next generation of highly skilled workers to maintain our 
strength in manufacturing and trade. That is why I ask you to fully 
fund post-secondary education programs that invest in our students. The 
Pell Grants program and the Carl D. Perkins Career and Technical 
Education Act help today's students to gain the skills they need to 
become tomorrow's workers. As the price of higher education continues 
to increase, we need to make sure that students and their families keep 
their access to colleges and training programs that allow them to get 
the best jobs. Pell Grants help 8,500 students and families I represent 
in the Second District of Washington state. Many of these students, and 
the 5.5 million students who receive Pell Grants nationwide, could not 
afford college without Pell Grants. Higher education, whether at a 
four-year university, a two-year community college, or at a two-year 
technical college, is a young person's best path to a higher salary and 
great opportunities. Loans and grants through the Carl D. Perkins Act 
help students get critical job skills that they can use to get jobs. In 
Northwest Washington, 949 students use Perkins Grants and Perkins Loans 
to gain skills in advanced manufacturing, engineering, and nursing.
    With that Mr. Chairman and Ranking Member, I appreciate the 
opportunity to testify today and I encourage the Committee to invest in 
what I see as the foundation of long-term economic growth that creates 
jobs and opportunity.

    Mr. Rice. Thank you for your testimony.
    Are there any questions? Mr. McDermott?
    Mr. McDermott. Tell me, Mr. Larsen, what you think the 
impact of sequester will be on your district. You have got a 
number of military establishments there and other research 
facilities and so forth. Tell me what you expect from that.
    Mr. Larsen. Well, thank you, Mr. Ranking Member.
    With regard to the sequester, what we do know is that about 
1,200 civilian employees at the naval bases in the district 
will be furloughed.
    Mr. McDermott. Is that a 1-day furlough or month-long 
furlough?
    Mr. Larsen. Well, up to 22 days total each between now and 
the end of the fiscal year. That is what we do know.
    We also know that housing authorities in my district are 
making decisions now about which folks do not get vouchers, 
making the waiting lists longer because of the impact of the 
sequester. We know that 10,000 fewer seniors--I am sorry--
seniors in Snohomish County receive 10,000 fewer meals 
delivered to them who currently receive their meals through the 
Meals on Wheels program through the Snohomish County Senior 
Services.
    So there are impacts that we all read about in the paper, 
and there are impacts that no one is covering. But the fact of 
the matter is there are real impacts to middle class folks, to 
seniors due to the sequester.
    As a result, it does seem more reasonable to replace it 
with a more balanced approach. It would still include cuts. It 
would include reductions in spending growth over 10 years, and 
it would also include tax revenue. That seems reasonable to me. 
There does not have to be a lot of vitriol about that. It just 
seems that if you want to address the impacts, that you can 
take a more balanced approach to it and still achieve the 
deficit reduction goals that most of us all share.
    Mr. McDermott. I was waiting to hear if you would say 
anything about airports.
    Mr. Larsen. I can do that too.
    Mr. McDermott. What is that?
    Mr. Larsen. I can address airports if you would like.
    Mr. McDermott. Well, my understanding is that the FAA has 
closed some smaller airports because they feel like they cannot 
cover them with the kind of folks that you need to have to make 
an airport safe.
    Mr. Larsen. There are really two categories here. There are 
what we call contract towers, and then there are FAA towers. So 
the contract towers are those that are operated through 
contracts with other groups, private groups, and the FAA has 
come out with a list of about 249 contract towers with the 
potential of being closed. About 100 of those will be closed. 
And that list has gone out, and many of those are smaller 
airports around Washington State.
    In addition to that, on the next list, the additional list, 
are other airports that are currently FAA-operated towers, 
including Paine Field in Snohomish County. And it is on the 
list because it falls below--I will be as quick as possible, 
Mr. Chairman. It falls below the number of operations that FAA 
has identified as being eligible for closing. The issue with 
Paine Field, however, is not only is there a lot of general 
aviation operations, it is also the home of the Boeing facility 
where we manufacture. Most of the Boeing airplanes in the world 
are manufactured in my district. And as well, it is a major hub 
for repair. It is a repair station operated by a different 
company. And these are large platform airplanes that have to 
fly in and out. If you close that tower, you are going to slow 
down operations. You are going to slow down the efficiency of 
Boeing operations and as well of the repair station operations, 
and that will have a ripple impact throughout the entire 
Northwest economy, which obviously has a large dependency on 
our aerospace suppliers.
    Mr. McDermott. Thank you.
    Mr. Rice. Thank you for your testimony, Mr. Larsen.
    The chair is pleased to recognize the gentleman from 
Illinois, Mr. Foster, for 5 minutes.

  STATEMENT OF HON. BILL FOSTER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Foster. Thank you, Mr. Chairman and Ranking Member, for 
the opportunity to speak before the committee today.
    So as this committee prepares its budget for fiscal year 
2014, I urge you to consider the differences between the 
fraction of investment that our country makes with the idea of 
maximizing economic growth and the fraction of the investments 
our country makes because of the kind of people we are. There 
are things like military investments, taking care of our 
elderly that, if viewed honestly, do not have any economic 
return on investment, and yet we have to make these. There are 
other investments that we make because of the long-term and 
short-term economic growth.
    And so I would like to highlight the importance of 
preserving our investments in the highest payoff activities 
that our government is involved in, namely education and 
research and development. Both of these have, obviously, been 
severely threatened by the sequestration and other budget cuts 
that are talked about.
    My district in the Chicago area spans two great scientific 
centers, Argonne National Laboratory and Fermi National 
Accelerator Laboratory where I worked for 20 years. The 
economic impact of Argonne and Fermi Lab in Illinois is 
estimated to be more than $1.3 billion annually and has 
historically and will in the future have enormous spinoff 
benefits throughout our country. Projects in the pipeline at 
these labs hold even more promise for revitalizing our energy 
and manufacturing sectors.
    For example, the Argonne National Laboratory was recently 
selected for an award of $120 million over 5 years to establish 
a new batteries and energy storage hub, which is a very serious 
and well thought-out effort, competitively bid and won by 
Argonne National Lab in an effort to achieve revolutionary 
advances in battery performance. They are targeting battery 
improvements in excess of a factor of 5, which will make 
battery driven cars a reality and an economic reality as well 
as a theoretical one.
    This project like many others that could and will create 
new industries and support thousands of jobs now faces an 
uncertain future. By some estimates, the cuts from 
sequestration to R&D will result in the loss of 600,000 jobs 
over the next 3 years, and we would not only lose these near-
term R&D jobs, we will see the ripple effects in communities, 
and we will see the long-term damage from the loss in economic 
competitiveness in our country.
    With wages as a record low percentage of the economy, it is 
not time to retreat or to stop investing in American innovation 
which supports the high-wage activities. We need to maintain 
this competitive advantage now and more in the future.
    And the second subject that I would like to highlight is 
the issue of donor States and the redistribution of wealth 
among the States in our country. Illinois is one of many donor 
States, that is, a State that is under financial distress in no 
small part because of the fact that Illinois only receives back 
about 75 cents for every dollar in taxes that it pays to the 
Federal Government. There are many other States in a similar 
situation. In Illinois' case, this multiplies out to about 
$1,600 per person in Illinois and roughly $20 billion for the 
entire State. If even a fraction of this money returned to the 
State, we would not have a fiscal crisis in Illinois at this 
moment.
    So Illinois and other donor States can no longer afford to 
continue subsidizing the recipient States to the extent that 
they do. I urge the leadership of this committee to craft a 
budget that replaces the mindless cuts of the sequester with 
sensible investments that maximize the return on investment of 
Federal investments instead of mindless cookie cutter cuts and 
also one that begins to address the imbalance of donor and 
recipient States. While there are areas where cuts are 
reasonable and necessary, it is unreasonable and irresponsible 
to make these deep cuts in programs like investments in 
research and development that do provide a high return on 
investment and are already underfunded.
    Thank you. I will yield back my time.
    [The prepared statement of Bill Foster follows:]

      Prepared Statement of Hon. Bill Foster, a Representative in
                  Congress From the State of Illinois

    I'd like to thank the Chairman and Ranking Member for the 
opportunity to speak before the Committee today.
    As this committee prepares a budget for fiscal year 2014, I urge 
you to reverse the devastating cuts to education and R&D that have been 
enacted by sequestration.
    The Chicago area is home to three scientific centers: Fermilab, 
Argonne National Laboratory, and the University of Illinois' National 
Center for Supercomputing Applications.
    The economic impact of Argonne and Fermilab in Illinois is 
estimated to be more than $1.3 billion annually, resulting in a twenty 
percent return on investment for the federal government.
    Projects in the pipeline hold even more promise for revitalizing 
our energy and manufacturing sectors.
    <bullet> For example, the Argonne National Laboratory was recently 
selected for an award of up to $120 million over five years, to 
establish a new Batteries and Energy Storage Hub, in an effort to 
achieve revolutionary advances in battery performance.
    This project, and many others that would create new industries and 
support thousands of jobs, now face an uncertain future.
    By some estimates, the cuts from sequestration to R&D will result 
in a loss of 600,000 jobs over the next three years.
    <bullet> We won't only lose these R&D jobs, but we'll see ripple 
effects in communities. Tax receipts and consumer spending that would 
otherwise have helped grow our economy and create thousands of jobs, 
will be extinguished.
    When wages as a percentage of the economy, are at an all-time low, 
it's not the time to retreat and stop investing in American innovation. 
We need to maintain a competitive advantage now more than ever.
    What's more, as a donor state, Illinois isn't responsible for our 
national debt, and shouldn't be forced to shoulder even more of the 
burden.
    <bullet> Illinois currently spends $1 in taxes to every 75 cents it 
receives in federal funding. This discrepancy accounts for $20 billion 
a year flowing out of the state and redistributed to others.
    <bullet> Illinois and other donor states can no longer afford to 
continue subsidizing recipient states at the expense of our own 
economies.
    I urge the leadership of this Committee to craft a budget that 
replaces these mindless, across the board cuts with a responsible and 
balanced alternative. While there are areas where cuts are reasonable 
and necessary, it is unreasonable and irresponsible to make deep cuts 
to programs, like investments in research and development, that provide 
a high return on investment and are already underfunded.
    Thank you.

    Mr. Rice. Thank you for your testimony.
    Any questions?
    Seeing none, thank you for your testimony, Mr. Foster.
    The chair sees no more witnesses. If there is no objection, 
the committee will take a brief recess with the intention to 
adjourn when votes are called.
    [Recess.]
    Mr. Rice. The chair sees no further witnesses, and if there 
is no objection, the committee will stand adjourned.
    [Additional statements submitted for the record follow:]

     Prepared Statement of Hon. Julia Brownley, a Representative in
                 Congress From the State of California

    As we look toward the Fiscal Year 2014 budget, Congress has a 
tremendous responsibility to work together to find a balanced approach 
that addresses our budget deficit, while allowing for smart and 
strategic investments toward our long-term economic growth.
    In this testimony, I will address two very specific examples in 
Ventura County where smart investments would yield significant economic 
growth not only in my district, but smart investments across our great 
nation.
    I proudly represent Ventura Harbor, which is one of our nation's 
ten largest fishing harbors. Ventura Harbor serves a critical role in 
my county's infrastructure and economy, and it requires regular 
maintenance to ensure its efficient use, but the funds appropriated to 
maintain Ventura Harbor have repeatedly fallen short of what is needed.
    In fact, according to the Army Corps of Engineers, nearly 1,000 
federal ports and harbors across the nation have not been adequately 
maintained due to inadequate budget requests and appropriations despite 
the funding being available through the Harbor Maintenance Trust Fund.
    We cannot grow our economy if we are not keeping these critical 
components of our infrastructure operational and I would ask the 
committee to fully appropriate the funds needed to maintain the ports 
and harbors in my district, and across the country.
    Another important economic driver in Ventura County is agriculture.
    Altogether, farming and farm-dependent businesses provide an 
estimated 31,000 jobs in Ventura County, generate $2.1 billion in 
revenue, and occupy more than 28% of my county's land.
    However, Ventura County farmers are constantly under threat from 
invasive species and diseases that threaten our crops and our family 
farms.
    Most recently, citrus farms--that account for nearly 40% of 
harvested acreage in my district--are facing a new battle against the 
devastating and deadly disease-spreading Asian Citrus Psyllid which is 
a disease to citrus without any remedies.
    Citrus growers in Florida have been fighting this deadly pest for 
years, and economists estimate the disease caused more than $4.5 
billion in economic damage and more than 8,200 jobs since it was 
discovered in 2005. We, as a nation, should offer learned and 
preventive solutions to ensure we never replicate the same economic 
disasters that our sister state has endured.
    We need to ensure our own federal agencies that provide essential 
services to safeguard our country's agriculture industry from 
destructive invaders get the resources they need to protect the farms 
and farmers across the country and in a district like mine where 
agriculture is the life blood and the historical fabric of communities 
like Oxnard, Camarillo, Filmore, and Santa Paula.
    Our nation's economic recovery depends on a vibrant agriculture 
industry--how could we possibly turn our backs on a pest that has 
almost destroyed an industry in Florida and not use our knowledge to 
proactively fight a deadly crop-destroying pest in other parts of our 
country? We must protect my county's economic vitality, which if it 
were destroyed, could take at least a decade or more to recover.
    These are only two examples of many where our priorities can lead 
to economic opportunities or economic destruction, not only in Ventura 
County, but across the nation. I urge this committee and my colleagues 
to address our budget priorities using a balanced approach that allows 
us to invest in our future economic growth.

      Prepared Statement of Hon. Cheri Bustos, a Representative in
                  Congress From the State of Illinois

    Thank you Chairman Ryan and Ranking Member Van Hollen for the 
opportunity to testify before the House Budget Committee today.
    I'm here today to talk to you about the first piece of legislation 
that I introduced as a member of Congress last month that has picked up 
support among both my Democratic and Republican colleagues. That is a 
bill called the Government Waste Reduction Act.
    Before I talk about the specifics of the bill, let me start by 
telling you a little bit about why I introduced this bill and why I 
think it is so important. Like so many people across my region of 
Illinois, I learned at a young age that balancing the family pocketbook 
and living within our means is a question of values.
    While some advocate getting our fiscal house in order by balancing 
the budget on the backs of the middle class, I think this is the wrong 
approach. I also think the across-the-board, automatic spending cuts 
known as sequestration that took effect on March 1, and that could harm 
vital interests in my district, like the Rock Island Arsenal, are also 
the wrong approach. That is why I have been against sequestration from 
the very beginning.
    What we need to do is to come together in a bipartisan fashion and 
work on a replacement to sequestration. We need to focus on common 
sense solutions that would reduce the deficit while preserving the 
important programs that so many middle class people across Illinois 
rely on.
    The Government Waste Reduction Act does just that. The bipartisan 
bill moves forward on recommendations the Government Accountability 
Office (GAO) made in reports issued in 2011 and 2012 that would reduce 
duplication in government, save taxpayer money, enhance revenue, and 
root out waste. Some estimates suggest that just implementing these GAO 
recommendations would save the government 200 to 300 billion dollars.
    Here is how the bill works. This bill establishes the Independent 
Government Waste Reduction Board tasked with implementing these GAO 
recommendations. The Board would consist of 15 Members, 6 determined by 
the House, 6 by the Senate, and 3 by the Administration.
    The Members would develop detailed and specific proposals related 
to the GAO recommendations, and they would be required to submit a 
legislative proposal that implements the recommendations. This proposal 
would then come to Congress for an up or down vote. Nothing in the 
proposal could cut benefits for veterans, members of the Armed Forces, 
or for seniors.
    Here are some highlights from the GAO report that might be good 
places to start when looking for cost savings.
    <bullet> The federal government has 47 job training programs, 44 of 
which overlap. Simply consolidating these programs that overlap can 
save taxpayer money while not impacting program quality.
    <bullet> Our federal approach to surface transportation is 
described by GAO as ``fragmented, lacks clear goals, and is not 
accountable for results.'' There are over 100 programs and 5 agencies 
within the Department of Transportation that are involved in surface 
transportation. Again, looking at ways to smartly consolidate some of 
these programs would save money while not impacting quality.
    <bullet> Finally, our ``fragmented'' approach to food safety has 
been described as ``an inefficient use of resources.'' The Department 
of Agriculture, the Food and Drug Administration, and an additional 
dozen or so agencies are involved in food safety in some way. We should 
look at ways to smartly consolidate these programs where it makes 
sense.
    As you can see, unnecessary duplication in government programs 
leads to inefficiencies and the loss of taxpayer money. My bill will 
serve as a bipartisan starting point for efforts to reverse this trend 
and lower our deficits in a responsible, common sense way that protects 
the middle class people of Illinois and our nation.
    Thank you again, Mr. Chairman, for the opportunity to testify 
today.

              Prepared Statement of Hon. Judy Chu, Chair,
          Congressional Asian Pacific American Caucus (CAPAC)

    Thank you for the opportunity to submit testimony on behalf of the 
Congressional Asian Pacific American Caucus (CAPAC). I am honored to 
have the opportunity to share some of the issues that are facing the 
Asian American and Pacific Islander (AAPI) community and ways that 
Congress can address our community's concerns.
                              civil rights
Civil Rights Enforcement
    The Civil Rights Division of the U.S. Department of Justice is 
critical to protecting the rights of all Americans. Unfortunately, the 
AAPI community continues to face a variety of issues: hate crimes are 
on the rise, voting rights are under attack, and employment 
discrimination is rampant. DOJ's Civil Rights Division is critical in 
combating these problems.
    According to the FBI, 6,628 hate crime incidents involving 7,699 
offenses were reported by law enforcement agencies in 2010.\i\ Nearly 
half of the attacks were racially-motivated, with anti-AAPI bias 
accounting for 5.1 percent of the incidents (up from 3.4 percent in 
2008). Anti- Muslim bias now accounts for 13.2 percent or reported 
incidents (up from 7.5 percent in 2008).\ii\ Without the proper 
resources, the Civil Rights division of the U.S. Department of Justice 
will be unable to ensure that hate crime offenses are aggressively 
investigated and prosecuted.
    AAPIs continue to face discrimination at the polls and numerous 
barriers that disenfranchise certain communities.\iii\ With more 
resources, the Civil Rights division can expand efforts to protect 
citizens' voting rights by addressing voting rights violations.
    A record number of Muslim workers in the United States have 
experienced alleged employment discrimination, including claims that 
co-workers called them ``terrorist'' or ``Osama'' and employers barring 
them from wearing religious garb or taking prayer breaks.\iv\ Muslims 
make up less than 2 percent of the United States population, but they 
make up about one-fourth of the 3,386 religious discrimination claims 
filed with the Equal Employment Opportunity Commission in 2009. Many of 
these practicing Muslims are of Asian descent. The Civil Rights 
division must be funded fully to increase efforts to eradicate this 
type of discrimination.
Community Relations
    Not only must we protect our civil rights, but we must foster an 
environment where all citizens feel respected and accepted. The 
Community Relations Service (CRS) in the Department of Justice can help 
promote these types of attitudes. CRS serves as the Department's 
``peacemaker'' for community conflicts and tensions arising from real 
or perceived discriminatory practices based on race, color, or national 
origin and helps communities prevent and respond to alleged violent 
hate crimes committed on the basis of actual or perceived race, color, 
national origin, gender, gender identity, sexual orientation, religion 
or disability. To carry out its goal, CRS implemented several 
strategies and programs including an Anti-Racial Profiling Program and 
Sikh Cultural Awareness program. We support full funding for CRS.
                              immigration
Immigrant Integration and Citizenship
    The Office of Citizenship plays a key role in immigrant integration 
by leading initiatives to promote citizenship awareness; supporting 
national and community-based organizations that prepare immigrants for 
citizenship by providing grants, educational materials, and technical 
assistance; and building collaborative partnerships with state and 
local governmental and non-governmental organizations to expand 
integration and citizenship resources. This office must be fully funded 
to support immigrant integration efforts, including funding for new 
programs supporting English language acquisition and citizenship 
education.
    We strongly support this request because these funds will greatly 
benefit the AAPI community and are critical to the success of the 
United States. Immigrants who integrate into U.S. society go on to 
become informed voters, active community members, innovators, 
entrepreneurs and job-creators.
    The Office of Citizenship has already helped thousands of people 
prepare to become citizens through Congress's support and it has helped 
to reinforce the network of excellent state service providers around 
the country. Strong support for integration programs boost human 
potential and make us a stronger nation.
Office of Civil Rights and Civil Liberties
    We also support funding for the Department of Homeland Security's 
Office of Civil Rights and Civil Liberties. It is important for the 
AAPI community that OCRCL--which oversees the 287(g) and Secure 
Communities programs--has the funding to support proper oversight and 
training so that ICE is not a conduit for discriminatory and abusive 
law enforcement practices.
                               education
Early Education Programs
    For many Asian Americans and Pacific Islanders, achievement gaps 
begin well before kindergarten. Multiple studies have shown that 
investing in quality early learning programs can yield a significant 
return-on-investment by reducing the costs of special education, high 
school dropouts, teen pregnancy, crime, incarceration, and dependence 
on social services later in life, and increasing the likelihood of 
college attendance and completion. Nearly 13% of Asian Americans and 
Pacific Islanders live in poverty,\v\ and certain subgroups such as the 
Hmong and Tongans have poverty rates of 29.9% and 18.1% 
respectively.\vi\ Access to early childhood education is critical to 
breaking this cycle and giving children a chance to succeed. For this 
reason, it is critically important to the AAPI community that our 
budget protect funding for Head Start, the Early Learning Challenge 
Fund, Child Care and Development Block Grants, and IDEA Part C grants 
to expand access to high-quality early childhood education.
English Language Learners
    One of the primary education challenges facing Asian American and 
Pacific Islander students are language barriers due to the high rates 
of limited English proficiency (LEP) within the AAPI community. 
Hispanic and Asian children are much more likely to be limited English 
proficient and linguistically isolated than non-Hispanic black and 
white children.\vii\ Approximately 24 % of all LEP students are Asian 
American.
    In addition, many AAPI students come from homes where English may 
not be the primary language spoken. As a result, many of these students 
enter school with limited English proficiency, and it may take several 
years for them to develop the language skills needed for academic 
success. According to the Census Bureau, the four languages spoken by 
the largest LEP populations after Spanish are Chinese (6%), Vietnamese 
(3%), Korean (2.5%), and Tagalog (1.9%). In addition, Southeast Asian 
immigrant and refugee communities report drastically higher rates of 
limited English proficiency than the general U.S. population. While 
only 8.7% of the U.S. speaks English ``less than very well,'' the rate 
is much higher for Southeast Asian populations: 39% for Cambodians, 37% 
for Hmong, 38% for Laotians, and 52% for Vietnamese Americans.
    The English Learner Education program is the Department of 
Education's primary program for serving English language learners and 
providing critical resources to help AAPI students develop and improve 
their English language acquisition. Therefore, CAPAC requests that 
funding for this critical program remain intact.
Higher Education
    Although Asian Americans are sometimes portrayed as universally 
excelling in school, disaggregated data shows that a large number 
within the community fall well below national averages with respect to 
both income and education. While AAPIs had the highest overall college 
graduation rates (44 %) of any group of students in 2000, certain 
subgroups have much lower rates of degree attainment. Only 13.8 % of 
Pacific Islanders, 13.8 % of Vietnamese Americans, 5.8 % of Laotian 
Americans, 6.1 % of Cambodian Americans, and less than 5.1 % of Hmong 
Americans successfully completed college.
    In addition, a large proportion of AAPI students are from low 
income backgrounds, the first in their families to attend college, and 
struggle to secure the financial resources to support themselves while 
in school.\viii\ Based on analysis of the National Postsecondary 
Student Aid Survey (2008), AAPIs also have greater financial need than 
other racial groups when taking into account expected family 
contribution and total aid. To increase degree attainment, institutions 
must recognize the unique needs and challenges that exist within the 
AAPI community, and begin addressing factors that are contributing to 
the low completion rates among these groups.
AANAPISI Program
    The authorized Asian American and Native American Pacific Islander-
Serving Institution (AANAPISI) program was created to designate 
Minority Serving Institutions that support low-income Asian American 
and Pacific Islander students with a variety of targeted services to 
help them overcome barriers to a college degree and put them on a path 
to success. The AANAPISI federal program is unique because it 
acknowledges the distinctive challenges facing AAPI students in college 
access and completion. It is important to our community that the 
committee provides $5 million in discretionary funding to the AANAPISI 
program to ensure that the higher education needs of underserved AAPI 
students are met.
TRIO Program
    Likewise, TRIO programs provide hundreds of thousands of students 
with the necessary support to enroll in and graduate from college and, 
ultimately, help narrow the gap between low-income, first-generation 
students and their peers. Adequate funding for TRIO programs is 
essential to helping the estimated 4,700 AAPI participants pursue and 
complete postsecondary education.
                                housing
Housing Counseling Assistance and Foreclosure Relief Programs
    Housing counseling programs that are able to work with the 
community in a linguistically and culturally appropriate manner have 
been essential in assisting AAPIs in navigating through various housing 
opportunities and the foreclosure crisis. In fact, AAPIs make up a 
substantial portion of the population in 6 of the 10 U.S. cities with 
the highest foreclosure rates.
    While homeownership rates between 2008--2009 for AAPIs have held 
steady at 59%, some sub-populations have experienced major declines. 
Hmong homeownership rates dropped from 50% to 42%, Bangladeshi 
homeownership rates dropped from 48% to 42%, and Korean homeownership 
rates from 51% to 49%.\ix\
    A study by the Asian Real Estate Association and the UCLA Asian 
American Studies Centers saw AAPIs experience a significant loss of 
equity following the national foreclosure crisis.\x\ The average loss 
from 2007 to 2009 was $42,900 for Asian Americans and $47,000 for 
Native Hawaiians and Pacific Islanders. The national equity loss during 
that same period was $9,100.
    Financial and foreclosure assistance is also much needed in AAPI 
communities. AAPIs who defaulted on their mortgage loans were more 
likely to enter into foreclosure because they were not aware of 
alternative options like loan modifications. They were also at a higher 
risk of predatory lending and scams.
    In order to assist these homeowners, we must first consider how to 
best reach and serve these communities. The AAPI community is 
compromised of two-thirds immigrants and refugees, represents 50 ethnic 
groups, and 100 language groups. Furthermore, there are nearly a 
million Native Hawaiian and Pacific Islanders. With these diverse 
needs, it is critical that there is support for housing counseling 
organizations--organizations that have built trust and rapport with 
minority and immigrant communities and can provide linguistically and 
culturally appropriate services to these constituencies. Housing 
counselors can provide these services only if they receive the proper 
funding to do so.
Community Development Block Grants (CDBG)
    Generally speaking, HUD programs are critical to our local 
communities and create opportunities for some of our most vulnerable 
populations. In particular, the Community Development Block Grants are 
important to the AAPI community because they provide funding to improve 
housing, living environments and economic opportunities for those with 
low and moderate incomes.
    There is no question that the economic crisis has had a tremendous 
impact on wealth. In the AAPI community, this impact has been more 
pronounced since households have loss 54% of wealth between 2005-2009--
primarily through the loss of wealth in property.\xi\ The loss of 
wealth has put significant restraints on the AAPI community's ability 
to revitalize their neighborhoods.
    Likewise, poverty rates have steadily increased within the AAPI 
community. Some parts of the community are living at 38% poverty rates 
and have larger than average households. Poverty has forced many AAPIs 
who were once homeowners to become renters. At the national level and 
for seven metropolitan areas, Asian homeowners live in overcrowded 
conditions at a greater proportion than the total population.
    That is why the Community Development Block Grant is vital to the 
AAPI community since the formula for awarding grants takes into 
consideration a community's poverty rate, population, and presence of 
overcrowding. These funds must be protected to rehabilitate, improve, 
and restore our communities.
Native Hawaiian Block Grants
    One in five Native Hawaiians and Pacific Islanders live in poverty. 
They are a population at high risk of foreclosure who continue to 
experience adverse treatment as renters comparable to Hispanic and 
African American renters.
    The Native Hawaiian Block Grants have been vital for new 
construction, rehabilitation, acquisition, infrastructure, and various 
support services for Native Hawaiians. More specifically, these grants 
provide affordable housing assistance to low-income native Hawaiians 
eligible for residence on Hawaiian Home Lands. We must continue to 
provide this vital assistance by funding the Native Hawaiian Block 
Grant at previous levels.
                               healthcare
    Access to healthcare remains a key issue for many AAPIs. 15.1% of 
Americans are uninsured, but that rate is higher for certain AAPI 
groups. In particular, South Asians, such as Bangladeshis (22.5%) and 
Pakistanis (22.9%), and Southeast Asians, such as Cambodians (21.3%), 
Hmongs (15.9%), Laotians (18.5%), Thais (19.9%), and Vietnamese 
(18.7).\xii\
Affordable Care Act
    The Affordable Care Act will provide these individuals and their 
families with improved access to affordable healthcare and essential 
health care services. Under the new law, Medicaid coverage will be 
expanded to cover children and adults with incomes up to 13.3 % of the 
federal poverty level. Almost 1.3 million AAPIs will be newly eligible 
for Medicaid. This Medicaid expansion will provide coverage to many 
AAPI individuals and families who would otherwise go without quality, 
affordable health coverage.\xiii,xiv\ To ensure that health insurance 
is affordable, the law will also provide refundable tax credits to 
offset a portion of the cost of health insurance premiums. It is 
estimated that close to 1.5 million AAPIs will be eligible for premium 
tax credits to purchase coverage.
    These coverage expansions should have a significant impact on AAPIs 
with low or moderate incomes. It is critical that the FY 2014 Budget 
fully funds the Affordable Care Act to ensure that we are on track to 
providing health coverage to the neediest members of the AAPI 
community.
Community Health Centers
    For far too long, the health challenges of AAPIs have gone 
unnoticed and the dangerous effects of this lack of knowledge and 
awareness have been deeply felt by the community. Among some Pacific 
Islanders, 20 percent of births are pre-term. Deaths from breast cancer 
are four times higher among some Asian-born women compared to their 
U.S. born counterparts. Rates of vaccine-preventable liver and cervical 
cancer among the Hmong community in California are 3 to 4 times higher 
than those of other Asian American groups.
    One important way to address these disparities is to fund community 
health centers. Community health centers provide quality, cost-
effective services, and are often the first in line to provide 
affordable care to the communities they serve. These centers play a 
critical role in expanding access by serving as a trusted safety net 
for AAPI communities and providing culturally and linguistically 
competent services to address some of the key barriers confronting 
AAPIs. Community health centers bring healthcare providers, services, 
and facilities to areas that are not often covered by other providers. 
We urge the committee to provide adequate funding for community health 
centers.
Hepatitis B
    Among the most serious conditions affecting the AAPI community is 
hepatitis B, an infection of the liver and the leading cause of liver 
cancer worldwide. About 1.3-1.5 million people in the U.S. are 
chronically infected with hepatitis B, with approximately 5,000-6,000 
people dying each year from hepatitis B related liver disease or liver 
cancer. Over half of the chronic hepatitis B cases and resulting deaths 
in the U.S. are concentrated among AAPIs. What is tragic about these 
deaths is that they are completely preventable with a vaccine that has 
been available for 20 years, but a lack of funds, limited patient and 
provider awareness, as well as heightened stigmas, have precluded many 
AAPIs from seeking the screenings and treatment needed to prevent these 
unnecessary deaths.
    We must protect funding for testing initiatives, surveillance, and 
the viral hepatitis coordinator programs to increase awareness and 
vaccinations for Hepatitis B.
Addressing Sequestration
    Sequestration comes at a time when major federal health initiatives 
are underway, including rapid implementation of the Affordable Care 
Act. If sequestration remains in place, the ACA's Prevention and Public 
Health Fund, the best tool the nation has to fight chronic diseases and 
improve the nation's health, would be slashed by 7.6 % or $76 million--
greatly harming community health programs already under way. I urge my 
colleagues to protect this funding for preventive initiatives that 
benefit AAPIs and all Americans.
                              territories
    The Office of Insular Affairs (OIA) carries out the Secretary's 
responsibilities for U.S.-affiliated insular areas. These include the 
territories of Guam, American Samoa, the U.S. Virgin Islands (USVI), 
and the Commonwealth of the Northern Mariana Islands (CNMI), as well as 
the three Freely Associated States (FAS): the Federated States of 
Micronesia (FSM), the Republic of the Marshall Islands (RMI), and the 
Republic of Palau. OIA is the primary federal program aimed at 
combating the economic and fiscal problems in the insular areas.
    Any reductions in OIA funding will translate to cuts to vital 
projects which foster development of the insular areas in 
accountability, financial management, tax systems and procedures, 
insular management controls, economic development, training/education, 
energy, public safety, health, immigration, labor, and law enforcement. 
I am requesting that the committee protect funding to the Office of 
Insular Affairs.
                                endnotes
    \i\ US Department of Justice, Federal Bureau of Investigation, 2010 
Hate Crime Statistics.
    \ii\ US Department of Justice, Federal Bureau of Investigation, 
2010 Hate Crime Statistics.
    \iii\ Meeting the Challenge: National Platform for Advancing 
Justice. Policy Priorities & Recommendations for Achieving Equity, 
Equality, and Justice in Asian American & Pacific Islander 
Communities.'' http://www.advancingequality.org/attachments/files/391/
Platform--for--Action.pdf
    \iv\ Greenhouse, Steven. ``Muslims report rising discrimination at 
work,'' The New York Times. 23 September 2010. http://www.nytimes.com/
2010/09/24/business/24muslim.html?--r=3&pagewanted=1&ref=business
    \v\ ``Asian Americans and Pacific Islanders- Facts, not Fiction,'' 
The Steinhardt Institute for Higher Education Policy, NYU. 2008.
    \vi\ ``American Community Survey,'' US Census Bureau. 2009.
    \vii\ http://www.urban.org/uploadedPDF/311230--new--demography.pdf
    \viii\ ``Federal Higher Education Policy Priorities and the Asian 
American and Pacific Islander Community'' The Asian and Pacific 
Islander American Scholarship Fund. 2010.
    \ix\ U.S. Census Bureau Data, 2008, 2009.
    \x\ Asian Real Estate Association of America. ``AAPIs Experience 
Significant Loss of Home Equity,'' AsianWeek.
    \xi\ Pew Research Center, ``Wealth Gap Rises to Record Highs 
Between Whites, Blacks and Hispanics,'' July 2011.
    \xii\ American Community Survey, 2009.
    \xiii\ ``How Health Reform Helps Asian Americans,'' Families USA, 
September 2010.
    \xiv\ How Health Reform Helps Native Hawaiians and Other Pacific 
Islanders,'' Families USA, September 2010

     Prepared Statement of Hon. Danny K. Davis, a Representative in
                  Congress From the State of Illinois

    Chairman Ryan, Ranking Member Van Hollen and members of the 
committee, I thank you for holding today's hearing affording Members of 
Congress an opportunity share our principal interests regarding the 
Concurrent Resolution on the Budget for Fiscal Year 2014.
    It's no secret that I have and will continue to advocate for 
programs that empowers individuals to be self-sufficient. Programs like 
the:
    <bullet> Second Chance Act, a bi-partisan approved reentry process 
that brings together a ``bucket of resources/services'' vital to 
removing barriers to successful reintegration. At its current funding 
level, the program cannot begin to service the roughly 700 thousand 
citizens released annually, of whom 400+ are returning parents, seeking 
a second chance in life. Indeed, for every cut made to the Second 
Chance Act, key provisions like housing, skill development and job 
placement, mental health and substance treatment and prevention and 
mentoring are being compromised. These reductions are hindrances to 
reducing recidivism and increasing public safety.
    <bullet> Health Disparities: Services are needed to address health 
disparities in the United States to provide access to quality health 
care for African Americans and other historically underserved 
communities, particularly those families living with Sickle Cell 
Disease (SCD). This disease is an inherited blood disorder that is a 
major problem in the United States. There is an estimated 72,000 
Americans live with the disease. More than 2.5 million Americans have 
the Sickle Cell Trait, including 1 in 12 African Americans. The average 
life span of an adult with SCD is 45 years. Rep. Danny K. Davis will 
reintroduce the Sickle Cell bill, ``To extend for 5 years the 
authorization of appropriations for the sickle cell disease prevention 
and treatment demonstration program,'' in the 113th Congress. Funding 
this national program will improve the lives of SCD patients through 
disease management programs to help them live longer, healthier lives 
while supporting research toward a comprehensive cure and providing 
community education about this disease and its treatment options.
    <bullet> Education Priorities: To improve the well-being of our 
citizens and our nation's competitiveness in a global economy, our 
Budget must invest heavily in the education of our youngest citizens, 
from preschool to graduate school. This investment is necessary to 
build the early childhood education system, to improve school 
readiness, to reduce achievement gaps among students from different 
backgrounds, and to improve graduation rates. To this end, we must 
maintain strong funding for Head Start and Early Head Start, K-12 
education, Title I, the Individuals with Disabilities Education Act, 
and for critical college preparation programs such as TRIO and GEAR UP. 
We must increase funding for Pell Grant to help low-income students 
succeed in college. No youth should be denied the opportunity to go to 
college; the federal Pell Grant is the federal program that helps low-
income students access and succeed in college. Further, we must support 
under-resourced institutions that educate and support large percentages 
of low-income students, such as Historically Black Colleges and 
Universities, Minority Serving Institutions, and community colleges. We 
must invest in education and training, including Transitional Jobs 
programs, the Workforce Investment Act Adult Program, Employment and 
Training Services, and Trade Adjustment Assistance programs. If we do 
not invest in education and training, our citizens suffer and our 
nation suffers.
    <bullet> Children Budget: Given that children make up a quarter of 
our nation's population and form the foundation of our nation's future, 
I ask that the Committee consider examining the federal investment in 
children and children's programs within the Budget. Accounting for 
federal dollars in this way will help us understand how well we are 
making the health and well-being of our children a national priority. 
Without this analysis, policymakers and the public are limited in our 
ability to know how children fare in funding proposals. Precedent 
already exists for examining the federal budget based on key areas of 
interest, including spending on programs related to homeland security, 
meteorology, climate, and drug control. By creating a children's budget 
at the federal level we can bring a renewed attention to children's 
issues and programs and guarantee a fair look at our national 
investment priorities.
    Mr. Chairman, I am always concerned about the amount of money that 
we spend for defense and other military purposes. We never allocate 
what I feel is appropriate and greatly needed for adequately investing 
in training opportunities for disadvantaged individuals prepare them 
for today's global service-oriented society. Let alone the core 
problems associated with poverty and criminal justice issues such as 
substance abuse and crime.
    In closing, we cannot ignore racial and economic divisions that 
continue to beset our nation's cities accompanied by rising inequality 
in social domains such as the quality of family and neighborhood life, 
equal access to education and health care, employment opportunities, 
and political participation. Together, we must embrace a comprehensive 
agenda to that ensures the well-being and safety of our children and
    Thank you very much and I yield back the balance of my time.

    Prepared Statement of Hon. Suzan K. DelBene, a Representative in
                 Congress From the State of Washington

    Chairman Ryan and Ranking Member Van Hollen, I thank you for the 
opportunity to testify before the House Budget Committee on the fiscal 
year 2014 budget resolution and its impact on Washington state and the 
nation.
    Like many families across my district, I have been disappointed by 
Congress' inability to address our nation's fiscal challenges. Moving 
from one manufactured crisis to the next and budgeting 60 or 90 days at 
a time is not the way to govern. I am deeply troubled by Congress' 
failure to stop the indiscriminate budget cuts known as sequestration, 
which must be replaced by a balanced, responsible approach to deficit 
reduction. It is time for us to craft policy that reduces our deficit 
and encourages job growth, not job losses.
    Businesses and families deserve a responsible, long-term budget 
that provides them with the clarity and visibility needed to plan and 
invest for the future. Every day we fail to provide this certainty is 
another day we are damaging our economy. We must draft a budget that 
cuts wasteful spending while protecting investments that preserve and 
create jobs. We need to cut the federal programs that we know are not 
working, and strengthen those programs that provide working families 
with the opportunity for success.
    The key priorities I identify here are centered on accelerating our 
economic recovery. As a businesswoman and entrepreneur, I know that 
government can build the foundation for long-term economic growth with 
smart policies and targeted investments. I am hopeful that this 
Congress will be able to do better than it has in the past, and I 
appreciate the opportunity to share a number of my priorities for the 
2014 budget resolution.
    For America to stay competitive in the global market, we must 
provide high-quality educational opportunities to all our students. I 
strongly urge this Committee to invest in our nation's education system 
by providing adequate funding for early learning, elementary and 
secondary schools, public universities and career and technical 
education programs. Rising tuition costs are making it increasingly 
difficult for low- and middle-income families to afford a college 
education for their children. The erosion of funding for workforce 
training programs is hurting our efforts to build a strong 
manufacturing base here in the U.S. These are trends we must reverse. 
It is vital that we fully fund the Pell Grant program and other forms 
of student aid to ensure that all students have the opportunity to get 
a great education and acquire the skills needed to compete in a global 
economy.
    I also urge the Committee to protect our investments in health 
care, which includes sufficiently funding the agencies charged with 
implementing the Affordable Care Act. We must invest in key programs 
that keep Washingtonians healthy, including the Prevention and Public 
Health Fund, mental health services for military families, and funding 
for the Indian Health Service, which helps deliver quality care to 
tribal nations in my district.
    Another priority for this Committee must be funding for our 
nation's local infrastructure. All of our states have roads, railways, 
ports or bridges that are in desperate need of repair. In my district 
we have heavily-traveled rural roads and a major interstate that 
require significant maintenance and safety upgrades. Investing today in 
this aging infrastructure, which acts as a lifeline to our local 
economy, will promote economic growth and ultimately save us money in 
the long run. As the most trade-dependent state in the nation, 
Washington's local economy is particularly reliant on a safe, working 
transportation system that efficiently moves people and goods. To get 
our economy back on track, it is essential that we provide adequate 
federal funding for these important projects.
    It is also imperative that this Committee continue our investments 
in research and development at the National Institutes of Health, the 
Department of Agriculture, the National Science Foundation and other 
federal agencies. The research and development projects funded by 
federal agencies will generate significant economic activity and help 
spur job growth in both the public and private sectors. Farmers in my 
district, for example, depend on the innovative research conducted at 
Washington State University with USDA funding to help improve 
efficiency, assure food safety and combat pests and diseases. 
Federally-funded research conducted at the University of Washington has 
led to innovations that inspired new start-up companies in the 
technology and life sciences industries, which are the source of many 
jobs in the southern part of my district. Without a doubt, basic 
research is a key component of an innovative and entrepreneurial 
economy, and is essential for the U.S. to remain a global leader in the 
medical, technological and agricultural discoveries of tomorrow.
    Finally, I hope that this Committee will demonstrate its commitment 
to federal programs that millions of Americans depend upon for their 
health care and income security. Medicare, Medicaid, Social Security 
and veterans' benefit programs all offer federal assistance to some of 
the nation's most vulnerable communities. Deficit reduction must be 
achieved in a commonsense way that doesn't just shift costs to our 
seniors or those with disabilities.
    Chairman and Ranking Member, I thank you again for the opportunity 
to testify. As you begin work on the fiscal year 2014 budget 
resolution, I urge you make wise choices that cut unnecessary spending 
but preserve the investments that are vital to our long-term economic 
growth.

    Prepared Statement of Hon. Marcia L. Fudge, a Representative in
                    Congress From the State of Ohio

    Thank you Chairman Ryan and Ranking Member Van Hollen for the 
opportunity to submit testimony for the record. My testimony will focus 
on those programs in the budget that are most crucial to ensuring that 
the needs and concerns of my constituents are a part of the roadmap 
this committee sets for our future.
               supplemental nutrition assistance program
    Our economy is slowly improving, but not fast enough when it comes 
to our low-income families. The essential and life-saving Supplemental 
Nutrition Assistance Program (SNAP) is the cornerstone of the nation's 
nutrition safety net, helping prevent millions of Americans from going 
without food. SNAP recipients are some of the most vulnerable among us 
with the average household earning an income of only 58.5% of the 
federal poverty guideline, and 83% of all benefits going to households 
with a child, an elderly person, or a disabled person.
    In recent years, SNAP has been the bearer of several 
mischaracterizations. It should be acknowledged that the recent 
increase in SNAP can be attributed to a record number of food insecure 
people in America, which in turn was directly related to the economic 
downturn and high unemployment. In fact, the number of unemployed 
people increased by 94% from 2007 to 2011, and SNAP responded with a 
70% increase in participation during this time period. SNAP 
participation growth has begun to flatten out as unemployment slowly 
begins to fall. The Congressional Budget Office has predicted that SNAP 
participation will begin to decline in 2015, with unemployment and SNAP 
participation returning to near pre-recession levels by 2022.
    Funding SNAP is a critical and sensible investment in hunger 
prevention and relief. Research has shown that hunger increases health 
care costs, lowers worker productivity, harms children's development, 
and diminishes children's educational performance. If the SNAP program 
is reduced, millions of children, people with disabilities, the 
elderly, and struggling, working families will be severely harmed. As a 
result, our country will witness more hunger and food insecurity, 
soaring health costs, and poor educational outcomes. Simply put, our 
citizens cannot afford cuts to a program that has consistently put food 
on their tables. We must sufficiently fund SNAP to ensure the program 
can carry out its charge of providing food assistance to low-income 
households.
                 the emergency food assistance program
    The Emergency Food Assistance Program (TEFAP) provides food 
commodities at no cost to low-income Americans in need of short-term 
hunger relief through organizations like food banks, pantries, soup 
kitchens, and emergency shelters. TEFAP has been viewed as a role model 
of public-private partnership because food banks combine it with 
private donations to maximize benefits beyond the budgeted amount for 
the program. However, as successful as the program has been, food banks 
and the like are still struggling to provide food to those in need. In 
2012, in my home state of Ohio, there were 8.6 million visits to 
emergency food pantries.
    Many of our food banks and pantries rely heavily on the commodities 
provided by TEFAP. Last year, 37 million people, one in eight 
Americans, received emergency food assistance through the nation's food 
banks. This figure represented a 46% increase in the number of clients 
served between 2006 and 2010. Food pantries are no longer simply being 
looked as a means to meet temporary acute food needs; they now have 
become part of many households' long term strategy to supplement 
monthly shortfalls in food. It is imperative to sustain the program 
though full funding for mandatory commodities given the steady demand 
for food assistance. There should also be a clarification of the 
Secretary of Agriculture's authority to purchase bonus commodities in 
times of high need for emergency food relief. Upholding this broadly 
supported bipartisan program demonstrates our country's commitment to 
the fight against hunger.
                              pell grants
    The Federal Pell Grant Program provides need-based grants to low-
income undergraduate and certain post baccalaureate students to promote 
access to postsecondary education. For Fiscal Year 2011-2012, in my 
home state of Ohio, there were 343,822 Pell Grant recipients, receiving 
a total of $1,124,927,585. With the assistance of Pell Grants, 45,450 
students were able to attend colleges and universities located in my 
Congressional district
    Too many students are forced to either forgo a college education or 
take on enormous sums of debt. The benefits of a college education 
cannot be overstated. According to the Bureau of Labor Statistics, the 
median weekly income for an individual with a bachelor's degree was 
$1,038 in 2010 whereas the median weekly income for an individual with 
only a high school diploma was $626 a week.
    No American child should be denied the opportunity to go to college 
and the Federal Pell Grant is the single largest source of federal 
grant aid supporting students in college. Any reduction to this program 
would make it difficult for many Americans to afford the cost of a 
higher education. We must continue to make the investment in our 
student's education in order to prepare them for the jobs of tomorrow. 
Pell grants are a major part of the educational investment we make in 
the lives of many low-income students. We must provide sufficient 
funding to this program to ensure the maximum grant amount is available 
to all eligible students.
                               head start
    Head Start is a federal program that promotes the school readiness 
of children from low-income families, ages birth to 5, by enhancing 
their cognitive, social and emotional development. Head Start programs 
ensure that children who are at high risk of failure are provided a 
world class preschool education along with other comprehensive services 
that give them a better, healthier start in life. These children enter 
school prepared for a formal education, and their parents, who are also 
in a high risk category, are offered interventions in a wide range of 
life skills. As a result, the parents leave their Head Start experience 
far better prepared for parenting and their own successes.
    In Fiscal Year 2011, 964,430 children nationally were enrolled in 
Head Start programs. Of these 964,430 children, 4,842 of the children 
and families reside in my Congressional district. The investment our 
country makes in the Head Start program ensures that many of our 
nation's most vulnerable students start school ready to succeed. It is 
crucial to our future that we continue to support Head Start funding.
                         promise neighborhoods
    Promise Neighborhoods significantly improve the educational and 
developmental outcomes of children and youth in our most distressed 
communities. Promise Neighborhoods carries out this mission by helping 
create communities where our youth can have access to great schools and 
strong systems of family and community support. In doing so, our 
children and youth will be prepared to attain an excellent education 
and successfully transition to college and a career.
    Promise Neighborhood dollars originated through the Obama 
Administration's attempt to replicate the success of the Harlem 
Children's Zone in Harlem, New York. Since Promise Neighborhood's 
origination, the Administration has awarded both planning and 
implementation grants to various neighborhoods. While many communities 
are currently benefiting from these dollars, there are many more 
applicants across the country with strong developing neighborhoods that 
need federal support. Many of these neighborhoods have continued the 
goals and mission of a Promise Neighborhood even though they have not 
received Federal funding. I strongly encourage the Budget Committee to 
invest in our high-risk neighborhoods by continuing to support Promise 
Neighborhoods.
                     national institutes of health
    Nested under the Department of Health and Human Services, NIH is 
one of eight health agencies of the Public Health Service and 
encompasses 27 separate Institutes and Centers. NIH's mission is to 
``seek fundamental knowledge about the nature and behavior of living 
systems and the application of that knowledge to enhance health, 
lengthen life, and reduce the burdens of illness and disability.'' 
Guided by their mission, NIH is regarded as the most powerful economic 
engine that annually invests more than $31 billion in medical research 
for the American people. Not only does NIH serve as the primary 
founding source for the research medical community, academia, and small 
business, but it is also the underpinning for the entire U.S. 
biomedical industry.
    The U.S. biomedical industry annually exports an estimated $90 
billion in goods and services and employs 1 million U.S. citizens with 
wages totaling an estimated $84 billion. As our workforce continues to 
diversify and grow, it will be critical to create viable employment 
opportunities that reach all Americans. NIH does just that, by endowing 
research in all 50 states and the District of Columbia. In Fiscal Year 
2011, NIH-funded research supported an estimated 432,000 jobs in the 
U.S. and generated $62 billion in new economic activity--more than 
double the taxpayers' investment. In order to create a sustainable 
local and national economy, we must remain committed to advancing 
technology, pursuing scientific innovation, and promoting cutting edge 
research.
    In addition to their role as an economic catalyst, NIH's research 
greatly impacts the lives of everyday citizens. This includes 
individuals diagnosed with diseases such as diabetes, cancer, heart 
disease, immune-mediated diseases, and Alzheimer's, as they are in dire 
need of treatment as they pursue healthy and productive lives. It would 
be detrimental to reduce NIH funding given the agency's substantial 
contribution to the U.S. economy through job creation and research. NIH 
creates jobs, saves lives, reduces health costs, and strengthens the 
nation. We must do all we can to protect its funding.
                               job corps
    Job Corps has and continues to play a pivotal role in the success 
of our nation's youth. It is the largest career technical training and 
education program for low-income students ages 16 through 24. For 45 
years, Job Corps has been America's premier drop out recovery program. 
Over 85% of its graduates find jobs, enroll in higher education, or 
enlist in the military. It is the most rigorously evaluated and 
accountable job training program in the Department of Labor's 
Employment and Training Administration. A program designed to assist 
our low-income youth learn a career, earn a high school diploma or GED, 
and find and keep a good job must be strongly supported. The Job Corps 
program must be adequately funded to ensure our youth have the 
opportunity to succeed.
                      national infrastructure bank
    The current condition of the infrastructure in the U.S. is 
particularly lackluster. Our country spends less than 40% of what it 
needs to meet its infrastructure needs. It has been estimated that more 
than $250 billion is needed annually for the next 50 years just to 
bring transportation infrastructure up to par. Nearly 700,000 bridges 
in the U.S. are structurally deficient. One-third of our roads are in 
poor, mediocre, or fair condition. Repairing the nation's crumbling 
infrastructure is not just a safety issue: it is an economic issue. It 
has been established that infrastructure projects create immediate 
jobs. According to the Federal Highway Administration, for every $1 
billion spent on highway and bridge construction, nearly 25,000 jobs 
are created. The concept of a National Infrastructure Bank has received 
broad bipartisan support and it is critical it be funded.
                       graduate medical education
    Direct Graduate Medical Education (GME) payments help fund the 
teaching costs of residency programs, such as resident salaries and 
benefits, faculty salaries and benefits, and administrative overhead 
expenses. Under GME, the Children's Hospital Graduate Medical Education 
(CHGME) program assists freestanding children's hospitals by providing 
funding to assist residents at these facilities. Since CHGME came into 
existence, many children's hospitals, including those located in my 
Congressional district, have been able to train the next generation of 
pediatricians.
    According to the Centers for Medicare and Medicaid Services (CMS), 
there are over 1,030 teaching hospitals that directly employ over 2.5 
million people. Often time, these teaching hospitals are among the 
largest employers in their communities. Additionally, teaching 
hospitals are major economic engines--generating business, employment 
and tax revenue in the regions they serve. It will be vital to maintain 
the funding for GME payments as we continue to prepare our next 
generation of doctors who can offer reasonable and accessible health 
care through the Affordable Care Act.
    Again, thank you for the opportunity to address the Committee. I 
respectfully request that the budget priorities I have outlined be 
given full consideration and included in the record.

     Prepared Statement of Hon. Tulsi Gabbard, a Representative in
                   Congress From the State of Hawaii

    Mr. Chairman, Ranking Member Van Hollen, and members of the 
committee, I appreciate the chance to testify before you today.
    My testimony today is guided by the principle that deficit 
reduction should not increase unemployment and poverty, nor harm the 
disadvantaged. In Hawaii, we understand that we are all in this 
together and that each of us must be part of the solution. We recognize 
that spending cuts that would disproportionately fall on the backs of 
most vulnerable here and abroad will damage the very fabric of our 
communities.
    As we all know, we face many fiscal and economic challenges, and as 
a nation, we will have to make some difficult decisions to put our 
budget on a more sustainable path. Meeting these challenges requires a 
balanced approach. We cannot cut out way to prosperity and we cannot 
ask the least among us to solve our nation's fiscal crisis.
    I cannot overstate the importance of the defense industry as a 
driver of our economy in Hawaii. Reductions in defense spending must be 
responsible and cannot come at the expense of our military readiness. 
We must bring our troops home from Afghanistan and continue the 
transformation of our military into an agile force for good that can 
meet the growing and evolving threats of today, as opposed to the 
conflicts of yesterday.
    Foreign aid also plays an important role in addressing the 
complicated and numerous issues affecting the United States' interests 
abroad. The small investment we make--historically, just one percent of 
our budget--is critical in preventing the need for military 
interventions across the globe. Programs like the National Guard State 
Partnership Program require minimal expense with a great return on 
investment by building positive relationships and through cultural and 
military exchanges.
    After waging war for more than a decade overseas, our nation must 
do more to ensure that the brave men and woman who have served receive 
the support, benefits and opportunities they so richly deserve. By 
providing the necessary funding, and instilling additional efficiency, 
we can reduce the lengthy backlog at the Department of Veterans 
Affairs. We should do all that is within our power to make sure the 
transition from servicemember to veteran and civilian is seamless. The 
social cost of failure is too great.
    I support a plan that combines common sense tax reform with 
pragmatic spending cuts don't disproportionally affect our middle class 
families or seniors. This balanced approach will allow us to make 
investments now which will promote economic prosperity, growth, and 
innovation while also strengthening our national defense and upholding 
our responsibilities to our kids, our seniors, and our communities.
    Making smart investments in the short term will not only grow our 
economy and create good jobs for the middle class, it will reduce 
future costs. Strategic spending on infrastructure, defense, and the 
development of the green energy technologies of tomorrow will save the 
taxpayer billions in energy costs and will cement America's status as 
the world's leading innovator. Acting now to strengthen our social 
safety net by focusing on prevention allows us to spend less on the 
back end for our social ills. Finally, investing in the education of 
tomorrow's leaders is the best investment we can make to ensure a 
strong and stable economy and future for all people.
    Thank you.

   Prepared Statement of Hon. William R. Keating, a Representative in
                Congress From the State of Massachusetts

    Mr. Chairman, Ranking Member Van Hollen, thank you for the 
opportunity to testify before the Budget Committee.
    My constituents on Cape Cod, the Islands of Nantucket and Martha's 
Vineyard and the South Shore of Massachusetts have strong opinions 
about how their taxpayer money should be spent. Moreover, many are 
concerned about the divided atmosphere in Congress and across the board 
cuts that will impact thousands of families across Massachusetts. 
Further, the long-term costs of this manufactured crisis on healthcare, 
education, security and US competitiveness in the global arena are 
still yet to be seen, but are worrying many of my constituents. I am 
here to communicate their views.
    When I testified before the committee last year, I focused on the 
importance of women's safety and healthcare, community block grants, 
drug abuse prevention and job creation. Since then, there have been 
many positive developments including the passage of the Violence 
Against Women's Act just last week and the restoration of over 140 
critical positions at the Otis Air National Guard Base. Some of my 
proposals--like tax credits to hire veterans returning from Iraq and 
Afghanistan--have found consensus and been implemented. Yet, job 
creation and employment protections for jobs going overseas still 
remain on the top of my list of priorities. For this reason, I urge the 
Budget Committee to be weary of shortsighted austerity that will 
eliminate job-creating initiatives and compromise our safety for the 
sake of immediate savings. Further, I would urge a proactive solution 
to this budgetary crisis. Mr. Van Hollen, I wholeheartedly support and 
have cosponsored your bill to replace the sequester with smart, 
targeted cuts to the oil and gas industry as well as refocusing direct 
payments to large, corporate farms.
    Most importantly, I would urge the Committee to protect our budget 
from impeding the growth of the renewable energy sector, marine 
technologies as well as job training and workforce development 
initiatives.
    My district, particularly the South Coast, is inexorably linked to 
the ocean. Throughout the 19th century, what is now my district was the 
heart of the global whaling and fishing industries. Today, we are in 
the midst of a disaster as our fishermen wait for supplemental relief. 
I know that relief is not under this Committee's jurisdiction, but I 
would urge for funding toward NOAA's National Marine Fisheries' Service 
be devoted to cooperative research efforts between scientists and 
fishermen. The cost of monitoring by NOAA should not have to fall on 
the backs of our fishermen.
    We can create more opportunities by harnessing our Nation's rich 
coastal and marine resources. Our region is perfectly suited to 
cultivate the marine and renewable energy industries--and benefit from 
the multiplier effect of the jobs they will produce. My district alone 
is poised to supply our country with 20% of its offshore wind energy 
needs.
    Last month, I had the pleasure of bringing together various federal 
agencies and local development groups in New Bedford to conduct the 
first meeting of the New Bedford Terminal Working Group.
    The construction of South terminal is estimated to expand business 
output by $44 million and generate $19.2 million of additional 
household income in Bristol County over a two year period; General 
operations are expected to increase business output by $15.6 million 
and generate $5.6 million in additional household income each year.
    Further, construction and maintenance of the 130-turbine 
installation of Cape Wind is expected to provide an increase of $457 
million in business output and generation of over $160 million in 
household income across the state over an estimated three-year 
construction period;
    And it doesn't end there.
    Various transportation options, including SouthCoast rail, and 
potential job training opportunities will incorporate our academic 
facilities with the men and women from New Bedford's fishing industry 
and other industries and serve as a model for coastal communities 
throughout the country.
    I am testifying here today because this budget is intricately 
linked to the future of my district.
    I am concerned that unexempted programs under sequestration, which 
include programs directly linked to South Terminal and related 
developments in New Bedford like the EPA, SBA and the Army Corps, will 
suffer. I urge this committee to safeguard investments that have 
already been made to increase innovation and grow our economy. I hope 
that we can communicate and realize the potential of certain projects 
for our country while admitting to the repetition and waste of others.
    Further, I would urge the Committee to take a second look at the 
importance of conservation programs like the Prescott Grant Program and 
others that protect our marine resources.
    These programs not only safeguard a very unique National resource 
but also attract tourism and create jobs in areas that are only 
seasonally productive. In this regard, I would also like to take a 
moment to ask to maintain funding for program like the Small Business 
Innovation and Research Program and the Navy's Defense University 
Research Instrumentation Program, which will help promote undersea 
technologies as well as others both domestically and abroad.
    Finally, I would like to talk about something that is at the heart 
of my public service career: combating substance abuse. It is a sad 
fact that 1.7 people die a day in Massachusetts from opiate-based drug 
overdoses. And, the effects of addiction can be seen throughout our 
country.
    As a former DA, I am a strong proponent of drug courts and SAMHSA 
funding to assist those working to prevent abuse and overdose. The Drug 
Court Discretionary Grant program helps to develop treatment drug 
courts that integrate substance abuse treatment, mandatory drug 
testing, and transitional services for non-violent, substance abuse 
suspects.
    The American people understand: this is the year of budget 
constraints. My testimony not only reflects the priorities of the Ninth 
Congressional District of Massachusetts, but echoes the messages I have 
heard from across the country.
    We must ensure that this budget incorporates effective funding 
decisions that encourage efficiency but do not overlook the critical 
needs of Americans of all backgrounds.
    Thank you, Mr. Chairman.

                                             U.S. Congress,
                                    Washington, DC, March 11, 2013.
Hon. Paul Ryan, Chairman; Hon. Chris Van Hollen, Ranking Member,
Committee on the Budget, 207 Cannon House Office Building, Washington, 
        DC 20515.
    Dear Chairman Ryan and Ranking Member Van Hollen: Thank you for 
your invitation to submit comments regarding the budget for fiscal year 
2014. For the first time since I have taken office in 2009, this 
Congress has an opportunity to draft its budget without being in the 
midst of the financial crisis of 2008. Slowly but surely, a recovery 
shows signs of taking hold across the country. For the third 
consecutive year, real GDP rose in 2012 by 1.5 percent. Housing prices 
have finally stopped their free fall and actually rose 9.7% year-over-
year in January, the largest gain since 2006. Just last week, the 
Department of Labor announced that our economy added 236,000 jobs as 
the unemployment rate dropped to 7.7%.
    As the recovery strengthens, much work remains to maintain its 
momentum and protect our gains. My state of New Mexico continues to 
suffer from 6.7% unemployment, a rate that exceeds the state 
unemployment rate for the decade before the crisis. New Mexicans have 
given back much to our country, through the search for scientific 
knowledge at our national labs to the proud tradition of service in our 
nation's armed forces. When our county has needed us, New Mexicans have 
been there. The people that I have talked to in my travels around the 
state do not want and do not expect to be handed something for nothing. 
They want to work, to have a sense of purpose, to be able to provide 
for their families. But too often of late those opportunities have not 
been there for them. That is why I urge the members of this committee 
to come together with a focus on the concerns that are most pressing in 
the lives of the people we are honored to represent. With many issues 
needing our attention, let us not lose focus on the need to spur job 
creation and get our economy moving.
    For the past two years, the House has devoted much attention 
towards the cause of deficit reduction, but at the expense of our 
current need to create new jobs and our long-term need to invest in 
education and innovation. House Republicans have conditioned the full 
faith and credit of the United States government upon the sequester's 
imposition of arbitrary budget cuts to even the most critical programs. 
Despite reports that the sequester could lead to the loss of 750,000 
jobs and cut our economic growth by a third, the House has yet to pass 
a plan to prevent it this Congress and has not even publicly announced 
an intention to negotiate with the Senate or President Obama on a more 
balanced plan. Most alarmingly, the past two House budgets have asked 
seniors and the less fortunate to shoulder the largest burdens of 
deficit reduction, and House Republican leadership has asked that this 
be a prerequisite for ending the sequester as well.
    As we all know, the nation's long-term budget deficit remains to be 
a concern. After a decade of raising inadequate tax revenue, fighting 
two of the longest wars in our history, and suffering the greatest 
financial crisis in almost 80 years, the nation's fiscal surplus 
rapidly deteriorated and the debt increased once again. As we look 
towards the future, there are troubling signs on the horizon--an aging 
population having to make do with an inefficient and expensive health 
care system, an economy struggling to provide opportunities for the 
long-term unemployed, and a resistance to making the investments we 
need to spur innovation and growth. For the past two years, this 
committee has attempted to respond to these issues with budget 
resolutions that avoid confronting them in favor of shifting 
responsibility onto seniors and low-income Americans. Instead of 
addressing the root causes that threaten to increase our health costs 
at an exponential rate, this committee has proposed benefit cuts to 
Medicare recipients that would make our system more expensive for 
everyone and weakened the support of Medicaid for low-income and 
disabled Americans. Instead of working to stabilize the economy and 
increase opportunities for unemployed workers and struggling 
businesses, this committee has proposed extreme and rapid cuts that sap 
our economy of its vitality and force the uncertainties of an unending 
series of ``cliffs.'' Instead of taking advantage of historically low 
interest rates to rebuild America with new infrastructure and education 
resources, this committee has sought indiscriminate cuts to even our 
most vital programs in the name of deficit reduction.
    As this committee prepares a budget resolution for the next fiscal 
year, I urge you to come together to reduce our current budget deficits 
in a balanced way that rejects benefit cuts to our crucial entitlement 
programs or budget cuts for programs that benefit the country in ways 
that far outweigh their deficit impact. A number of our colleagues in 
the House, including Ranking Member Van Hollen, have made proposals to 
do this, and I urge the committee to heed their advice to attain 
balanced deficit reductions and avoid the harmful job losses of the 
sequester. We must work towards a sustainable path for our federal 
budget, but we cannot force our seniors, veterans, military families, 
and least fortunate Americans to shoulder the largest share of the 
burdens of deficit reduction.
    With the growing number of troops coming back from Afghanistan and 
those who have served in Iraq and past conflicts, it's important to 
deliver care and services to the individuals and families who have 
earned it. It is irresponsible to allow the sequester to threaten the 
quality of life for our military families while their spouses or 
parents are away from home to fight for our country. While much of the 
VA is exempt from the sequester, we must ensure that moving forward we 
fund the VA at adequate levels so that we can address the increasing 
number of troops coming home, while providing adequate care to veterans 
currently in the system.
    The United States also must abide by its treaty responsibilities to 
the sovereign people of tribal nations. Under the sequester, tribes 
could lose almost $130 million, impacting areas such as human services, 
law enforcement, BIE schools, economic development and natural 
resources. Specifically, for the Indian Health Service, sequestration 
could result in about 3,000 fewer inpatient admissions and 804,000 
fewer outpatient visits provided by IHS and Tribal hospitals and 
clinics. In addition, some key education programs could feel the impact 
of sequestration immediately. Many school districts qualifying for 
Impact Aid receive a high percentage of their overall funding from 
federal sources and use the money during the current school year. 
Sequestration would eliminate about $60 million for this program, which 
serves approximately 113,000 Native students. Many of these schools are 
counting on federal funds to meet the basic needs of students and to 
pay teacher salaries this spring, potentially forcing districts to make 
wrenching, mid-year adjustments. There are smarter and more balanced 
ways to achieve deficit reduction without placing this burden on the 
backs of those who need help, and tribal communities should not be 
disproportionally affected by budget cuts.
    We must also look forward and invest in our nation's education 
system, which can mean a stronger America for generations to come. If 
our goal is a better economy--education is how we get there. As global 
competition in the development of advanced technologies increases, our 
country risks losing its preeminence in the global community for 
innovation in the sciences, mathematics, and engineering. As a 
Congressman from a minority-majority state, I well aware of the severe 
shortage of Hispanic and Native American students in science, 
mathematics and engineering fields. The continuing under-representation 
of Hispanic and Native American STEM students and the growing shortage 
of scientists, mathematicians and engineers require serious investment 
in the development of STEM education pipelines for minority 
communities. The higher education needs of our Native American and 
Hispanic students can be unique, and Tribal Colleges and Universities 
and Hispanic Serving Institutions provide vital educational 
opportunities for these under-represented communities. As you draft the 
next budget, I urge you to reverse the painful cuts to education 
programs that make it even more likely that New Mexicans from Tribal or 
minority communities or those who are living in poverty will drop out 
of school. These cuts to education funding are cuts to our nation's 
long-term future, and I urge you to hold them harmless from the 
sequester and future cuts.
    We must protect research and development as these drive our long-
term security and prosperity. In particular, our national laboratories 
possess unique and valuable capabilities and perform some of the most 
important research for the nation. The two national laboratories in my 
home state of New Mexico, Los Alamos and Sandia, also provide crucial 
national security expertise, including advanced technologies for cyber 
security. By directing investments towards the research and development 
projects done by the labs at Los Alamos and Sandia, we will reap 
enormous benefits down the line. The labs are working on new 
technologies that will make America safer, more energy-efficient, and 
environmentally sustainable We must invest in their research 
capabilities as a source of jobs today and of innovation for the 
future. In order to reap the full rewards of these research 
investments, we should fund technology maturation programs that 
encourage promising new technologies, often in partnership with private 
entities. Without this important step many promising technologies are 
left undeveloped.
    Investments in clean energy are important to the future of our 
economy and the energy security of our nation. Over the past four 
years, the renewable energy sector has begun to expand and the cost of 
energy produced from renewable and clean sources has become more 
affordable. Despite what some critics say, the DoE's guaranteed loan 
program and other Federal governments programs have been successful in 
helping develop clean energy. In fact, the government has had a long 
and successful history of investing in research and development 
projects that spur new technologies--the Internet being a prime 
example. We must continue investing in our energy future and 
investments in clean energy are no exception.
    It is my hope that Congress passes a new Farm Bill with long term 
budget priorities. While we continue to operate under the 2008 Farm 
Bill, funding for Rural Development programs and drought insurance 
programs is crucial. Rural Development provides direct investments to 
help agricultural producers, small businesses, tribes and rural areas 
build local economies. In addition, many of our traditional 
agricultural producers in New Mexico, including acequia communities, 
have been impacted by drought and we must ensure that assistance is 
available for those who need it. During the past two years New Mexico's 
dairy industry has been hit hard by the flawed Dairy Product Price 
Support Program's pricing system. We can fix these issues by finally 
passing a Farm Bill similar to those passed by the U.S. Senate and the 
House Agriculture Committees during the 112th Congress and must not 
lose sight of the needs of our agricultural producers during the 
current budget process.
    Finally, substance abuse is one of the most pressing public health 
concerns facing our nation. According to the 2010 National Survey on 
Drug Use and Health, an estimated 22.6 million Americans aged 12 and 
older had abused illegal drugs over the past month. In New Mexico, our 
communities in particular know the impact of illicit drugs and 
overdose. For many years New Mexico has been among the states with the 
highest rates of substance abuse. A strategy to combat substance abuse 
must include a range of approaches including prevention, treatment, and 
law enforcement elements, and it cannot be done in a purely top-down 
approach. It will require all of us to work together to coordinate 
federal, state, county, and local government responses and this 
Committee must ensure that we have the resources for this important 
work. The impact of the sequester will already severely limit resources 
to families, communities, and organizations committed to tackling 
substance abuse through prevention and treatment--and additionally 
impacting the fight by hampering law enforcement's ability to pursue 
criminals who would illegally market prescription or illicit drugs. Our 
budget priorities must reflect our priorities for safe and healthy 
communities, which requires the resources to combat and treat substance 
abuse.
    Thank you for your attention to these important issues as you craft 
the Fiscal Year 2014 budget. Investing in priorities that will create 
jobs and strengthen the middle class are critical to our efforts to 
build a sustainable economy and federal budget. I urge you to work to 
make these investments while seeking a balanced approach to deficit 
reduction.
            Respectfully submitted,
                                             Ben Ray Lujan,
                                                Member of Congress.

 Prepared Statement of Hon. Gloria Negrete McLeod, a Representative in 
                 Congress From the State of California

    Thank you Mr. Chairman, ranking member and members of the 
committee. I appreciate the opportunity to provide written testimony on 
the budget and the related programs that will be impacted as a result 
of cuts to vital services.
    The budget should reflect the ideals of compassion, fairness and 
equality that Americans proudly share. When the budget proposals are 
set forth by this committee, I would ask that it reconsider any further 
cuts that would negatively affect our children, seniors, veterans, and 
small businesses.
    As a member of the Agriculture's Subcommittee on Department 
Operations, Oversight, and Nutrition, I want to ensure our children and 
students receive the best nutritional options available through 
programs such as SNAP. More than half of children in my district 
receive free or reduced lunch. Further cuts to federally funded 
programs such as those put forward would threaten the ability to 
adequately feed our nation's children.
    I want to highlight the Women, Infants, and Children program, known 
as WIC, which provides nutritious foods, nutritional education and 
referrals to health and other social services to participants at no 
charge. WIC serves low-income mothers and young children who are at 
nutrition risk.
    My district comprises one of the highest WIC participation 
populations in California with more than 56,000 case loads in October 
of 2012 alone. Participation in WIC results in positive health outcomes 
for women, infants, and children while saving tax payer money. For 
every dollar spent on pregnant women in WIC there is a significant 
return in Medicaid savings for newborns and their mothers.
    My district is reflective of the country's fastest-growing 
population of people aged 65 and over. With the increase of seniors, 
the need for in home-and community-based services also grows. Yet the 
programs that finance these services have received no increased funding 
for the past several years. I urge you to consider the long term 
impacts budget reductions will have to our nation's senior population.
    Through the reductions of the Medicaid program, states could be 
forced to substantially reduce or eliminate Medicaid home care, home 
health, and adult day services. These cuts would result in seniors 
using more expensive services, such as hospitals and nursing homes.
    Programs that are meant to sustain a senior's independence such as 
the Older Americans Act programs have been underfunded for many years. 
In view of the growing numbers of seniors who need these services and 
their cost-effectiveness, I urge this committee to increase funding for 
supportive senior services such as the National Family Caregiver 
Support Program and Meals on Wheels which help older individuals with 
care needs to receive services that enable seniors to remain in their 
own homes.
    Lastly, we should continue to support the Small Business 
Administration and find ways to make it easier for small businesses to 
create jobs while not generating fiscal uncertainty in our economy 
through adverse policy making. The success of our overall economic 
recovery depends on how well small businesses fare because more than 2/
3 of the jobs created in the United States come from small businesses.
    There are economic indicators suggesting that the local economy in 
my district and the surrounding area is improving. This is particularly 
important for my district cities that faced some of the highest 
unemployment rates in the nation during the past recession. Small 
businesses are beginning to hire again and the Inland Empire is 
experiencing an increase in the high-tech job sector. Many of these 
high-tech jobs are also high-paying, making it essential that this 
industry continues to stimulate further economic growth in the Inland 
Empire.
    In closing, I ask that my recommendations be considered in the 
coming weeks as the federal budget is negotiated. The American people 
want us to solve our differences and create a balanced budget however 
it should not be at the expense of seniors, children, and small 
businesses.
    Thank you.

    Prepared Statement of Hon. Markwayne Mullin, a Representative in
                  Congress From the State of Oklahoma

    Chairman Ryan, Ranking Member Van Hollen, and members of the 
Committee: Following the enactment of President Obama's sequester, and 
the failure of Congress to come together to resolve our budget crisis, 
it is necessary now more than ever for us to find commonsense solutions 
to our fiscal problems. Members of Congress on both sides of the aisle 
have agreed that some cuts are necessary in order to reduce our 
national deficit, although the lack of consensus on how much and where 
to cut have led to the painful, across-the-board cuts that we are now 
experiencing. These widespread, untargeted cuts hurt good programs and 
cause unintended consequences, affecting our troops, federal employees, 
contractors, and everyday Americans.
    It is the responsibility of Congress to do everything in our power 
to find the most effective, least painful cuts in order to put our 
country back on the path of fiscal stability. In a federal government 
that has grown in size as much as ours, surely we can find many areas 
of duplication, waste, and abuse to cut first.
    I would like to draw to your attention one particular area where 
savings can be found. Each year, the Federal Government makes roughly 
$115 billion in improper payments to individuals, contractors, and 
organizations annually. These payments are made in excess of what 
should have been paid and are often made to ineligible Medicare, 
Medicaid, Disability Insurance recipients just to name a few. 
Astoundingly, our government has made improper payments in excess of 
$100 billion in each of the past four fiscal years. Reported improper 
payments for FY2012 reached $108 billion, although a Government 
Accountability Office (GAO) report found that not all agencies have 
developed improper payment estimates for all of their programs, likely 
pushing the real total of improper payments even higher.
    Before cutting funding for things like our military's operations 
and maintenance accounts that ensure our troops are well trained and 
supplied, I would urge you to first reduce the amount of waste in 
government, including the billions lost in improper payments.

    Prepared Statement of Hon. Robert Pittenger, a Representative in
               Congress From the State of North Carolina

    Thank you Mr Chairman for allowing me the time to testify today 
before the House Budget Committee.
    Peter Orszag, former budget director for President Obama, recently 
told a gathering of freshman Representatives that ``unless you deal 
with the debt, you're playing games with the country. Unless you deal 
with entitlements, you're playing games with the debt. You better go 
fix it.''
    For too many years, our leaders have irresponsibly put off the 
tough decisions necessary to place our country on sound financial 
footing. Even President Obama seems to be ignoring the problem, as he 
never even mentioned our $17 trillion debt during his inaugural address 
and State of the Union speech.
    American taxpayers deserve and expect an accountable government, 
not a bloated bureaucracy in need of credit counseling. Each passing 
year makes the decision more difficult and the changes more painful. 
Medicare will be insolvent by 2024, which means we are rapidly 
squandering any chance to fix the problem.
    Our $17 trillion debt, which currently results in $220 billion in 
annual interest payments, is a drag on our economy, deterring our 
ability to create jobs for American families. Reforming entitlements 
must be done to help our economy grow today and provide for the future
    Any plan to reform entitlements must preserve the current benefits 
promised to this generation, while providing ample opportunity for the 
next generation to prepare. However, we must be strong and take action. 
We can enact a responsible plan to preserve these important safety nets 
for future generations, or we can do nothing and watch as American 
families suffer even more after Medicare and Social Security collapse.

      Prepared Statement of Hon. Martha Roby, a Representative in
                   Congress From the State of Alabama

    I want to thank the esteemed Chairman and the members of this 
Committee for the opportunity to share my thoughts on the budget 
situation. Thank you for your continued hard work on this most 
important issue.
    As Thomas Jefferson wrote, ``The whole art of government consists 
in the art of being honest.'' I fear that too often our government 
fails to meet that basic standard. We've seen it from past Congresses, 
from past Administrations, and, indeed, from the current 
Administration. I believe I speak for the majority of the people in my 
district who are, frankly, tired of the misleading statements, scare 
tactics, and intellectual dishonesty that is so common in this 
Administration's words and deeds.
    We've witnessed this strategy most recently during the ongoing 
dialogue about the Budget Control Act's automatic cuts known as 
sequestration.
    Let me point out three basic observations about sequestration. 
First, sequestration will have a range of very important consequences 
for our government and our national defense. Second, the federal budget 
generally, and sequestration specifically, are complicated issues 
foreign to the overwhelming majority of Americans. Third, even if 
unfamiliar with the specifics, everyday Americans care deeply about the 
fiscal and national security of our country.
    Together, these basic facts emphasize why it is so important that 
we, the elected leaders of this country, take every reasonable step to 
accurately inform the public about the policies and procedure of its 
government. It's hard enough for the elderly or hardworking parents or 
young people getting started in their careers to follow the actions of 
the federal government. Injecting misleading information in the public 
debate only makes matters worse.
    This Administration should be ashamed of its response to 
sequestration. Spreading unsubstantiated rumors, making threats and 
withholding critical information in order to scare the American people 
is not leadership. Perhaps the pettiness of this Administration's 
behavior was best symbolized last week when they announced the White 
House would be closed to the public for tours due to sequestration. The 
stuff of Lincoln and Churchill, this is not.
    Regarding the larger budget situation, it is obvious that we need 
to continue our effort to rein in spending and reduce the size of the 
federal government.
    Thanks to the leadership of many in this chamber, we have made 
significant progress under rather difficult circumstances. The House 
has stemmed the tide of reckless spending that washed across the 
federal government in 2009 and 2010. Our efforts continue to right-size 
government effectively, which is why I come before you today.
    There is a smarter way to cut federal spending than the automatic 
across-the-board cuts of sequestration. I am specifically worried about 
the disproportionate cuts that the military is being forced to endure: 
roughly one half of the cuts will affect defense accounts that make up 
less than 20 percent of the federal budget. That is a fact people 
across the country need to understand. As I mentioned, people in my 
district are truly concerned about the consequences of this policy--
especially in areas near Ft. Rucker and Maxwell Air Force Base.
    I am convinced that we can do better. This week, the House passed 
legislation to keep the government operating through the end of the 
fiscal year and to allow the Pentagon some flexibility to allocate the 
required cuts to areas that will have less impact on national defense 
and operational capabilities. That is a good first step.
    I sincerely hope that this Committee will take the next budget 
resolution as another opportunity to alter the disproportionate cuts of 
sequestration. It is time to reprioritize these cuts and stop balancing 
our fiscal future on the back of our military. These men and women and 
their families who have dedicated their lives to this country deserve 
better than to be treated as pawns in a game of political 
brinksmanship.
    In doing so, I hope the Committee will continue to recognize that 
our country must address the true driver of future debt a serious 
problem that we must tackle: mandatory spending.
    Let me offer one other note about honesty. I remain committed to 
finally ending the practice of using budget gimmicks to distort the 
truth about federal spending. Next week, I plan to re-introduce the 
Honest Budget Act, an important piece of legislation that would address 
some of the most common accounting tricks used by politicians to hide 
the truth, confuse the public, and run up the national debt. This 
approach is endorsed by numerous conservative groups, including the 
Heritage Foundation, Citizens against Government Waste, and Americans 
for Tax Reform.
    I strongly support approval of the Honest Budget Act in its 
entirety, and I welcome any future hearings this Committee may hold to 
examine its various provisions. That said, I believe a great deal of 
good would result from the Budget Committee adopting the underlying 
principles of this legislation while it considers the House budget 
resolution.
    Finally, Mr. Chairman, I hope you know that I am proud of your 
stated intent to balance our nation's budget. As we all know, it will 
not be easy to fight those long addicted to spending, taxing, and 
borrowing. They are well entrenched in Washington, and they will not 
cede easily. But, I hope you will count me as a partner in your efforts 
to restore fiscal sanity and commonsense to our federal government.
    Again, thank you for this opportunity to testify. I look forward to 
working with each of you in the future.

 Prepared Statement of Hon. Janice D. Schakowsky, a Representative in 
                  Congress From the State of Illinois

    Thank you, Chairman Ryan and Ranking Member Van Hollen, for giving 
me the opportunity to testify on your committee's consideration of the 
Concurrent Resolution on the Budget for Fiscal Year 2014.
    It's been said before many times--and it remains true--that budgets 
are moral documents. How we choose to allocate our resources is a 
direct reflection of the values we hold and the goals we hope to 
achieve to advance our nation and its people.
    As you begin work on this year's budget resolution, I encourage you 
to look with a clear eye towards the state of our economy, American 
workers, and the nation as a whole.
    Yesterday, the Dow Jones Industrial average hit an all-time high, 
completing a full-scale comeback since the depths of the Great 
Recession--more than doubling since hitting a low in March 2009.
    Major corporations are seeing record profits, and the extremely 
rich are seeing their incomes and wealth grow.
    But those successes are not universally shared. Inequality is at 
its highest point since the Great Depression, unemployment is stuck 
hovering around 8 percent and wages are stagnant--as they have been for 
decades--for most American workers.
    I'd like to quote a New York Times article from earlier this week:
    ``So far in this recovery, corporations have captured an unusually 
high share of the income gains. The U.S. corporate sector is in a lot 
better health than the overall economy. And until we get a full 
recovery in the labor market, this will persist.'' \1\
---------------------------------------------------------------------------
    \1\ http://www.nytimes.com/2013/03/04/business/economy/corporate-
profits-soar-as-worker-income-limps.html?hp&_r=0&pagewanted=all
---------------------------------------------------------------------------
    That quote is not from some liberal commentator--it's from Ethan 
Harris, the co-head of global economics at Bank of America Merrill 
Lynch.
    In early 2009, the President and Democrats took action to put a 
trampoline under the falling economy and boost it back up. The American 
Recovery and Reinvestment Act was a success, creating up to 3.6 million 
jobs, stopping the economic freefall, and bringing us out of a 
recession. But when Republicans took the House majority in 2011, they 
halted any further action to create jobs and immediately put in place 
efforts to cut spending, without regard to the potential economic 
effects. Their resistance to raising a single dime more from the 
wealthiest Americans lasted for two full years--and prompted multiple 
fiscal crises along the way, including holding the debt ceiling hostage 
in order to force through cuts. Finally, two months ago, we were able 
to come to an agreement to address the so-called ``fiscal cliff'' with 
a combination of spending cuts and revenue increases.
    But the damage has been done--too many Americans remain out of 
work, too many are working part-time jobs when they want to work full-
time, and too many have seen their wages stay the same or even drop in 
recent years. And if we don't act responsibly to repeal or replace the 
sequester, another 750,000 jobs will be lost, according to the 
Congressional Budget Office.
    We are at a critical moment here. Not just whether we will replace 
the sequester, but what it will be replaced with? Not just whether we 
address our fiscal challenges, but how?
    When crafting a budget that meets the true needs of our nation, we 
need to ask the following questions: Does it create jobs? Does it 
address inequality? Does it raise revenues in a fair way? Does it 
protect the vital benefits of Social Security, Medicare, and Medicaid? 
Does it preserve and boost investments that build the middle class, 
including education, job training, infrastructure, scientific and 
medical research, and renewable energy? Does it make smart cuts that 
target true waste, not opportunity?
    At the most basic level, we should not craft a federal budget that 
makes everyone else's budgets--workers, seniors, state and local 
governments, small businesses--worse.
    We should pass a budget that meets those tests and never pass one 
that doesn't.
    I hope as you work to craft your budget you will look at proposals 
that I have offered, including the Emergency Jobs to Restore the 
American Dream Act, the Fairness in Taxation Act, the Public Option 
Deficit Reduction Act, and the Corporate Tax Fairness Act. I also 
encourage you to look at the Balancing Act, which I offered with other 
members of the Progressive Caucus, as an alternative to the dangerous 
sequester cuts. The principles these bills are based on are what the 
American people say they want--job creation, more revenues from those 
who can afford to pay--including millionaires and wealthy corporations 
shipping jobs overseas, and smart spending cuts, including cuts in 
military spending that eliminate out-dated weapons systems and refocus 
our resources on 21st-century threats. Those are the principles that 
should be reflected in this year's budget.
    Thank you for your consideration and your time.

   Prepared Statement of Hon. Carol Shea-Porter, a Representative in 
                Congress From the State of New Hampshire

    Chairman Ryan, Ranking Member Van Hollen, and Members of the 
Committee, thank you for the opportunity to submit testimony on the 
fiscal year (FY) 2014 budget resolution and to share my concerns and 
priorities.
    As of March 1st, sequestration has taken effect across the nation, 
and with it, the $85 billion budget decrease required by the Budget 
Control Act of 2011. These sudden enormous and untargeted cuts across 
all government and military programs and departments will shock our 
recovering economy, both in New Hampshire and throughout the nation. 
Sequestration will cut essential services and investments, impacting 
everything from law enforcement and defense to education, medical 
research, infrastructure improvements, and nutrition programs. These 
government programs and departments ``promote the general welfare'' 
(U.S. Constitution, preamble) and are critical to ensure public safety, 
economic growth and prosperity, and national security. Sequestration 
cuts are bad policy and bad for the American people. Any cuts made to 
vital programs, departments, and infrastructure must be made in a 
targeted and gradual manner in order not to inflict severe harm on the 
American citizens they serve. As you consider the FY 2014 budget 
resolution, I hope you will work to replace these arbitrary cuts with a 
balanced plan that responsibly cuts spending and removes unnecessary 
tax breaks for special interests.
    The cuts to the Department of Defense budget are destructive and 
indiscriminate, and when added to the cuts of the last several years, 
will weaken our national defense by making our active duty military and 
reserve components less able to accomplish their mission.
    Located at the eastern edge of the First Congressional District, 
the Portsmouth Naval Shipyard (PNSY), with a workforce of over 5,000, 
has both an essential defense mission and an enormous impact on the 
region's economy. Both military readiness and the regional economy are 
threatened by these drastic sequestration cuts.
    The readiness of the U.S. Navy and the Shipyard will be impacted in 
a number of adverse ways.
    <bullet> The Office of Management and Budget has announced that the 
Navy's budget, which governs the four remaining U.S. public shipyards, 
including the PNSY, will be reduced by $4.3 billion in 2013, with a 
terrible impact on naval readiness.
    <bullet> The PSNY budget for 2012 was approximately $667 million, 
which means a projected $52,693,000 in cuts from the 2013 fund 
allotment for both payroll and operations.
    <bullet> According to a statement released by the Secretary of the 
Navy, the $450 million in repairs required by the U.S.S. Miami will be 
delayed due to sequestration.
    <bullet> PNSY performs critical repair, refit, and nuclear 
refueling work on Virginia-class submarines. Timelines for the work are 
scheduled years in advance and planned carefully to ensure maximum 
efficiency. Sequestration makes it extremely challenging to meet 
submarine availability schedules and deadlines. These sequester cuts 
will ultimately impact the ability of the U.S. submarine force to carry 
out its national defense mission. I'd like to note that the People's 
Republic of China built 4 submarines in 2011 and 6 in 2012, while we 
are only managing 2 per year. In order to maintain our naval security, 
we must ensure that every submarine we have undergoes, and completes 
necessary refits on schedule, which will be a near-impossible goal 
under the capricious delays caused by sequestration.
    There are also threats to the long-term effectiveness and 
performance of the Shipyard's civilian workforce.
    <bullet> According to the Public Affairs Department at PNSY, all 
civilian employees will be furloughed. PSNY will limit administrative 
furloughs for Shipyard workers to 176 hours (approximately 22 
workdays). Furloughs will commence on April 25, 2013 and will continue 
for 22 weeks, ending on or after September 21, 2013.
    <bullet> In accordance with the Chief of Naval Operations' 
directives, there is currently a civilian hard hiring freeze (including 
both internal and external hiring) in effect for the Shipyard.
    <bullet> The hard hiring freeze means that workers who retire, move 
away, or leave for any reason, cannot be replaced. Yet with tight work 
schedules and highly skilled workers required to get the job done, any 
reductions in workforce will soon have detrimental impacts on 
readiness, on the ability to get the job done on schedule, and the 
ability to deploy the submarine.
    <bullet> The civilian workers will have to endure a sudden, 
unbudgeted 20% pay cut. In addition to the demoralizing and unsettling 
impact of the uncertainty caused by sequestration, they may be unable 
to meet mortgage payments, their children's college tuition or other 
financial commitments. It is absolutely unfair to target these skilled 
and essential national defense workers in this way. It is also 
counterproductive. The newer, younger members of the workforce may just 
leave for a more certain job--an especially damaging possibility to 
readiness given the hiring freeze.
    In addition, the cascading economic impact of the cuts to PNSY will 
seriously damage the economy of the First Congressional District of New 
Hampshire. Over 2,000 of my constituents work there, and in 2011 
(latest figures available), the civilian payroll was $408.4 million, 
the military payroll was $40.5 million, and $8.5 million in PSNY 
purchased goods and services benefitted the New England economy. In New 
Hampshire the 2,137 civilian employees were paid a total of about $151 
million. The vast majority of those employees live in the First 
Congressional District.
    In order to keep our national defense strong, I ask you to restore 
the budget of the Portsmouth Naval Shipyard to the funding level that 
existed prior to implementation of the defense sequester.
    Sequestration cuts will adversely affect the readiness and 
personnel of New Hampshire's highly active, highly successful Air 
National Guard (ANG). The cuts would take a significant toll on Pease 
Air Guard Base, home of New Hampshire's only Air National Guard Unit, 
the 157th Air Refueling Wing.
    These cuts will have an adverse effect on the personnel and the 
regional economy.
    <bullet> The New Hampshire National Guard's 212 permanent ANG 
Military Technicians (MILTECHs) and 202 permanent Army National Guard 
(ARNG) MILTECHs, many of whom are based at the First District's Pease 
Air Guard Base, will face 22-day furloughs with a resultant 22% salary 
cut.
    <bullet> The National Guard expects these pay cuts to negatively 
impact the economies of communities where MILTECHs are based, such as 
the greater Portsmouth area.
    <bullet> These reductions may also result in highly trained 
MILTECHs leaving the force, leaving behind a less experienced and less 
capable unit.
    These cuts also pose a threat to the readiness of the Guard and its 
ability to respond quickly and effectively when called into duty.
    <bullet> The National Guard anticipates that furloughs of permanent 
MILTECHs will directly correlate to reduced training and unit 
readiness.
    <bullet> The National Guard has announced a MILTECH hiring freeze, 
which will also directly correlate to reduced training and unit 
readiness.
    <bullet> The National Guard has announced that all temporary 
MILTECHs, including New Hampshire's 18 temporary ANG MILTECHS and 14 
temporary ARNG MILTECHs, may face termination. Temporary MILTECHs fill 
positions left empty when permanent MILTECHs deploy. They play an 
essential role in maintaining unit equipment readiness in the absence 
of permanent MILTECHs. Termination of temporary MILTECHs may prevent 
the National Guard from meeting congressionally-mandated technician end 
strength floors established in P.L.112-239.
    <bullet> The ANG as a whole is expected to cut flying hours and 
weapon system sustainment by as much as 18%, leaving bases like Pease 
at unacceptable readiness standards by the end of FY 2013.
    The New Hampshire National Guard is a key component of our national 
defense and emergency response capability, and I ask you to restore its 
budget to the funding level that existed prior to implementation of the 
sequester.
    The First Congressional District's numerous defense contractors, 
large and small, will also be harmed by the sequester.
    <bullet> Prime contractors in NH-01, including BAE Systems and L3 
Insight Tech Inc., received $529 million in contracts from the Defense 
Department for FY 2012. $4,179,100 could be cut from New Hampshire's 
military procurement budget for FY 2013.
    <bullet> According to the Aerospace Industries Association, if a 
solution to sequestration is not found, 2,705 private sector New 
Hampshire jobs in industries that benefit from military procurement 
will be at risk.
    While the larger of the prime contractors will survive, suppliers 
and subcontractors are likely to go under, as the primes cut back their 
orders, resulting in more job losses as the impact spreads. The House 
Committee on Appropriations also reports that 1,004 other New Hampshire 
civilian employees can also be furloughed, taking approximately $6 
million in lost wages out of their pockets and out of the New Hampshire 
economy.
    In conclusion, I implore the members of this committee to develop a 
reasonable, responsible budget for FY 2014 that eliminates the 
indiscriminate and damaging cuts found in the Budget Control Act. I 
thank you for your time and consideration.

    [Whereupon, at 1:32 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
